    EXPLOSIVES INVESTIGATION 

   COORDINATION BETWEEN THE 

FEDERAL BUREAU OF INVESTIGATION 

   AND THE BUREAU OF ALCOHOL,

TOBACCO, FIREARMS AND EXPLOSIVES

        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 


            Audit Report 10-01 

              October 2009

  EXPLOSIVES INVESTIGATION COORDINATION BETWEEN 

      THE FEDERAL BUREAU OF INVESTIGATION AND 

          THE BUREAU OF ALCOHOL, TOBACCO, 

              FIREARMS AND EXPLOSIVES



                             EXECUTIVE SUMMARY


       The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) and
the Federal Bureau of Investigation (FBI) share jurisdiction for investigating
federal explosives crimes.1 Despite attempts at coordination and division of
jurisdiction, these components have historically developed separate and
often conflicting approaches to explosives investigations and related
activities such as explosives training, information sharing, and forensic
analysis.

OIG Audit Approach

       This Office of the Inspector General (OIG) audit examined the
Department of Justice (DOJ) oversight and the FBI’s and ATF’s operations of
explosives-related activities from fiscal year (FY) 2003 through April 2009.
The objective of this review was to evaluate the level of coordination
between the FBI and ATF in explosive investigations, including the
effectiveness of explosive incident protocols to determine lead agency
jurisdiction, the extent of information sharing and consolidation of explosives
data, the degree of training coordination, and the use of laboratory
resources for explosives analysis.2

       We conducted interviews with over 100 ATF and FBI employees,
including personnel from both components’ headquarters and in 8 locations
with both ATF and FBI field divisions or offices. Our FBI interviews included
officials in the Counterterrorism Division, Criminal Investigative Division,
Laboratory Division, and Critical Incident Response Group. ATF interviews
included officials from the Office of Field Operations, National Center for
Explosive Training and Research, Explosive Enforcement Division, U.S. Bomb


       1
          See Appendix III for a more detailed description of FBI and ATF explosives-
investigation authorities.
       2
         Explosives incidents include: actual or attempted bombings with improvised (i.e.,
homemade), misused commercial or military, or incendiary explosives devices (e.g.,
gasoline bombs); recovered explosives and explosives components; render-safe operations
to dispose of or destroy recovered explosives; accidental detonations of commercial
explosives; threats to bomb; and the use of hoax devices.
Data Center, and Laboratory. We also conducted interviews with staff in the
Office of the Deputy Attorney General and the DOJ Office of the Chief
Information Officer.

      We reviewed policies and procedures for explosives investigations and
interagency interactions, Special Agent training records, and explosives-
related course curricula. Additionally, we analyzed case data for FY 2003
through mid-FY 2008 from both components’ case management systems and
the Bombing and Arson Tracking System (BATS).3 We also developed and
sent survey questionnaires to all ATF and FBI Field Division Special Agents-
in-Charge, ATF and FBI Special Agent Bomb Technicians, ATF Certified
Explosive Specialists, ATF Explosives Enforcement Officers, and the
commanders of each accredited state and local bomb squad in the country.

      Appendix I contains a more detailed description of our audit
objectives, scope, and methodology.

Results in Brief

      Our audit found that the FBI and ATF are not adequately coordinating
explosives-related operations and have developed similar technical abilities
to respond to explosives incidents. Conflicts continue to occur throughout
the country regarding which agency is the lead agency for federal explosives
investigations and their differing explosives-handling techniques. These
disputes can cause confusion for local first responders about the roles of the
FBI and ATF during explosives-incident responses and delays in conducting
investigations. Disputes between ATF and FBI personnel have affected
working relationships, and in some locations have resulted in their racing to
crime scenes to determine which agency leads an investigation. The
disputes have also resulted in the two agencies declining to work and train
together.

       In 2004, DOJ attempted to define the roles of the FBI and ATF in
explosives investigations and related activities through an Attorney General
Memorandum.4 However, this 2004 memorandum contained ambiguous
directives for determining lead agency authority for explosives matters. In
addition, DOJ, the FBI, and ATF did not implement the memorandum’s
procedures for explosives information sharing and database consolidation,
training, and laboratory resources.

       3
         BATS is ATF’s automated incident reporting system developed to streamline the
gathering, retrieving, reporting, and archiving of investigative information of fires and the
criminal misuse of explosives.
       4
           See Appendix IV for the 2004 Attorney General Memorandum.

                                               ii
       A subsequent 2008 Memorandum of Understanding between the FBI
and ATF also did not clarify investigative jurisdiction.5 This memorandum
reiterated many of the ambiguous elements of the 2004 Attorney General
Memorandum and stated the FBI and ATF, in instances where the motive of
an explosives incident (e.g., a criminal act or terrorist incident) is not readily
apparent, will jointly investigate the incident pending a definitive
determination of intent. However, we found during this review that each
agency viewed the criteria articulated in the memorandum differently. In
addition, we found that a significant percentage of the FBI and ATF field
division managers and explosives specialists we interviewed or surveyed
believe their own agency should lead an investigation when the motive of an
incident is not readily apparent.6

      Our audit also found that the FBI and ATF maintain separate
explosives-related databases to manage laboratory forensic reports, incident
reporting, and technical explosives-related information and intelligence. The
2004 Attorney General Memorandum directed the consolidation of DOJ’s
explosives-incident reporting systems within ATF and required DOJ’s Chief
Information Officer to perform a feasibility study for consolidating all of
DOJ’s explosives databases. ATF identified BATS to be the DOJ’s
consolidated explosives-incident reporting system. Although the FBI
provided an initial data file of its explosives-incident information to ATF in
2004, it has not reported any subsequent explosives-incident information
into BATS. Moreover, ATF did not consolidate its own incident reporting
systems into BATS. DOJ’s OCIO conducted a feasibility study in November
2004 and concluded that DOJ needs to develop a more coordinated program
for access to arson and explosives information, resources, and technologies.
However, we found that DOJ has not adequately addressed the proliferation
of explosives related databases within the FBI and ATF. As a result, the
agencies’ separate databases cause a duplication of effort and the inability to
accurately determine trends in explosives incidents.

      The 2004 Attorney General Memorandum also directed ATF to
coordinate all DOJ post-blast explosives training and certify all explosive
detection canines deployed by DOJ components. However, the FBI and ATF
have not implemented either directive.

       5
           See Appendix VI for the 2008 Memorandum of Understanding.
       6
         Between 20 to 30 percent of FBI and ATF field division managers and about
40 percent of the FBI and ATF explosive specialists – Explosive Enforcement Officers,
Special Agent Bomb Technicians, and Certified Explosive Specialists – responding to our
survey believe their agency has initial lead agency jurisdiction when it is not clear whether
an explosives incident is related to terrorism.

                                              iii
        The 2004 Memorandum required that an Explosive Training Review
Board assess possibilities for consolidating all DOJ explosives-related training
and training facilities. DOJ did not convene the board and never examined
the feasibility of consolidating all DOJ explosives-training programs and
facilities. Instead, the FBI and ATF continue to operate separately their
respective explosives-training facilities and programs and they disagree on
certain aspects of training – for example, the guidelines for training
explosives-detection canines.

      The FBI and ATF each have laboratories that perform explosives-
related analyses. The 2004 Attorney General Memorandum directed that a
Laboratory Review Board be established to examine DOJ laboratory
resources and workloads and to make recommendations to the Deputy
Attorney General for the most productive allocation of DOJ laboratory
resources. Although a Laboratory Review Board was formed in September
2004, it still has not provided a report or recommendations to the Deputy
Attorney General.

       The issues we found related to investigative jurisdictional disputes,
database information consolidation and sharing, and the lack of coordination
between the FBI and ATF in explosives-related operations also increase the
risk that DOJ will not meet the requirements of Homeland Security
Presidential Directive (HSPD)-19, which requires a united, multi-layered
strategy to mitigate the threat and prevent the use of explosives by
terrorists.

      Our report makes 15 recommendations to DOJ, the FBI, and ATF to
assist in improving coordination and reducing conflict between the FBI and
ATF on explosives investigations and related activities. This audit report
contains detailed information on the full results of our review of ATF and FBI
coordination of explosives investigations and associated support activities.
The remaining sections of this Executive Summary discuss our audit findings
in more detail.

Background

      Federal law provides the FBI and ATF with concurrent jurisdiction over
most explosives incidents. After Congress merged ATF into DOJ, DOJ took
steps to direct greater collaboration between the FBI and ATF on explosives-
related matters. On March 4, 2004, Attorney General Ashcroft created the
Explosives Review Group (ERG) to “identify options and develop
recommendations” for the most effective coordination of explosives


                                       iv
investigations.7 The ERG completed its review and reported its findings and
recommendations to the Deputy Attorney General on May 3, 2004.

      In the ERG report, the FBI and ATF disagreed on the roles and
responsibilities of each agency for responding to and investigating explosives
incidents. In the ERG report, the ATF Chairman of the ERG stated that the
basis of the disagreement resulted from each component’s belief that it
would be best suited to coordinate DOJ assets at crime scenes involving
explosives. ATF believed it should have primacy because explosives
enforcement and related issues are inherent functions of its central mission;
FBI considered it to be the lead agency because it should determine whether
an explosives incident has a nexus to terrorism making it a matter
exclusively for the FBI to investigate. The FBI and ATF recognized that few
explosives incidents are terrorism-related.

      In response to the ERG’s recommendations, on August 11, 2004, DOJ
issued an Attorney General Memorandum entitled Coordination of Explosives
Investigations and Related Matters (2004 Memorandum) that directed:

   •   ATF to control the investigation of all explosive incidents, except in:
       (1) cases in which a Joint Terrorism Task Force (JTTF) determines the
       incident is related to terrorism, and (2) cases in which the FBI
       traditionally has exercised jurisdiction;8

   •	 all DOJ arson and explosives incident databases to be consolidated into
      a single ATF-maintained system accessible to all DOJ law enforcement
      components;

   •	 the DOJ Chief Information Officer to examine the potential for 

      consolidating all DOJ arson and explosives databases; 


   •	 DOJ to form a Laboratory Review Board to examine laboratory
      resources and workloads and develop recommendations for the most
      productive allocation of DOJ laboratory resources;


       7
          As mandated by the Attorney General’s March 4, 2004, Memorandum entitled
Review Group Concerning Coordination of Explosives Investigations and Training, the
Explosives Review Group (ERG) was comprised of senior officials from ATF (acting as Chair),
the FBI, Office of the Deputy Attorney General, Office of Legal Policy, and the Criminal
Division. The memorandum specifically identified as issues for ERG review: explosives-
related training, explosives investigations, and the maintenance of databases related to
explosives.
       8
         Examples of crimes within the FBI’s traditional jurisdiction that can involve
explosives include bank robberies, hate crimes, and organized crime.

                                              v
   •	 the establishment of an Explosives Training Review Board to review
      potential consolidation of explosives training programs and facilities,
      and the FBI and ATF to consolidate all post-blast explosives training
      budget, curricula, teaching, and scheduling functions under ATF; and

   •	 DOJ components to use only ATF-certified explosives-detection 

      canines. 


      The 2004 Memorandum also directed the Deputy Attorney General to
resolve all issues relating to: FBI-ATF jurisdiction over explosive
investigations; consolidation of FBI and ATF post-blast explosives training;
and consolidation of arson and explosives databases. The 2004
Memorandum also directed the Deputy Attorney General to oversee the
allocation and use of laboratory resources.

Determining Lead Agency Investigative Jurisdiction

       The ERG report made no recommendation regarding investigative
jurisdiction. The 2004 Memorandum is ambiguous regarding investigative
jurisdiction, which has contributed to conflict and ongoing coordination
issues between the FBI and ATF. The 2004 Memorandum assigns ATF
jurisdiction over all explosives incidents, except for incidents related to
terrorism and those within the FBI’s “traditional” jurisdiction. As a result,
each component can logically claim a right to respond to almost every
incident.

      One incident identified during the audit highlights how the ambiguous
language of the 2004 Memorandum is subject to interpretation and has left
the issue of agency investigative jurisdiction unresolved. In September
2004, an FBI field division assumed it had the authority to lead an
explosives investigation until it determined that there was no link to
terrorism. When the ATF disagreed with this interpretation, the United
States Attorney for that jurisdiction sought further clarification of the 2004
Memorandum from the Office of the Deputy Attorney General. According to
the United States Attorney, the Office of the Deputy Attorney General
responded:9




      9
          See Appendix VII for the memorandum from the United States Attorney.

                                           vi
      It is more accurate to say that this [the 2004 Memorandum]
      means the ATF has jurisdiction unless and until it is determined
      that the explosives incident is related to terrorism; than it is to
      say that the FBI or the JTTF has jurisdiction unless and until it is
      determined that the incident is not related to terrorism . . . that
      “default” jurisdiction is with the ATF.

       This response from the Deputy Attorney General’s office provides
significant guidance concerning which agency DOJ intended to exercise initial
lead-investigative authority, at least in circumstances in which jurisdiction is
unclear. Such a clarification, however, was never formally incorporated into
any policy, protocol, or other written direction provided by the Office of the
Deputy Attorney General to other United States Attorneys, the FBI, or ATF.

2004 Attorney General Memorandum Not Being Implemented

       In 2006, Deputy Attorney General Paul McNulty reconvened the ERG to
assess progress in implementing the 2004 Attorney General Memorandum
and to identify specific ways to improve coordination. The ERG reported to
Deputy Attorney General McNulty on January 12, 2007, that four of the
seven directives had no issues requiring resolution by the Office of the
Deputy Attorney General. The ERG report concluded that three of the seven
directives within the 2004 Memorandum – those relating to information
sharing, training, and explosives canines – either had not been implemented
or remained highly contested between the two components.10 Our audit
found that the FBI and ATF are still not coordinating explosives-related
operations and activities for these three areas and that the Office of the
Deputy Attorney General did not resolve any of these conflicts. In addition,
we determined that issues also remain unresolved for two additional
directives in the 2004 Memorandum – investigative jurisdiction and
laboratories.

Ambiguous 2008 Memorandum of Understanding

       After informal prompting by the Office of the Deputy Attorney General,
in July 2008 the FBI and ATF signed a Memorandum of Understanding that
was issued through the Office of the Deputy Attorney General entitled




      10
          The FBI and ATF developed white papers that they attached to the ERG report
describing each component’s competing position on the three contested issues.

                                           vii
Protocols for Response to Explosives Related Incidents (2008
Memorandum).11 The purpose of the 2008 Memorandum was to clarify the
roles and responsibilities of the FBI and ATF during explosives investigations
and to encourage a more productive partnership. However, the 2008
Memorandum did not change the criteria for determining lead agency
jurisdiction. As shown in the following table, both the 2004 and 2008
memoranda define jurisdiction according to the crime underlying the
explosives incident.

                                  Jurisdictional Definitions

        2004 Memorandum                               2008 Memorandum
ATF shall control the investigation of all
                                    Coordination of a joint response will be the
explosives events except:           responsibility of the respective Special Agents-
   • where the incident is terrorism,
                                    in-Charge:
       the JTTF is responsible         • the agency with responsibility for the
   • where the FBI has traditionally      underlying felony will assume
       exercised jurisdiction             investigative lead
                                        • where the incident is terrorism, the JTTF
                                          is responsible
Source: 2004 Memorandum and 2008 Memorandum

       The 2008 Memorandum requires the FBI and ATF to undertake a joint
response during the initial phase of an incident. ATF and FBI Special
Agents-in-Charge are directed to coordinate such joint responses under the
standard that “the agency with the responsibility for the underlying felony
will assume investigative lead, as coordinated by the [Special Agents-in-
Charge].” The 2008 Memorandum requires joint investigations pending a
definitive determination because jurisdiction may not be readily apparent at
the outset of a response.

       As shown in the following table, however, the results of our survey
questionnaires demonstrate that both components’ explosives specialists and
field management have widely divergent understandings of the 2008
Memorandum’s guidance on investigative jurisdiction when a link to
terrorism is unclear.




       11
          According to the 2008 Memorandum, the Attorney General, Deputy Attorney
General, and key representatives from the FBI and ATF developed the memorandum
regarding the DOJ response to explosives-related incidents. See Appendix VI for the July 8,
2008, ATF-FBI Memorandum of Understanding.

                                             viii
        Interpretations of 2008 Memorandum of Understanding

              2008 Memorandum                            Management     Specialists
           Lead Agency Interpretation                     ATF   FBI     ATF   FBI
 FBI leads for all explosives incidents unless and until it
 is clear no nexus to terrorism exists.                      5%   30%   4%    46%
 FBI leads unless or until it is clear that only ATF has
 jurisdiction.                                               0%   0%    1%     6%
 FBI and ATF jointly lead the investigation unless or until
 a clear nexus to terrorism or another traditional FBI
 jurisdiction is established.                               61%   42%   31%   24%
 FBI and ATF Special Agents-in-Charge will determine
 which agency leads on a case-by-case basis.                17%   21%   20%   16%
 ATF leads unless or until a clear nexus to terrorism or
 other traditional FBI jurisdiction is established.         17%   7%    40%    2%
 Don’t know                                                  0%   0%     3%    4%
 Did not Answer                                             0%    0%     1%    2%
 Source: DOJ Survey Analysis of survey questionnaire responses

       Because 17 to 30 percent of field division managers and about
40 percent of the explosives specialists in each agency responding to our
survey have diametrically opposed interpretations of the 2008
Memorandum’s lead jurisdiction language, we do not believe the
memorandum sufficiently clarified the issue. Further, the agencies did not
establish any protocols for joint responses as required by the 2008
Memorandum. In addition, the memorandum did not address the areas that
the 2007 ERG report identified as needing resolution – information sharing,
training, and canine matters.

Component Competition Rather Than Collaboration

      Our audit found that explosives investigation coordination between the
FBI and ATF is limited and that field divisions of both components sometimes
race to be the first federal agency on scene. Disputes have occurred when
one agency arrives first and the other agency believes the incident falls
within its lead agency authority. These disputes can delay investigations,
undermine federal and local relationships, and may project to local agency
responders a disjointed federal response to explosives incidents in their
area. We were told of incidents resulting in jurisdictional disputes in six of
the eight locations we visited, as described below.




                                           ix
                          Summary of Identified Disputes

    Location                                  Dispute Summary
Baltimore              July 2008 – The FBI encouraged a local bomb squad not to validate a
                       render-safe technique by remaining on scene and later prohibited ATF
                       bomb technicians from participating in FBI trainings.12 
 New York City         March 2008 – ATF attempted to refer a suspect for prosecution for a
                       bombing in Times Square despite an existing FBI case against the
                       suspect in another state.
 Phoenix               Nov. 2007 – ATF protested that it was not notified about a pipe bomb
                       found in a truck at the Palo Verde nuclear facility until several hours
                       after the FBI began investigating the incident.
 Seattle/Portland Dec. 2008 – FBI protested a state’s attorney’s request that ATF
                       conduct an investigation after a bomb blast killed a local bomb
                       technician.
 Los Angeles           June 2007 – ATF disputed late notification by the FBI in front of local
                       first responders during an investigation of an explosives magazine
                       blast in the Mojave Desert.
 San Diego             September 2007 – ATF disputed an FBI claim that explosives found at
                       a local bridge were consistent with terrorism in front of first
                       responders.
Source: OIG analysis of interview testimony

      To determine the extent of recent disputes between the FBI and ATF 

on explosives matters, we surveyed ATF and FBI management and 

explosives specialists regarding conflicts occurring in FYs 2007 and 2008. 

Approximately 20 percent of ATF and FBI management respondents were 

personally involved in resolving a dispute during this period. For ATF and 

FBI explosives specialists — personnel more likely to have contact with one 

another — more than 30 percent of ATF specialists and 40 percent of FBI 

specialists were involved in a dispute between the FBI and ATF. These 

disputes primarily involved whether an incident should be classified as 

terrorism-related and determining lead agency jurisdiction. Other disputes 

involved differences in evidence collection and handling techniques. 


       Both ATF and FBI explosives specialists responding to our survey
questionnaire agree that disputes delay interviews, postpone investigations,
and confuse state and local partners. We found the effect of a dispute may
taint the relationship between the components in those field divisions for
years afterwards. During our interviews of ATF and FBI specialists in several
locations, we found that these personnel had continuing negative opinions of
the other agency based on events that happened years earlier. For
example, personnel from both components in Seattle described a dispute
over an April 2005 fire-bombing of houses under construction in

        12
         In render-safe procedures, specialists neutralize unexploded ordnance (including
improvised explosive devices) to prevent an uncontrolled detonation.

                                              x
Lake Sammamish, Washington, as the low point of their relationship, from
which they still have not recovered. In this incident, ATF arrived at the
scene first and later sent evidence, including a banner claiming responsibility
on behalf of the Earth Liberation Front – an organization identified by the
FBI as a domestic terrorism enterprise – to its laboratory in California.
When the FBI arrived on the scene, it asserted that the banner clearly
indicated the incident was domestic terrorism. The conflict over
investigative authority ensued. FBI eventually assumed investigative
responsibility and retrieved the banner so it could be processed in the FBI
Laboratory rather than the ATF laboratory.

      As shown below, surveys of ATF and FBI explosives specialists indicate
the personnel most likely to interact have a poor opinion of the other
agency’s capabilities and contributions to explosives investigations.

   Opinions of Counterparts by FBI and ATF Explosives Specialists

                                   Strongly Agree Strongly Disagree Not Applicable
                                      or Agree       or Disagree    or No Answer
    Counterpart Assessment           ATF     FBI     ATF      FBI    ATF      FBI
Counterpart provides important
explosives and post-blast expertise     9%     13%         82%      77%   9%    10%
Counterpart adds needed
resources for obtaining evidence      18%       9%         72%      84%   10%    7%
Neither helps nor hinders             37%      28%         45%      50%   18%   22%
Counterpart duplicates capabilities
already on scene                      80%      89%         10%       5%   10%   6%
Counterpart differs in scene-
investigation methods                 65%      76%         15%      14%   20%   10%
Counterpart delays decision-
making on scene                       74%      80%          9%       8%   17%   12%
Other                                   2%      8%          0%       0%   98%   92%
Source: DOJ OIG analysis of ATF and FBI explosives specialists surveys

Information Sharing

      Our audit also found that the FBI and ATF have not established
adequate avenues for information sharing regarding explosives. The
components did not effectively consolidate and maintain one distinct
explosives-incident reporting database. In addition, although the DOJ’s
Chief Information Officer performed a feasibility study on consolidating other
explosives databases, DOJ has not adequately addressed the proliferation of
explosives related databases within the FBI and ATF.




                                           xi
Incident Reporting not Consolidated

      The 2004 Memorandum directed the consolidation of all DOJ arson and
explosives incident databases, including the FBI’s Automated Incident
Reporting System (AIRS) and ATF’s BATS into a single ATF-maintained
database.13 In 2004 ATF designated BATS as DOJ’s single database for the
reporting and sharing of explosives incident information. Federal law
mandates that all federal agencies report information concerning explosives
incidents to DOJ, and by extension to BATS.14 Reporting, however, is
voluntary for state and local agencies.

       Inconsistent Reporting

       Although the FBI discontinued use of its AIRS database and
transferred its AIRS data to the ATF’s BATS database in 2004, the FBI has
not reported any additional explosives incident information into BATS since
this initial data transfer. Likewise, ATF has not consistently reported all its
explosives incidents into BATS. Rather the FBI and, to a lesser extent, ATF
rely on state and local agencies responding to the same explosives incidents
to report information on the incidents to BATS. However, the FBI and ATF
do not have processes to ensure that state and local agencies actually report
to BATS. In fact, officials from both components told us they were aware of
significant under-reporting by state and local bomb squads of their
involvement in explosives incidents. By not reporting explosives incidents to
BATS and not ensuring that state and local responders reported to BATS, the
FBI and ATF have not complied with their reporting requirements and have
thereby reduced the utility of BATS.

      Instead of requiring explosives specialists to report explosive incidents
to BATS, the FBI requires its explosives specialists to report explosives
incidents and activities internally to its FD-542 database. From 2004 to
2008, we found 4,454 explosives incidents recorded in the FD-542




       13
           See U.S. Department of Justice Office of the Inspector General, Bureau of Alcohol,
Tobacco, Firearms and Explosives and Federal Bureau of Investigation’s Arson and
Explosives Intelligence Databases, Audit Report Number 05-01 (October 2004). An earlier
DOJ OIG audit found that DOJ had not efficiently and effectively collected and made
available to the federal, state, and local law enforcement community information relating to
arson and the criminal misuse of explosives. Specifically, the similar responsibilities of ATF
and the FBI in compiling data have resulted in duplication of effort, duplicate reporting of
incidents by state and local agencies, and a lack of uniformity in the reporting process.
       14
            18 U.S.C. § 846 (b).

                                             xii
database.15 FBI managers contend that information in the FD-542 database
is used only for internal resource allocation and personnel evaluations, not
for statistical or data-mining purposes. Regardless of the FBI’s objective in
maintaining the FD-542 database, the FBI is not reporting explosives
incidents to the single consolidated database maintained by ATF (i.e., BATS)
as required by the 2004 Attorney General Memorandum. As a result,
information about a significant number of explosives incidents may not be
contained in BATS, thereby undermining the utility of this database.

        In addition, an internal review by ATF concluded that the majority of
its field divisions were not reporting explosives incidents to BATS as required
by internal guidelines. ATF’s review revealed that 819 explosives incidents
were opened in its case management system from March through June
2008, but only 248 cases were reported to BATS.

       Ineffective BATS Implementation

       The audit found that ATF’s efforts to maintain and promote BATS as
DOJ’s single explosives incident database also suffered due to ineffective
efforts to encourage participation by the state and local explosives
enforcement community. Our survey of 470 state and local bomb squad
commanders revealed that a minority of the squads consistently reported
explosives incidents to BATS, and more than half rarely or never report
incidents in BATS for the reasons described in the following table.

                           Reasons for Not Using BATS

                                                         Number of
                       Reason                           Respondents Percentage
 BATS is difficult to use                                             55              41%
 ATF has not provided any training                                    32              24%
 Already reporting incidents to state database                        13              10%
 BATS requires too much detail and is time-
 consuming                                                            36              27%
 Not aware of BATS                                                     3               2%
 Other                                                                62              47%
  Source: OIG analysis of state and local Bomb Squad Commanders survey responses




       15
           We were unable to determine the number of explosives cases in which the FBI
was involved because the FBI’s case management system does not track this data. While
that system has a specific case classification code for explosives incidents that code does
not account for cases opened as domestic terrorism, international terrorism, or violent crime
violations involving explosives.

                                            xiii
       When asked about the reasons for not using BATS, half of the survey
respondents who checked the choice “other” indicated that access issues
such as difficulty in obtaining passwords or getting technical assistance
prevented them from using BATS. In addition, 41 percent of the state and
local bomb squad commanders who responded to our survey indicated that
their lack of participation had more to do with the difficulty in using BATS.
Further 24 percent indicated a need for BATS end-user training while 27
percent complained that BATS reports required too much information and
took too much time to complete.

DOJ Review of Explosives Databases

      In November 2004, the DOJ’s Chief Information Officer conducted a
feasibility study for consolidating all of DOJ’s explosives databases, as
required by the 2004 Memorandum. The assessment concluded that DOJ
needs to develop a more coordinated program for access to arson and
explosives information, resources, and technology. In addition to
maintaining rival bomb data centers to provide technical information to
explosives specialists, the DOJ components also each possess separate
databases for managing laboratory forensic reports, incident reporting, and
technical explosives-related information.

Explosives Training and Canines

      The audit found that the FBI and ATF continue to expand their
respective explosives training facilities, run uncoordinated post-blast training
programs, and disagree on training guidelines for explosives-detection
canines and on render-safe protocols. According to the ATF, it met with the
FBI to discuss explosives training issues in the months following the issuance
of the 2004 Memorandum as well as in December 2006 and May 2008.
However, DOJ never convened the Explosives Training Review Board
(Training Board), as required by the 2004 Attorney General Memorandum,
and did not examine the feasibility of consolidating all DOJ explosives
programs and facilities.

Explosives Training Facilities

       One of the objectives of the 2004 Memorandum was to review the
feasibility of consolidating DOJ explosives training facilities. However, since
the issuance of the memorandum, both the FBI and ATF have expanded
their explosives training facilities. The FBI opened a $23 million Hazardous
Devices School in 2004 which trains all civilian bomb technicians at the
Redstone Arsenal in Huntsville, Alabama. The FBI also completed a Secure
Training Facility for $4.8 million in October 2008 and has proposed

                                      xiv
$13.1 million for a large-vehicle-born explosives training facility at the
Redstone Arsenal.

       ATF currently maintains the National Center for Explosives Training
and Research (NCETR) in Fort A.P. Hill, Virginia, and the Canine Training and
Operations Support Branch located in Front Royal, Virginia. In addition, ATF
is constructing an NCETR facility at Redstone Arsenal.16 ATF has expended
$28.5 million on construction of this facility and sought another $41.6 million
of non-personnel funding for ranges, classrooms and development costs at
the facility. Neither component has made any attempt to consolidate
training or instruction in its explosives training facilities.

Explosives Training Programs

       The components also have not worked together to establish joint
explosives-training priorities – to identify what training is needed, who has
the most pressing need for the training, and who can best provide that
training. As a result, DOJ does not have a comprehensive approach for
providing explosives-related training to federal, state, and local
investigators. For example, both ATF and FBI have training requirements for
their explosives specialists to re-certify their status at mandatory intervals,
but as shown in the following table, both components are behind in re-
certification.

              Explosives Specialists Not Currently Recertified

                                                         Total        Percent Not
                      Specialist                        Number          Current
     ATF Certified Explosives Specialists                   241               57%
     ATF Explosives Enforcement Officers                      26              12%
     ATF Special Agent Bomb Technicians                        5                0%
     FBI Special Agent Bomb Technicians                     174               12%
      Source: ATF NCETR and FBI HDS as of March 2009

       According to ATF, funding for NCETR training has been declining since
FY 2004. In FY 2008, the NCETR was able to provide limited explosives
training, including only one re-certification course for Certified Explosives
Specialists, far fewer than the five or six courses necessary to keep all
personnel up-to-date on training. The FBI indicated that scheduling conflicts


       16
           In 2006, the conference committee report of Public Law 109-108 directed ATF to
plan for the construction of a permanent facility co-located with other law enforcement and
federal government entities that provide similar training and research. Plans to construct
the new NCETR facility at Redstone were approved by Congress and ground was broken for
the main building of the facility in November 2008.

                                            xv
prevented Special Agent Bomb Technicians from attending required re-
certification training. However, these specialists are still responsible for
explosives missions within their agencies, and public safety necessitates that
they obtain adequate training for re-certification.

Explosives Training Disputes

      Even though our review of the agencies’ training programs confirmed
the 2004 ERG report finding that ATF’s and FBI’s post-blast training is
essentially the same, our survey of ATF and FBI explosives personnel
indicated that 92 percent of FBI specialists and 83 percent of ATF specialists
rarely or never coordinated their post-blast training curricula. In addition,
ATF is responsible for certification of all DOJ explosives-detection canines;
however, the FBI continues to disagree with ATF on canine certification
standards. We also found that DOJ sent conflicting signals to the
components, directing that one standard for training canines be
administered through ATF, but also funding a working group seeking to
adopt a different standard through the FBI and DOJ’s National Institute of
Justice.

Laboratory Resources

      The FBI and ATF each have laboratories that perform forensic analyses
on various types of evidence, including explosives evidence. The FBI
Laboratory is located in Quantico, Virginia. ATF has laboratories located in
Ammendale, Maryland; Walnut Creek, California; and Atlanta, Georgia.
Additionally, the FBI and ATF are part of the Terrorist Explosive Device
Analytical Center (TEDAC), which is located within the FBI Laboratory in
Quantico, Virginia. TEDAC is an FBI-led initiative organized in response to
requests from the Department of Defense. It was created in December 2003
to coordinate and manage interagency efforts for gathering and forensically
analyzing terrorist Improvised Explosive Devices (IEDs) from war zones in
Iraq and Afghanistan. The Director of TEDAC is an FBI employee and the
Deputy Director is an ATF employee. Although TEDAC has its own staff and
forensic equipment, because they are housed within the FBI Laboratory,
dedicated FBI Laboratory personnel and equipment have been used to
conduct TEDAC analyses.

       We found that the average number of days required to process a
laboratory submission in ATF, FBI, and TEDAC laboratories varies
significantly, as shown in the chart below.




                                      xvi
                      Laboratory Explosives Submission Turnaround Times
                             for Fiscal Years 2004 through 200817

                                                   FBI          ATF          TEDAC
                                                                           1,370
                          1,400
      Average Number of




                          1,200
                          1,000
                            800
            Days




                            600                                                                            394   408         400
                                                                                         332
                            400   270             246         224
                                                                                               281
                                        141 143         135                                                            168
                                                                                   119
                            200                                                                      111

                              0
                                   2004            2005                      2006               2007              2008
                                                                      Fiscal Years

    Source: FBI Laboratory and ATF Laboratory

      The 2004 Attorney General Memorandum required a Laboratory
Review Board to examine DOJ’s laboratory resources and workloads,
including the effect of TEDAC, and make recommendations to the Deputy
Attorney General for the most productive allocation of DOJ laboratory
resources. However, we found no evidence that the Board fulfilled this
requirement. Further, because TEDAC and the FBI Laboratory share
resources, the large number of TEDAC submissions may adversely affect the
turnaround times in the FBI Laboratory.

Homeland Security Presidential Directive-19

      Shortly after the ERG issued its report in January 2007, President Bush
signed Homeland Security Presidential Directive-19 (HSPD-19) on
February 12, 2007, which required executive branch agencies to develop,
under the leadership of the Attorney General, a layered and unified approach
to aggressively deter, prevent, detect, protect, and respond to terrorists’
evolving efforts to employ explosives in the United States. The resulting
approach was documented in the National Strategy for Combating Terrorist
Use of Explosives in the United States (National Strategy), which the
President signed on December 20, 2007.

     To transform the National Strategy’s 36 recommendations into specific
and measurable actions, the Attorney General, in coordination with the
heads of other agencies, developed the HSPD-19 Implementation Plan. One

        17
           According to the FBI, FY 2006 average number of days significantly varied from
the prior and following fiscal years due to the closure of the Pentagon bombing submissions.

                                                                    xvii
key action outlined in the Implementation Plan was to identify and document
the specific roles and responsibilities of departments and agencies through
all phases of incident management for terrorist use of explosives.

      Additionally, the HSPD-19 Implementation Plan established an
HSPD-19 Implementation Joint Program Office (JPO) led by the FBI in
partnership with other agencies.18 According to the FBI, the JPO was
designed specifically to bring resolution to issues not previously resolved
through other mechanisms. For example, the FBI noted that the
Department of Homeland Security (DHS) and DOJ will co-lead an
interagency advisory board responsible for developing uniform standards for
explosives-detection canine teams, including annual certification and
recurring proficiency training. DHS and DOJ, building on the previous ATF
National Canine Advisory Board, created the National Explosives Detection
Canine Advisory Board, which includes participants from major professional
canine associations. The FBI believes that as a result of the creation of this
advisory board for the first time, there is consensus across the explosives-
detection canine community that national training and performance
standards are needed.

      However, we found that the JPO was not designed to function as the
deciding authority on roles and responsibilities for the FBI and ATF in
handling explosives incidents, but instead was conceived to be a formalized,
interagency discussion forum. Unless there is consensus among the
agencies involved the JPO cannot force settlement between components.
Therefore, while the JPO and its members may be used to assess and reflect
community opinion and advise on priorities, individual agencies will continue
to make programmatic and budgetary decisions independently.

       In our judgment, if DOJ does not conclusively address the issue of the
roles and responsibilities for the FBI and ATF in handling explosives incidents
and related matters, competition between the components on fundamental
issues involving explosives investigations and lead agency authority will
likely continue and impede the progress of HSPD-19 implementation.

Recommendations

       Our report makes 15 recommendations to DOJ, the FBI, and ATF to
assist in improving coordination and reducing conflict between the FBI and
ATF on explosives investigations and related activities. We believe it is
critical that DOJ issue a new directive to clearly define lead investigative
authority between the FBI and ATF and require coordination of investigative

     18
          The JPO, which meets monthly, had its inaugural meeting on April 8, 2009.

                                           xviii
actions when it is unclear at the outset as to which of the agencies has lead
investigative authority. Additionally, these recommendations include
developing protocols on joint investigations for explosives incidents,
implementing new policies to ensure both federal reporting to the BATS and
development of a more user-friendly system, as well as agreeing on
standardized post-blast curricula, render-safe procedures, and canine
training standards.




                                     xix
  EXPLOSIVES INVESTIGATION COORDINATION BETWEEN 

    THE FEDERAL BUREAU OF INVESTIGATION AND THE 

            BUREAU OF ALCOHOL, TOBACCO, 

              FIREARMS AND EXPLOSIVES


                               TABLE OF CONTENTS


CHAPTER I: INTRODUCTION ............................................................ 1

  Concurrent Legal Authority Over Explosives Crimes ............................ 1

      Agreements to Divide Concurrent Jurisdiction .............................. 2

  Parallel Explosive Capabilities .......................................................... 7

  OIG Audit Approach ....................................................................... 9


CHAPTER II: DETERMINING LEAD AGENCY JURISDICTION ........... 12

  2004 Attorney General Memorandum Not Implemented..................... 12

  Ambiguous 2008 Memorandum of Understanding ............................. 15

      Lack of a Coordinated Explosives Response Protocol ................... 17

      HSPD-19 Implementation Plans at Risk ..................................... 19

  Component Competition Rather Than Collaboration........................... 20

      Conflicts Continue to Occur ..................................................... 22

      Characteristics of Conflict ........................................................ 25

      Effects of Conflicts ................................................................. 28

  Conclusion .................................................................................. 33

  Recommendations........................................................................ 34


CHAPTER III: INFORMATION SHARING ......................................... 35

  Incident Reporting not Consolidated ............................................... 35

       Inconsistent Reporting............................................................ 36

       Ineffective BATS Implementation ............................................. 41

  DOJ Review of Explosives Databases............................................... 44

       Competing Databases and Bomb Data Centers........................... 44

  Challenges to HSPD-19 Implementation .......................................... 46

       Database Search Compatibility ................................................ 46

       Joint Terrorism Task Forces ..................................................... 47

  Conclusions................................................................................. 48

  Recommendations........................................................................ 50

CHAPTER IV: EXPLOSIVES TRAINING AND CANINES ..................... 51

  Explosives Training Facilities.......................................................... 51

      FBI Hazardous Devices School ................................................. 52

      ATF’s Training Facilities........................................................... 53

  Explosives Training Programs ........................................................ 54

      Training Priorities................................................................... 54

      Explosives Training Disputes ................................................... 55

  Conclusion .................................................................................. 62

  Recommendations........................................................................ 62


CHAPTER V: LABORATORY RESOURCES .......................................... 64

  DOJ Explosives Laboratories .......................................................... 64

      ATF Laboratories.................................................................... 64

      The FBI Laboratory ................................................................ 65

      Terrorist Explosive Device Analytical Center (TEDAC) .................. 66

  Explosives Forensic Analysis .......................................................... 66

  Explosive Review Board Report ...................................................... 67

  Conclusion .................................................................................. 69

  Recommendation ......................................................................... 69


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 70


STATEMENT ON INTERNAL CONTROLS............................................ 71


APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ................. 72


APPENDIX II - ACRONYMS.............................................................. 75


APPENDIX III - EXPLOSIVES AUTHORITIES ................................... 76


APPENDIX IV - 2004 ATTORNEY GENERAL MEMORANDUM ............. 80


APPENDIX V - 2007 EXPLOSIVES REVIEW GROUP 

    MEMORANDUM ....................................................................... 83


APPENDIX VI - 2008 ATF-FBI MEMORANDUM OF 

    UNDERSTANDING ................................................................... 90


APPENDIX VII - MEMORANDUM FROM A UNITED STATES 

    ATTORNEY.............................................................................. 97

APPENDIX VIII - CONSOLIDATED DOJ RESPONSE TO AUDIT 

    REPORT RECOMMENDATIONS................................................. 98


APPENDIX IX - -OFFICE OF THE INSPECTOR GENERAL 

    SUMMARY AND ANALYSIS OF ACTIONS NECESSARY TO 

    CLOSE REPORT ..................................................................... 100

CHAPTER I: INTRODUCTION

       The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) and
the Federal Bureau of Investigation (FBI) share jurisdiction for investigating
the criminal use of explosives. Since Congress specifically provided the FBI
and ATF with concurrent jurisdiction to investigate explosives crimes, both
agencies have developed similar, even parallel, operational and technical
abilities, such as responding to and investigating explosives incidents,
collecting and analyzing intelligence and forensic evidence, and training their
employees and other law enforcement agency partners.1 The framework for
coordinating explosives-related activities between the FBI and ATF is set out
in several agreements signed by the Directors of the FBI and ATF, by
mandates from the Attorney General, and most recently in a February 2007
directive issued by President Bush.

Concurrent Legal Authority Over Explosives Crimes

       The FBI has traditionally investigated several federal crimes that may
be committed with explosives, such as bank robbery, hate crimes, and
organized crime. In 1990, the Attorney General formally assigned the FBI
lead responsibility for investigating all crimes for which it has primary or
concurrent jurisdiction and which involve domestic terrorist activities.2 By
statute ATF, as part of the Department of the Treasury (Treasury), was
assigned primary jurisdiction governing the importation, manufacture,
distribution, and storage of explosive materials and enforcement of federal
explosives laws. In 1982, ATF was also given expanded authority to




       1
         Explosives incidents include actual or attempted bombings with improvised (i.e.,
homemade), misused commercial or military, or incendiary) explosives devices (e.g.,
gasoline bombs); recovered explosives and explosives components; render-safe operations
to dispose or destroy recovered explosives; accidental detonations of commercial
explosives; and threats to bomb and the use of hoax devices.
       2
          18 U.S.C. § 2332b (f) and 28 C.F.R. § 0.85. Section (l). Prior to 1990, the FBI had
already been investigating terrorist bombings under a series of Presidential directives, such
as a September 6, 1939, directive on subversive activities and the 1982 National Security
Decision Directive-30 entitled U.S. Policy on Counterterrorism. See Appendix III for a more
detailed description of FBI and ATF explosives-investigation authorities.
investigate crimes of arson involving not only explosives but also accelerants
such as gasoline and other flammable liquids.3

      In 2002, the Homeland Security Act, among other things, transferred
ATF enforcement functions from Treasury to the Department of Justice
(DOJ).4 The Homeland Security Act and the associated Safe Explosives Act
of 2002 state that ATF is responsible for investigating criminal and
regulatory violations of the federal firearms, explosives, arson, alcohol, and
tobacco smuggling laws and any other investigation of violent crime or
domestic terrorism that is delegated to ATF by the Attorney General.5

       The FBI and ATF currently investigate very similar criminal activities
involving explosives — differing mainly by the motive of the perpetrator or
the location of the crime. The FBI views explosives use as one of many
types of weapons criminals wield in furtherance of a terrorist act or another
underlying crime, defining its jurisdiction by the criminal motive. ATF, on
the other hand, views its explosives jurisdiction as covering any improper
use of explosives regardless of motive, defining its jurisdiction based on the
fact that an explosive is intended to be or has been used to commit a crime.
The concurrent authorities and differing rationale over jurisdictional
decisions have resulted in conflicts between the FBI and ATF concerning
which agency has lead investigative authority over specific explosives
incidents.

Agreements to Divide Concurrent Jurisdiction

       To address their concurrent investigative authority over explosives
crimes, the FBI and ATF have a history of attempting to establish exclusive
areas of jurisdiction. Such divisions of labor have resulted in relatively fine
distinctions justifying which agency will respond to similar explosives
incidents. For instance, ATF’s location within Treasury for much of the last

       3
          The Omnibus Crime Control and Safe Street Act of 1968, 18 U.S.C. §§ 921 et seq.
as amended in the Gun Control Act of 1968, 26 U.S.C. §§ 5841 et seq., prohibited
unlicensed trade in firearms and explosives. The Organized Crime Act of 1970, at 18 U.S.C.
§§ 842 and 844, covers unlawful acts and penalties. 18 U.S.C. § 843 regulates the
explosives industry. 18 U.S.C. § 846(b) authorizes the establishment of a national
repository of information on incidents involving arson and suspected criminal misuse of
explosives. The National Firearms Act, Title 26 U.S.C. Chapter 53, includes criminal
provisions for the unlawful manufacture, transfer, and possession of destructive devices,
including explosives or incendiary bombs, grenades, and mines.
      4
           28 U.S.C. § 599A (2008).
      5
        The Homeland Security Act is Pub. L. 107-296, and Subtitle C, Title XI, is the Safe
Explosives Act.


                                             2

37 years resulted in the FBI handling all explosives cases involving federal
buildings except for Treasury facilities, which ATF handled.6

       1973 Memorandum of Understanding

       In 1973, the FBI, ATF, and United States Postal Service signed a
Memorandum of Understanding (MOU) that attempted to divide enforcement
activities for explosives-related crimes among these agencies. This
memorandum divided jurisdiction based mainly on differences in the location
of bombings but contained overarching exceptions based on the motives of
perpetrators, such as terrorism.

       According to the 1973 MOU, ATF would be the lead investigative
agency over regulatory violations (such as loss or theft of commercial
explosives), the interstate transportation of explosives with unlawful intent
(other than through the mail), explosives use against property used in or
affecting commerce (such as bombing stores or warehouses), explosives
possession or use directed at Treasury buildings, and any use of explosives
during the commission of another felony where ATF had jurisdiction of the
underlying felony (such illegal gun dealers using explosives).

      On the other hand, the 1973 MOU provided that the FBI would be the
lead investigative agency for arson and bomb threats communicated by
phone or mail, for the use or attempted use of explosives to damage
property owned or used by the U.S. government (except Treasury facilities),
for cases when explosives were used in the commission of another felony for
which the FBI had primary jurisdiction (such as bank robbery), and for the
unauthorized possession of explosives in a building used by the U.S.
government (except Treasury facilities). The memorandum also permitted
the FBI to assert the lead on any explosives use directed against diplomatic
functions, college campuses, or which appeared at the outset to have been
perpetrated by terrorist or revolutionary groups or individuals.

       Fair Oaks Accords

      In 2000, five ATF and five FBI Special Agents-in-Charge on a Joint
Field Managers Working Group issued a report that recommended
coordination actions be formalized into a joint investigation protocol for use




      6
         Although the U.S. Postal Service also reserved lead agency jurisdiction for
explosives incidents in its facilities under the 1973 MOU, this report refers only to ATF and
FBI divisions of authority.


                                              3

at the scene of an explosives incident.7 The resulting report, also known as
the “Fair Oaks Accords,” was specific on when joint-lead agency cases
should be used, which agency would be the lead agency in other instances,
and in what types of bombings each agency’s laboratory would be used. For
example, the Fair Oaks Accords recommended a joint “50/50” approach for
bombings related to women's reproductive health care providers, houses of
worship, colleges and universities, and environmental and animal rights
movements. For these four areas, the investigative strategies, search
warrants, pursuit of leads, and media were to be jointly managed by ATF
and FBI agents. In addition, the agreement recommended that evidence
from explosives crime scenes involving women's reproductive health care
providers and houses of worship would be sent to ATF laboratories, while
evidence from colleges and universities and environmental and animal rights
movements would be sent to the FBI Laboratory. However, the Fair Oaks
Accords and its recommendations were not implemented.

       Attorney General Forms the Explosives Review Group

      In March 2003, about a month after joining DOJ, ATF officials proposed
that the information and publication functions of the FBI’s Bomb Data Center
be merged into and managed by ATF. It also recommended that ATF be
designated as DOJ’s primary responding agency to all explosives scenes, and
be allowed to coordinate DOJ assets for the entire on-scene investigation
regardless of the motive, including terrorism. This proposal was not
implemented, and DOJ took no formal steps to redefine responsibilities in
explosives incidents for the subsequent year.

      On March 4, 2004, the Attorney General Ashcroft created the
Explosives Review Group (ERG) to develop recommendations regarding the
most effective coordination of explosives investigations between the FBI and
ATF.8 The ERG completed its initial review and reported its findings and
recommendations to the Deputy Attorney General on May 3, 2004. ATF
chaired the ERG and reported that, with respect to jurisdiction, the majority
of bombings in the United States have no link to terrorism, and that when

      7
         The July 18, 2000, Working Group Report recommended joint response and
common ownership of crime scenes, immediate joint notification, fellowship exchanges of
laboratory personnel, joint crime scene processing standards, specific attributes of joint
investigations, and delineation of applicable types of incidents.
      8
         As mandated by the Attorney General’s March 4, 2004, Memorandum entitled
Review Group Concerning Coordination of Explosives Investigations and Training, the
Explosives Review Group (ERG) was comprised of senior officials from ATF (acting as Chair),
the FBI, Office of the Deputy Attorney General, Office of Legal Policy, and Criminal Division.
The Memorandum identified as issues for ERG review explosives-related training, explosives
investigations, and the maintenance of databases related to explosives.


                                              4

terrorism was indicated all available resources necessary would be used to
fully respond. However, the FBI and ATF did not reach agreement on many
issues, such as the role each component should have in explosives
investigations when the motive is not clear. Further, the FBI advised the
chair of the ERG that it did not agree with the report as drafted and
submitted an alternative report highlighting what it believed were the areas
of agreement. Although the FBI did not explain in its report why the two
agencies could not come to an agreement, the ERG Chairman described in
the report the basis of the disagreement as follows:

   •	 Each agency believes it is best suited to coordinate DOJ assets at the
      crime scene: ATF because explosives and fire investigation is an
      inherent function of its primary mission and because of the strengths
      of its specialized positions, and the FBI because of its mandate to
      detect and prevent terrorism.

   •	 The FBI believes it is appropriate to treat all incidents or threats
      involving explosives, destructive devices, firearms, or arson as
      potential terrorism until the best available information determines
      otherwise and that only the FBI can determine if an incident is related
      to terrorism.

       2004 Attorney General Memorandum

      In response to the ERG’s report, on August 11, 2004, Attorney General
Ashcroft issued a memorandum entitled Coordination of Explosives
Investigations and Related Matters (2004 Memorandum). This
memorandum directed:

   •   ATF to control the investigation of all explosives incidents, except in:
       (1) cases in which a Joint Terrorism Task Force (JTTF) determines the
       incident is related to terrorism, and (2) cases in which the FBI
       traditionally has exercised jurisdiction;9

   •	 all DOJ arson and explosives incident databases to be consolidated into
      a single ATF-maintained system and accessible to all DOJ law
      enforcement components;

   •	 within 90 days, the DOJ Chief Information Officer to examine and
      report to the Deputy Attorney General on the feasibility of
      consolidating all DOJ arson and explosives databases;

       9
        Examples of crimes within the FBI’s traditional jurisdiction that can involve
explosives include bank robberies, hate crimes, and organized crime.


                                              5

   •	 DOJ to form a Laboratory Review Board to examine laboratory
      resources and workloads and develop recommendations for the Deputy
      Attorney General;

   •	 the FBI and ATF to consolidate all post-blast explosives training
      budget, curricula, teaching, and scheduling functions under ATF and,
      as soon as practicable, require that only ATF-certified explosives-
      detection canines be used;

   •	 all DOJ personnel engaged in or related to post-blast explosives 

      training to remain with their respective agencies and continue to 

      provide training as they did prior to consolidation; and 


   •	 the FBI and ATF to organize an Explosives Training Review Board to
      report to the Deputy Attorney General on the feasibility of
      consolidating DOJ’s explosives training programs and facilities.10

      The 2004 Memorandum also stated that the Deputy Attorney General
would resolve all issues relating to jurisdiction over explosives
investigations, post-blast explosives training consolidation, and the
consolidation of arson and explosives databases as well as direct the
allocation and use of laboratory resources. The 2004 Memorandum did not
reference the 1973 MOU to either incorporate or supersede this agreement.

      2008 Memorandum of Understanding

       Despite the direction provided in the Attorney General’s 2004
Memorandum, the FBI and ATF continued to pursue separate investigations;
develop uncoordinated strategies and priorities; and operate separate
information systems for communication, reporting, and performance
measurement. After informal prompting by the Office of the Deputy
Attorney General, ATF and the FBI signed another MOU on July 8, 2008,
entitled Protocols for Response to Explosives Related Incidents (2008
Memorandum).11 According to the memorandum, ATF and FBI Special
Agents-in-Charge are required to coordinate where the motive of an
explosives incident (criminal act or terrorist incident) is not readily apparent.
The 2008 Memorandum directs that the investigation proceed jointly and
vigorously with key decisions made in a timely and collaborative manner,
thereby encouraging joint investigations pending a definitive determination
of intent. Additionally, the 2008 Memorandum states that the agency with


      10	
            See Appendix IV for the 2004 Attorney General Memorandum.
      11	
            See Appendix VI for the 2008 Memorandum of Understanding.


                                            6

the responsibility for the underlying felony will assume the investigative lead
and that FBI and ATF Special Agents-in-Charge will determine jurisdiction in
the best interest of public safety and law enforcement.

      Homeland Security Presidential Directive-19

      A government-wide review of strategies to prevent terrorist bombings
on American soil also affected the jurisdictional issues between the FBI and
ATF. On February 12, 2007, President Bush signed Homeland Security
Presidential Directive-19 (HSPD-19), which required executive branch
agencies to develop, under the leadership of the Attorney General, a layered
and united approach to aggressively deter, prevent, detect, protect, and
respond to terrorists’ evolving efforts to employ explosives in the United
States. A united approach was contained in the National Strategy for
Combating Terrorist Use of Explosives in the United States (National
Strategy), which the President signed on December 20, 2007. The National
Strategy contained 36 recommendations to improve federal efforts to
combat potential terrorist attacks using explosives. To implement the
National Strategy, the Attorney General, in coordination with the Secretaries
of Defense and Homeland Security and the heads of other federal agencies,
developed an Implementation Plan.

       One key action outlined in the Implementation Plan was the
identification and documentation of the specific roles and responsibilities of
departments and agencies through all phases of incident management
pertaining to terrorist use of explosives, from prevention and protection
through response and recovery. Therefore, coordination of DOJ explosives-
related operations, primarily those of the FBI and ATF, is required to comply
with the HSPD-19 Implementation Plan.

Parallel Explosive Capabilities

      A major function of the FBI and ATF explosives programs is to assist
the 471 accredited state and local bomb squads located throughout the
United States. These local bomb squads are usually the first responders to
explosives incidents and are primarily responsible for the “render-safe
procedures” on explosives.12 The FBI and ATF provide training, equipment,
and assistance to state and local bomb squads, when requested, through FBI




      12
         In render-safe procedures, specialists neutralize unexploded ordnance (including
improvised explosive devices) to prevent an uncontrolled detonation.


                                            7

and ATF Special Agent Bomb Technicians (SABT), ATF Explosives
Enforcement Officers (EEO), and ATF Certified Explosives Specialists (CES).13

       SABTs are investigators trained at the FBI’s Hazardous Devices School
who can assist local bomb squads in render-safe procedures and provide
training to state and local responders.14 As of May 2009, ATF had 5 full-time
SABTs and the FBI had 174 SABTs, of which 30 were dedicated full-time to
this role. Explosive Enforcement Officers are generally former military
explosives ordnance disposal specialists (not Special Agents) authorized to
render-safe explosives or incendiary devices, conduct technical examinations
to make destructive device determinations, and assist in training. Certified
Explosive Specialists are ATF Special Agents trained in post-blast crime
scene investigations and explosives handling, but they do not perform
render-safe procedures.15 ATF had approximately 241 CESs and 27 certified
EEOs as of March 2009.

      As shown in Exhibit 1-1, certified state and local bomb technicians are
located in all 50 states, ATF EEOs in 11 states, and FBI SABTS in 42 states.




       13
           Other specialists include explosives-detection canine handlers and forensic
scientists such as chemists, metallurgists and technical experts who provide laboratory
analysis of explosives, destructive devices, accelerants, and blast or arson debris submitted
by investigators.
       14
           The FBI manages the administration and funding for the Hazardous Devices
School, the training academy for all civilian bomb technicians, which is operated by the U.S.
Army Ordnance Munitions and Electronics Maintenance School at Redstone Arsenal in
Huntsville, Alabama.
       15
         In addition, each agency organizes special units, such as the FBI’s Evidence
Response Team and the ATF’s National Response Team, which respond to major incidents.


                                              8

                  Exhibit 1-1: Distribution of Civilian, ATF, and FBI
                               Bomb Technicians as of May 1, 2009

             4
             2
             78
                              1
                                                                                                                             11
                              7             14
        2                                                  2
                                                                                                                    8             5
        32                                                 28                                                                              3
                    13                                                2
                                                                                                               7                           2
                                            4                         36
                                                                                                               90                          46
                                                                                  5
                                  20
                                                                                  46                      4                                     8
                                                            1                                                                         2
                                                                                                          1
                                            1               29                                                                        31
             1                                                                                            62                 4
                                            15                                             4
             23                                                        4        1                                            58
                                                                                           91
                         3             2                               82       59
                                                                                                1                             1
       11                23            1                         4                                        43
                                                                                                12                            17
       3                               67        32              3                    2                   80
       245                                                       37                   23
                                                                                                                              2
                                                                                                          2             6
                     3                                                           4                                            4
                                                                                                          67            31
                     2                                1                          69                                           47
                     57           1                   42         1                                   1
                                  28                             30                        3         43
                                                                                 6         3
                                                                           1     39        80
                                            11
                                                                           13
                                            3                    3
                                            128                  37
  1*
                                                                                                 9
  4
                                                                                                 1
                                                                                                 172

                                                                                                                                       2**
                                                                                                                                       13
             2
             12

                                                                                 FBI SABTs                State & Local


                                                                                 ATF EEOs and SABTs


                                                                           *Hawaii includes Technicians in Guam
                                                                           **Puerto Rico includes Technicians in
                                                                           the Virgin Islands

 Source: OIG analysis of FBI Hazardous Device School data

      Since the 471 accredited state and local bomb squads throughout the
country are the primary first responders to explosives incidents, much of the
federal role assisting in post-blast evidence collection or evidence analysis
does not require render-safe certification, except perhaps where local bomb
squads are scarce.

OIG Audit Approach

       This OIG audit reviewed the DOJ oversight and ATF and FBI
coordination of explosives investigations and associated support activities
including information technology, training, and laboratory analysis from
October 2002 to April 2009. The objective of this audit was to evaluate the
level of coordination between the FBI and ATF in explosives investigations
and related activities, including:




                                                           9

   1. the effectiveness of current protocols to determine lead agency 

      jurisdiction on investigations; 


   2. the extent of database consolidation and information sharing;

   3. the degree of coordinated training; and

   4. the use of laboratory resources for explosives analysis.

       To conduct this audit, we reviewed explosives case data from the FBI
and ATF’s case management systems from fiscal year (FY) 2003 through
March 2008. We also reviewed relevant Special Agent training records,
explosives-related course curricula, and policies or procedures regarding
explosives investigations and interagency interaction. We conducted
interviews of personnel in the Office of Deputy Attorney General and Office
of the Chief Information Officer and with more than 100 ATF and FBI
employees located at each agency’s headquarters and selected field
divisions.

      As part of this audit, we sent surveys to all ATF and FBI field division
Special Agents-in-Charge, FBI SABTs, ATF CESs, ATF EEOs, and the
commanders of each accredited state and local bomb squad in the country.16
As presented in Exhibit 1-2, we received responses to our survey
questionnaire from over 60 percent of all DOJ personnel and over 50 percent
of the state and local bomb squad commanders.

       Exhibit 1-2: Response Rates to OIG Survey Questionnaire

                                          Number        Number of         Response
               Surveys                   Surveyed      Respondents          Rate
ATF Management                                    25                 18             72%
FBI Management                                    69                 47             68%
FBI Special Agent Bomb Technicians               194                121             62%
ATF Special Agent Bomb Technicians,
Certified Explosives Specialists and
Explosives Enforcement Officers                  285                180             63%
State and Local Bomb Squad
Commanders                                       470                239             51%
Source: Analysis of OIG survey data




      16
          The FBI supplied the names and addresses for FBI management, SABTs, and
state and local bomb commanders. ATF provided the names and addresses for ATF
management and its CES and EEO personnel.


                                         10 

      Appendix I contains a more detailed description of our audit objective,
scope, and methodology. The following chapters provide our findings,
conclusions, and recommendations.




                                     11 

CHAPTER II: DETERMINING LEAD AGENCY JURISDICTION

      Since ATF’s merger into DOJ in January 2003, the FBI and ATF have
continued to carry out criminal explosives investigations independently of
each other. DOJ issued in 2004 ambiguous directives regarding the division
of labor for explosives and related activities without establishing a
framework for resolving issues at the scene of the incident. Additionally,
both ATF and the FBI have not conceded their initial positions of seeking
lead authority in all explosives investigations, and consequently disputes
between the components over leading investigations and different render-
safe procedures continue to occur throughout the country. These disputes
adversely affect the agencies’ working relationships and can confuse local
agency first responders. The absence of a coordinated federal approach can
also hinder DOJ’s ability to effectively respond, investigate, and prevent
explosives crimes.

2004 Attorney General Memorandum Not Implemented

      On November 14, 2006, more than 2 years after the 2004
Memorandum was issued, Deputy Attorney General Paul McNulty
reconstituted the Explosives Review Group (ERG) to assess the need to
establish or clarify operational protocols for improving the coordination of
explosives incident investigations. The ERG reported to Deputy Attorney
General McNulty on January 12, 2007, that three of the seven directives
within the 2004 Memorandum – information sharing, training, and
explosives canines – either had not been implemented or remained highly
contested between the two components. In addition, the FBI and ATF
developed white papers that they attached to the ERG report describing each
component’s position on these three issues.17

      Our audit found that the FBI and ATF are still not coordinating
explosives-related operations and activities for the three areas identified by
the ERG report. In addition, as identified in Exhibit 2-1, we determined that
issues also remain unresolved for two additional directives in the 2004
Memorandum – investigative jurisdiction and laboratories.




      17
           See Appendix V for the ERG’s January 12, 2007, memorandum.


                                          12 

     Exhibit 2-1: 	2004 Memorandum Requirements Issues
                   Identified as Unresolved and Summary of
                   ATF and FBI White Paper Positions

                 Unresolved
                   Issues                     White Paper Positions
                 ERG    OIG
   Topic        Report Audit               FBI                          ATF
Investigative              √         Not discussed in             Not discussed in
Jurisdiction                           white paper                  white paper
Information       √        √     Due to the FBI’s            ATF should be the sole
Sharing (See                     counterterrorism            Bomb Data Center.
Chapter III)                     mission, FBI Bomb Data
                                 Center should represent
                                 the U.S. internationally,
                                 and ATF should not use
                                 Bomb Data Center
                                 name.
Training          √        √     The FBI should continue     ATF should serve as the
(See                             to teach explosives and     primary DOJ component
Chapter IV)                      post-blast training with    to develop and provide
                                 a domestic and              comprehensive training
                                 international terrorism     programs for fire and
                                 perspective.                explosives investigation.

                                 The language and            ATF should administer the
                                 directions related to       explosives portion of the
                                 post-blast training in      Hazardous Device School
                                 the Attorney General        currently administered by
                                 Memo should be              FBI at Redstone Arsenal in
                                 amended.                    Huntsville, Alabama.
Canines (See      √        √     DOJ components should       All DOJ explosives
Chapter IV)                      use only canines that       detection canines will be
                                 have met Scientific         procured, trained, and
                                 Working Group on Dogs       certified by ATF.
                                 and Orthogonal
                                 Detection Guidelines
                                 Certification.

                                 The FBI should continue     Any training related to
                                 its joint training          explosives-detection
                                 initiative on peroxide      canines sponsored,
                                 explosives scent            coordinated, or presented
                                 training.                   by DOJ components shall
                                                             be coordinated through
                                                             ATF.
Laboratories              √         Not discussed in              Not discussed in
(See                                  white paper                    white paper
Chapter V)
Source: 2007 Explosives Review Group report, OIG audit, and ATF and FBI white papers




                                         13
       Some of the most significant language of the 2004 Memorandum
involves the conflict resolution authority of the Deputy Attorney General.
However, we determined that over a 4-year period and despite the ERG
report noting significant unresolved issues, the Office of the Deputy Attorney
General did not exercise its authority to resolve the conflict, particularly in
the five areas we identified in Exhibit 2-1.18

      While the 2007 ERG report made no recommendations regarding
investigative jurisdiction, we believe the 2004 Memorandum is ambiguous as
to investigative jurisdiction, which has contributed to conflict and continuing
coordination issues. The 2004 Memorandum states that ATF controls the
investigation of all explosives incidents, except for incidents related to
terrorism and “traditional” FBI jurisdiction.19 As a result, each component
can logically claim a right to respond to almost every incident. The ERG
report noted that jurisdictional disagreements arose due to the difficulty in
establishing the motive when an incident occurred, but disputes were
worked out in the field. We found the ambiguity has resulted in
disagreements that required ATF and FBI field division management and
agency headquarters involvement to resolve.

      One example identified during our audit highlights how the language
used in the 2004 Memorandum is unclear and open for interpretation. In
September 2004, an FBI field division assumed it had the authority to lead
explosives investigations until it determined whether there was a link to
terrorism. When the ATF disagreed with this interpretation, the United
States Attorney for that jurisdiction sought further clarification of the 2004
Memorandum from the Office of the Deputy Attorney General. According to
the United States Attorney, the Office of the Deputy Attorney General
responded:20




       18
          Between 2004 and 2009, there have been four different confirmed Deputy
Attorneys General. Several officials from the ATF and FBI stated that after Deputy Attorney
General Comey left office in 2005, leadership from the Office of the Deputy Attorney
General on ATF and FBI coordination diminished greatly.
       19
          As discussed in Appendix III, the FBI has broad authority over many crimes that
could involve explosives.
       20
            See Appendix VII for the memorandum from the United States Attorney.


                                            14 

      It is more accurate to say that this [the 2004 Memorandum]
      means the ATF has jurisdiction unless and until it is determined
      that the explosives incident is related to terrorism; than it is to
      say that the FBI or the JTTF has jurisdiction unless and until it is
      determined that the incident is not related to terrorism . . . that
      “default” jurisdiction is with the ATF.

       This response from the Deputy Attorney General’s office provides
significant guidance as to which agency DOJ intended to exercise initial lead-
investigative authority, at least in circumstances where jurisdiction is
unclear. Such a clarification, however, was never formally incorporated into
any policy, protocol, or other written direction provided by the Office of the
Deputy Attorney General to other United States Attorneys, the FBI, or ATF.

       We believe that clear and specific direction is needed from DOJ to
eliminate the ambiguity in the 2004 Memorandum and the continuing
conflicts and non-cooperative practices between the FBI and ATF in areas
where the two agencies have exhibited an inability to reach agreement. DOJ
must also oversee ATF and FBI explosives-related efforts to ensure these
agencies put a clarified policy into practice.

Ambiguous 2008 Memorandum of Understanding

       In an effort to clarify roles and responsibilities and to facilitate a more
productive partnership, in July 2008 the FBI and ATF signed a Memorandum
of Understanding issued by the Office of the Deputy Attorney General
entitled Protocols for Response to Explosives Related Incidents.21 The 2008
Memorandum was issued 18 months after the 2007 ERG report and more
than 4 years after the Attorney General’s 2004 Memorandum. The purpose
of the 2008 Memorandum was to resolve any operational concerns at the
outset of an explosives incident. However, this agreement did not address
the areas that the 2007 ERG report identified as needing resolution,
including information sharing, training, and canine matters.22

      The 2008 Memorandum, as noted in Exhibit 2-2, also does not resolve
the dispute between the FBI and ATF over lead-agency authority and does
not clarify related language in the 2004 Memorandum. Instead, the 2008
Memorandum of Understanding requires that during the initial response
phase to an incident, the FBI and ATF Special Agents-in-Charge will

      21
          According to the 2008 Memorandum, the Attorney General, Deputy Attorney
General, and key representatives from the ATF and FBI developed the memorandum
regarding the DOJ response to explosives-related incidents.
      22
           See Appendix VI for the July 8, 2008, ATF-FBI Memorandum of Understanding.


                                           15 

coordinate a joint response under the ambiguous standard that “the agency
with the responsibility for the underlying felony will assume investigative
lead, as coordinated by the [Special Agents-in-Charge].” The memorandum
also notes jurisdiction may not be readily apparent at the outset and
encourages joint investigations pending a definitive determination.

                          Exhibit 2-2: Jurisdiction Definitions

        2004 Memorandum                             2008 Memorandum
ATF shall control the investigation of all
                                    Coordination of a joint response will be the
explosives events except:           responsibility of the respective Special Agents-
   • where the incident is terrorism,
                                    in-Charge:
       JTTF is responsible             • the agency with responsibility for the
   • where FBI has traditionally          underlying felony will assume
       exercised jurisdiction             investigative lead
                                        • where the incident is terrorism, JTTF is
                                          responsible
Source: 2004 Memorandum and 2008 Memorandum

       Both the 2004 and 2008 definitions of the components’ lead authority
are similar in that they define jurisdiction by the motive of the incident.
However, in practice the motive underlying an explosives incident may not
be readily apparent and it may take time to determine whether the incident
is accidental or a criminal or terrorist act. Therefore, the 2008 Memorandum
did not bring any clarity to the determination of jurisdiction; instead, by
making Special Agents-in-Charge responsible for coordinating a joint
response, the risk increased that DOJ will end up with different
interpretations in many of the 25 ATF and 56 FBI field divisions rather than a
unified DOJ position.

       In fact, we found that the guidance in the 2008 Memorandum has
been subject to wide differences in interpretation that undermine
coordination between the FBI and ATF. As part of our survey of ATF and FBI
explosives specialists and field management, we asked about their
understanding of lead agency jurisdiction under the 2008 Memorandum. As
shown in Exhibit 2-3, the ATF and FBI specialists and management interpret
the memorandum differently. We found that 17 to 30 percent of field
division managers and about 40 percent of the specialists in each agency
responding to our survey have diametrically opposed interpretations,
believing their agency has the initial, default jurisdiction.




                                             16 

            Exhibit 2-3: Interpretations of 2008 Memorandum

                   2008 Memorandum                         Management      Specialists
              Lead Agency Interpretation                   ATF    FBI      ATF    FBI
FBI leads for all explosives incidents unless and until it
is clear no nexus to terrorism exists.                      5%    30%       4%     46%
FBI leads unless or until it is clear that only ATF has
jurisdiction.                                               0%     0%       1%     6%
FBI and ATF jointly lead the investigation unless or until
a clear nexus to terrorism or another traditional FBI
jurisdiction is established.                               61%    42%      31%     24%
FBI and ATF Special Agents-in-Charge will determine
which agency leads on a case-by-case basis.                17%    21%      20%     16%
ATF leads unless or until a clear nexus to terrorism or
other traditional FBI jurisdiction is established.         17%     7%      40%     2%
Don’t know                                                  0%     0%       3%     4%
Did not Answer                                              0%     0%       1%     2%
Source: DOJ Survey Analysis of survey questionnaire responses

Lack of a Coordinated Explosives Response Protocol

       We also found that the FBI and ATF do not have investigative policies
or a joint response protocol for coordinating responses to explosives threats
and incidents as required by the 2008 Memorandum.23

       The FBI Manual of Investigations Operations and Guidelines (MIOG)
regarding bombing matters reiterates the jurisdiction language of the 1973
Memorandum of Understanding without mentioning the 2004 Memorandum
or providing any standards for collaboration with ATF. Some examples of
MIOG direction that may contribute to ineffective coordination with ATF
are:24

   •	 FBI MIOG recognizes that ATF has jurisdiction over the unlawful
      manufacture, possession, or transfer of destructive devices and the
      unlawful importation, manufacture, distribution, or storage of
      explosives, but it cautions that agents should be alert for such
      violations and investigative jurisdiction should be assumed by the FBI
      if they arise during any substantive FBI investigation.




      23
         Although the components commissioned ATF and FBI Special Agents in Charge to
draft more specific joint response protocols in 2000, called the Fair Oaks Accords, these
procedures requiring joint management of certain explosives scenes were never adopted.
      24
         The excerpts are from FBI MIOG; Part 1, 174-4,”Other Violations,” and Part 1,
Section 160-2, “Policy and Procedure,” paragraph (5).


                                           17 

   •	 According to DOJ investigative guidelines, ATF jurisdiction does not
      apply to instances where the FBI had investigative jurisdiction in a
      separate substantive area prior to the enactment of the Federal
      Bombing Statute.

   •	 FBI policy requires notification to headquarters immediately by
      electronic communication of any attempts by ATF to infringe upon FBI
      jurisdiction under the Federal Train Wreck Statute.

      The ATF’s policy manual — the Order on Investigative Procedures —
also does not address coordination of joint explosives investigations with the
FBI. ATF is revising the order and plans to re-issue it in FY 2009.25 The
draft version of the new order specifies that the ATF investigative focus
should be violations within ATF jurisdiction, but that “incidents in which ATF
becomes involved initially may ultimately fall within the jurisdictional
responsibility of other agencies.” The new protocol will advise ATF personnel
to “be alert to ATF jurisdictional responsibility” but seek to work jointly with
agencies having primary jurisdiction following three guidelines:

   •	 The primary ATF case agent must promptly report related violations to
      the duty agent for the agency having investigative jurisdiction and
      furnish all relevant information, “unless such action could or would
      jeopardize an ongoing investigation.”

   •	 Where the responsible agency wants to assume control of the 

      investigation, ATF will offer assistance and cooperation. 


   •	 Special Agent-in-Charge approval is required before joint 

      investigations.26


However, the revised ATF order does not provide specific guidance on
situations where the issue of lead jurisdiction is initially unclear.




      25	
            As of July 1, 2009, the revised ATF order has not been issued.
      26
          The revised ATF Order also states, “[i]n many instances, ATF is involved in
investigations that have the potential to overlap with other components’ jurisdictions (e.g.,
the investigation of armed narcotics dealers with the Drug Enforcement Administration,
terrorism investigations with the Federal Bureau of Investigation). The resident agent in
charge (RAC)/group supervisor (GS) should ensure that appropriate local task forces and
other Federal agencies have been contacted.”


                                               18 

      Deputy Attorney General Removed From Dispute Resolution Process

       Unlike the 2004 Attorney General Memorandum, the 2008
Memorandum contains no reference to the role of the Deputy Attorney
General and no provision for resolving disputes outside the components
involved. Instead, it requires disputes to be resolved in the field by the
Special Agents-in-Charge and only if an agreement is not reached should the
matter be raised to the components’ headquarters. Without such a
formalized dispute resolution process, the history of ATF and FBI relations on
explosives matters suggests that the components will remain entrenched in
their positions, and conflicts will persist unresolved.

HSPD-19 Implementation Plans at Risk

      The 2007 HSPD-19 National Strategy asserted the need for an entity
to coordinate federal efforts against terrorists’ use of explosives. In a
finding covering all national efforts, and which our audit found particularly
salient for the FBI and ATF relationship, the National Strategy stated,
“expert stakeholders, many with decades of experience in explosives threat
related fields, revealed that the coordination of ongoing efforts is a
fundamental shortfall.” The strategy also stated:

      The numerous programs throughout the country that maintain
      specific roles in this effort tend to be based on individual analysis
      and initiative rather than a coordinated process working to reach
      similar strategic goals. The absence of such a strategic process
      creates disparity between various activities, causing confusion
      among stakeholders and, sometimes, divisive competition
      among providers.

        Without resolution of ATF and FBI explosives coordination issues by
DOJ leadership, history suggests that the components will not succeed in
meeting the goals of the HSPD-19 process for forging an interagency
approach against terrorist use of improvised explosive devices (IEDs).27 The
clarification of roles and responsibilities of federal response and for law


      27
          The HSPD-19 National Strategy recommended designation of DOJ, specifically the
FBI in partnership with other federal organizations, to be the entity responsible for
determining national priorities and implementing HSPD-19 recommendations. The 12
DOJ-led tasks under the plan include: Task 2.2.2 to develop a comprehensive knowledge
management process regarding explosives and IED incidents; Task 2.2.3 to create an
overarching, federated IED information sharing architecture; Task 2.2.7 to improve ongoing
efforts to regulate explosives commerce and investigate diversion; and Task 3.2.7 to
enhance standards and improve delivery for post-blast investigation training to federal,
state, and local authorities.


                                           19 

enforcement agencies under the leadership of the Attorney General is a key
recommendation of the HSPD-19 National Strategy. However, the HSPD-19
Implementation Plan gives the Department of Homeland Security the lead
responsibility to identify and document specific roles and responsibilities of
departments and agencies relating to all phases of explosives incident
management. This task includes drafting a Strategic Plan and Concept Plan,
as well as department and agency-specific Operations Plans. The
relationship between DOJ components affects the likelihood of coordinating
the priorities of DOJ and the Department of Homeland Security, which
already funds much of the equipment needs of state and local bomb squads
through its Office of Bombing Prevention.

       Further, the HSPD-19 Implementation Plan establishes an HSPD-19
Implementation Joint Program Office (JPO) led by the FBI in partnership with
other agencies.28 According to the FBI, the JPO was designed specifically to
bring resolution to issues not previously resolved through other mechanisms.
However, we note that the JPO was not designed to function as an ultimate
decision maker on roles and responsibilities for the FBI and ATF in handling
explosives incidents, but instead was conceived to act as a formalized,
interagency discussion forum. Unless there is consensus among the
agencies involved the JPO cannot force settlement between feuding
components. While the JPO and its members may be used to assess and
reflect community opinion and advise on priorities, individual agencies will
continue to make the programmatic and budgetary decisions independently.
In our judgment, if DOJ does not conclusively address the issue of the roles
and responsibilities for the FBI and ATF in addressing terrorists’ use of
explosives, and by extension, all explosives investigation activities,
competition between the components on fundamental roles will likely
continue and impede the progress of the entire HSPD-19 implementation
process.

Component Competition Rather Than Collaboration

      Our audit found that FBI and ATF field divisions tend to deploy their
employees to the larger, more sensational explosives incidents, sometimes
racing each other to be the first federal agency on the scene and disputing
upon arrival which agency should lead the investigation. Additionally, we
found that other disputes arise on scene regarding which agency’s
procedures should be followed when handling or preserving explosives
evidence.



     28
          The JPO, which meets monthly, had its inaugural meeting on April 8, 2009.


                                            20 

       State and local law enforcement agencies’ bomb squads are the first
responders in most explosives incidents. To assess whether a federal nexus
exists, federal agencies initially must rely on their relationships with the local
bomb squads to receive notification of an incident. Both the FBI and ATF
seek to establish good working relationships with these bomb squads by
providing free training, paying for overtime associated with federal
investigations, and detailing local officers serving on task forces to special
events and high-profile assignments. However, many ATF and FBI field
division explosives specialist personnel we spoke with said it was common
for local bomb squads to fail to notify them about explosives incidents.
Additionally, in several locations we visited we learned that some local bomb
squads would inform either the FBI or ATF about an incident but not the
other agency.

      We also discovered that in certain places where local squads did notify
both the FBI and ATF of an explosives incident, the FBI and ATF would “race”
each other to the scene. Some squad managers admitted that they
operated under the assumption that possession is nine-tenths of the law,
meaning their agency would have lead authority if they arrived first to the
scene.

      We found that while joint deployment to an explosives scene could
occur, the FBI and ATF rarely performed joint investigations or transferred
explosives cases to the other component. Our surveys of ATF and FBI field
management and explosives specialists revealed that when both components
deployed to an explosives incident, over 50 percent of the management
respondents and over 60 percent of the explosive specialists replied that
they rarely or never performed a joint investigation. Survey respondents
also reported that 58 percent of FBI and 67 percent of ATF field divisions
never transferred cases to the other agency.29

      ATF case management system records support the rarity of explosives
cases being transferred between the FBI and ATF. According to ATF data for
FYs 2003 to 2008, FBI transferred lead agency authority to ATF an average
of about 26 cases out of an annual average of 830 ATF bombing cases.
Conversely, ATF records demonstrate that it referred lead agency authority
to the FBI an average of 7 explosives cases annually out of an estimated an
annual average of 590 FBI explosives-related cases.30 The relatively few

      29
          According to the ATF, for FYs 2003 through 2008 the FBI and ATF jointly
investigated and recommended for prosecution 192 explosives-related cases.
      30
          The FBI case management system does not record the total number of explosives
incidents the FBI handles and could not account for the number of referrals the FBI made to
or received from ATF.


                                            21 

joint investigations and explosives case transfers are another indication that
coordination between the FBI and ATF occurs infrequently.

Conflicts Continue to Occur

       Headquarters officials from both components stated to us that the FBI
and ATF work well together and that significant conflicts no longer occur.
Those officials stated that recent disputes were simply isolated incidents
attributable to personality conflicts among the responding personnel and
their supervisors. Several officials in both components cited a May 2008
bombing of a Federal Courthouse in San Diego as an example of good
coordination. During this incident, the FBI took the undisputed lead because
a federal building was targeted and ATF provided support. We confirmed
that coordination between the components at this incident was exemplary,
with ATF supporting the FBI’s lead investigative role.

      However, we determined that disputes between the FBI and ATF on
explosives incidents continue to occur. We found explosives incident
disputes between the FBI and ATF that were recent, significant, and
attributable to more than personality conflicts.

       In particular, at ATF and FBI field divisions that we visited and in
responses to our survey, we were told of several recent explosives incident
disputes. As detailed in Exhibit 2-4, ATF and FBI personnel described recent
disputes occurring in six of the eight locations we visited that involved,
jurisdictional questions and explosives-handling issues. Such conflicts can
delay investigations, undermine federal and local relationships, and may
project to local agency responders a disjointed federal response to
explosives incidents in their area.




                                      22 

                       Exhibit 2-4: Summary of Identified Disputes
     Location                                   Dispute Summary
                      July 2008 – Disputes arose over ATF explosives handling techniques in
 Baltimore            two separate Maryland incidents. During one render-safe operation of a
                      pipe bomb cache, an ATF Explosives Enforcement Officer used
                      disassembly tools to either cut apart or spin off the “end caps” of pipe
                      bombs to preserve explosives evidence. The state bomb squad
                      complained to the FBI and ATF that these techniques were not
                      “approved” by the FBI’s Hazardous Device School program. In a
                      separate incident, the ATF bomb technician cut apart a pipe bomb. The
                      FBI subsequently complained to the local bomb squad about validating
                      such techniques by remaining on scene and later prohibited ATF bomb
                      technicians from participating in FBI training.
                      March 2008 – The FBI JTTF and ATF deployed to the bombing near an
 New York City        armed forces recruiting station in Times Square. An FBI SABT deployed
                      with the New York City Police Department (NYPD) Bomb Squad to the
                      scene, and later an ATF Special Agent embedded within a different NYPD
                      unit of detectives – the Arson and Explosives Unit – arrived on scene. In
                      a “race to the courthouse,” detectives in the NYPD Arson and Explosives
                      Unit apparently pushed ATF to seek to have the likely suspect charged in
                      federal court, while the FBI’s JTTF was conducting a federal terrorism
                      investigation of the incident and suspects. The U.S. Attorney decided to
                      keep the case with the FBI.
                      November 2007 – A dispute over jurisdiction occurred at the Palo Verde
 Phoenix              Nuclear Facility in Palo Verde, Arizona, when an engineer with the facility
                      had a pipe bomb in the bed of a truck. The FBI was notified first and
                      deemed it a potential terrorist incident. ATF was notified several hours
                      later and disputed the connection to terrorism. This dispute occurred
                      publicly in front of state and local bomb squad personnel.
 Seattle/Portland December 2008 – A bombing occurred in Woodburn, Oregon, in which a
                      local bomb technician and police chief were killed by a device found
                      outside a bank. Local prosecutors specifically requested that the ATF
                      Seattle Field Division perform the post-blast investigation. However, the
                      FBI’s Portland Field Division disputed ATF’s investigative jurisdiction
                      because the FBI had jurisdiction of the underlying federal violation and
                      the technician killed had been trained by the HDS
 Los Angeles          June 2007 – An explosives magazine blast occurred in the Mojave Desert
                      and the FBI responded to the incident. ATF does not believe it was
                      notified until it was too late for ATF to work the scene. The FBI,
                      however, told us it merely assisted the local authorities and that ATF
                      simply responded late and then wanted to take over the scene. Both
                      characterized each other’s scene processing as inadequate. The dispute
                      occurred publicly in front of state and local bomb squad personnel.
 San Diego            September 2007 – An explosives incident occurred at the Olive Lane
                      Bridge in San Diego, California, where the FBI claimed an incendiary
                      device was consistent with domestic terrorism. ATF disputed the
                      terrorism assertion publicly in front of state and local bomb squad
                      personnel. Agents from the FBI and ATF described their relationship as
                      “strained and competitive.”
Source: OIG analysis of interview testimony




                                                23
       To determine the extent of recent disputes between the FBI and ATF
on explosives matters, we surveyed ATF and FBI management and
explosives specialists. As shown in Exhibit 2-5, 31 percent of ATF and FBI
management indicated that the relationship between their components was
working well, 51 percent said they generally worked well together but with
isolated problems, and 7 percent said they experienced significant problems.

      Exhibit 2-5: Management Opinion on Working Relationship

      ATF and FBI Management Opinion                   Percentage          Number
   We have worked very well together                              31%              19
   We generally have worked well together, but
   have had isolated problems                                     51%              31
   We have experienced significant problems                        7%               4
   We generally do not work together                              11%               7
      Total Percentage and Respondents                           100%              61
   Source: OIG analysis of ATF and FBI management surveys

      We solicited examples of ATF and FBI conflict occurring during
FYs 2007 and 2008. Exhibit 2-6 shows that approximately 20 percent of ATF
and FBI management were involved in resolving a dispute during this period.
For ATF and FBI specialists — personnel more likely to come in contact with
one another — more than 30 percent of ATF specialists and 40 percent of
FBI specialists were involved in a dispute between the FBI and ATF.31

           Exhibit 2-6: ATF and FBI Involved or Aware of a Dispute

                                                       Management         Specialists
           Disputes in FY 2007-08                       ATF   FBI         ATF FBI
 Yes, I was involved in or resolved the                    22%     19%     33%     40%
 dispute(s)
 Yes, I am aware of the dispute(s)                        22%      16%     25%     27%
 No                                                       56%      65%     41%     32%
 Did not answer                                            0%       0%      1%      1%
Source: OIG analysis of ATF and FBI management and explosives specialists surveys

      For those specialists who indicated they were involved in or aware of a
dispute, more than 75 percent indicated that they had between one and five
disputes during FYs 2007 and 2008. Additionally, at least 8 percent had
more than five disputes during this period.



      31
        For this exhibit “involved” means respondents were a part of the dispute and
“aware” means respondents heard about a dispute but were not personally involved.


                                           24 

Characteristics of Conflict

       We interviewed 104 ATF and FBI management and explosives
specialists in the 8 locations that we visited. We were generally told that the
basis for disputes between the FBI and ATF was usually the absence of clear
jurisdiction. According to explosives specialists and Supervisory Special
Agents from both components, jurisdiction is often decided on scene, and
state and local authorities are confused over whether the FBI or ATF should
assume the lead in the investigation.

       To determine the basis of the disputes, we surveyed explosives
specialists from the FBI and ATF and made inquiries about the characteristics
of the disputes. As shown in Exhibit 2-7, 80 to 90 percent of ATF and FBI
specialists agreed that characteristics of disputes involved classifying an
incident as terrorism-related and determining which agency should lead the
investigation. Almost 60 percent of ATF specialists and nearly 40 percent of
FBI specialists indicated personality conflict was a characteristic of disputes.
Additionally, approximately 60 percent of FBI specialists noted that
differences in evidence collection and handling techniques were
characteristics of the disputes.

     Exhibit 2-7: Explosive Specialists Characteristics of Disputes

                               Strongly Agree Strongly Disagree Not Applicable or
                                  or Agree       or Disagree     Did Not Answer
         Characteristics        ATF      FBI    ATF       FBI     ATF      FBI
 Disagreement over classifying
 incident as terrorism-related       91%     82%        4%     4%    5%     14%
 Conflict over which agency
 has investigative lead              93%     89%        4%     3%    3%      8%
 Personality conflict among
 the federal agents involved         59%     38%       32%     45%   9%     17%
 Differences in evidence
 collection standards                44%     68%       37%     17%   19%    15%
 Conflict over the technique(s)
 used to handle explosives           54%       59%       28%   16%   18%    25%
 Other                                8%        8%        0%    0%   92%    92%
Source: OIG analysis of explosives   specialists surveys

      We also surveyed state and local bomb commanders on whether they
had witnessed disputes between the FBI and ATF. In our survey, 34 of 239
(14 percent) bomb squad officials reported ATF and FBI disputes had
occurred in explosives investigations during FYs 2007 and 2008. Of the 34
bomb squads reporting a dispute, 74 percent indicated that the number of
disputes was between 1 and 2 incidents while 26 percent indicated between




                                             25 

3 and 10 incidents.32 From our surveys, as shown in Exhibit 2-8, the state
and local bomb squad commanders provided support for the proposition that
the disputes were based largely on whether to classify an event as
terrorism-related and on the conflict over which federal agency has the
investigative lead authority. Additionally, the state and local officials
indicated that in roughly one-third of the disputes the conflict centered on
explosives-handling techniques.

           Exhibit 2-8: State and Local Characteristics of Disputes

                               Strongly Agree Strongly Disagree Not Applicable or
        Characteristics            or Agree        or Disagree     Did Not Answer
Disagreement over classifying
incident as terrorism-related              65%               15%              20%
Conflict over which agency has
investigative lead                         91%                0%               9%
Personality conflict among the
federal agents involved                    56%               29%              15%
Differences in evidence
collection standards                       21%               41%              38%
Conflict over the technique(s)
used to handle explosives                  35%               35%              30%
Other                                       6%                0%              94%
Source: DOJ OIG analysis of state and local bomb commander surveys

       Explosives Handling Disputes

      The techniques used to disarm or dispose of an explosive are critical to
ensuring the safety of responding law enforcement personnel as well as the
general public. Several FBI explosives specialists told us that conflicts
sometimes involved explosives-handling techniques used by ATF personnel
that the FBI believed were unsafe and not in accordance with procedures
taught to all certified bomb technicians. When we asked ATF personnel
about disputes over such techniques, an explosives specialist stated that the
FBI’s approach needlessly destroys a lot of evidence without meaningfully
reducing the risk to the public. He also stated that he believed most of the




      32
          In context, our survey indicated that state and local squad respondents reported
deploying to 9,362 explosives incidents in 2008, whereas ATF specialist respondents
indicated they covered 1,415 incidents (15 percent of the local agencies’ total) and FBI
respondents recorded deploying to 962 incidents (10 percent). However, neither
component tracks joint deployments or numbers of disputes.


                                            26 

ATF’s EEOs have more years of experience than FBI SABTs and therefore are
not advocating unproven or reckless procedures.33

      We surveyed state and local bomb commanders on how many times
during FYs 2007 and 2008 their squads were on an explosives incident scene
when ATF or FBI personnel proposed using techniques to handle explosives
that were different from their training.34 Only 6 percent of the bomb squads
indicated that the FBI proposed using non-standard techniques, while
21 percent indicated that ATF proposed using what they deemed to be non-
standard techniques. As shown in Exhibit 2-9, approximately 50 percent of
the bomb squad commanders responded that the non-standard techniques
raised concerns for the safety of on-scene personnel, and more than one
third of the commanders indicated the techniques delayed the render-safe
procedures. However, the commanders also indicated the intact evidence
obtained by using the non-standard techniques benefitted the case.

Exhibit 2-9: Effect of Non-Standard Explosives Handling Technique

                                   Strongly Agree Strongly Disagree Not Applicable
                                      or Agree       or Disagree    or No Answer
               Effect                ATF     FBI     ATF      FBI    ATF     FBI
Case benefitted from submitting
intact evidence                       54%       7%       30%      57%      16%      36%
Concern existed over the risk to
the safety of on-scene personnel      54%     50%        32%      29%      14%      21%
Disagreement caused delays in
render-safe procedures                38%     50%        44%      21%      18%      29%
Local bomb squad withdrew in
protest                                6%       7%       36%      21%      58%      72%
Other                                 12%       0%        2%       0%      86%     100%
Source: OIG analysis of state and local bomb commander surveys




      33
          ATF identified an incident in Seattle where important evidence was preserved by
advocating remote movement of a jar of possible peroxide explosive. By using this non-
standard technique, the EEO was able to see paper that had the formula written on it which
would otherwise have been destroyed.
      34
          For example, from site visits we learned some disputes involve ATF specialists
advocating spinning the end caps off pipe bombs rather than using a disrupter. In other
cases ATF would advocate x-rays or photographs of devices before destruction to preserve
evidence, and this step is contrary to the training of civilian bomb technicians.


                                            27 

Effects of Conflicts

      Both ATF and FBI explosives specialists agree that disputes delay
interviews, postpone the investigation, and confuse state and local partners,
as shown in Exhibit 2-10.

                Exhibit 2-10: 	Explosive Specialists Opinions
                               on the Effect of Disputes

                                 Strongly Agree Strongly Disagree Not Applicable or
                                    or Agree       or Disagree     Did Not Answer
              Effect               ATF     FBI     ATF      FBI     ATF      FBI
Delay in the conduct of
interviews                            64%     63%       25%       20%     11%       17%
Delay in the conduct of
investigations                        72%     70%       20%       20%      8%       10%
Confusion over which was the
federal lead agency                   83%     89%       10%        4%      7%        7%
Concern over what laboratory to
send explosives-related               71%     80%       17%        4%     12%       16%
evidence
Other                                  4%     15%          2%        0%   94%       85%
Source: OIG analysis of ATF and FBI   explosives specialists surveys

      During our interviews of ATF and FBI specialists in some locations, we
found a continuing hostility between these personnel. The hostility was
sometimes based on events that happened years earlier, and often did not
involve the individuals we were interviewing. These events, although in the
past, can adversely affect the working relationship between the FBI and
ATF.35 The following examples describe these events from various locations:

       San Diego: From interviews of both ATF and FBI explosives
specialists, we determined that relations between the components had been
strained since August 2003 when an incendiary device caused $50 million in
damage to a housing complex under construction. The FBI had asserted
lead agency authority under its domestic terrorism jurisdiction because the
fire was allegedly started by the Earth Liberation Front – an organization
identified by the FBI as a domestic terrorism enterprise. We were told that
the FBI resisted ATF’s assertion that it should lead the processing of the
scene based on its arson expertise.

      Kansas City: Agents from both components indicated there was little
to no relationship between the FBI and ATF on explosives matters because of

      35
         Explosive specialists from both components repeatedly brought up disputes that
occurred with their counterparts at major incidents such as the first World Trade Center
bombing, Oklahoma City, and the September 11, 2001, terrorist attacks on the Pentagon.


                                            28 

different jurisdictional interpretations exemplified by a 2004 incident in
Dodge City, Kansas. ATF specialists reported that FBI agents arrived on
scene of a domestic dispute first and continued to investigate the bombing
for several hours without notifying ATF. The FBI conducted interviews,
obtained a confession, and discovered several pipe bombs. When asked why
ATF was not notified earlier given that the case clearly was not terrorism-
related, the FBI Resident Agent-in-Charge stated that the FBI
Counterterrorism Assistant Director mandated that field offices should
aggressively respond to anything that could possibly be terrorism. The issue
was raised to the U.S. Attorney for the District of Kansas and ultimately
resulted in a clarification of roles from the Office of the Deputy Attorney
General.36

       Seattle: Management and agents from both components pointed to an
April 2005 arson of houses under construction in Lake Sammamish,
Washington, as the low point of their relationship. The ATF arrived at the
scene first and began processing evidence, including a banner purporting to
claim responsibility for the arson on behalf of the Earth Liberation Front – an
organization identified by the FBI as a domestic terrorism enterprise. ATF
sent this evidence to its Walnut Creek Laboratory. When the FBI arrived, it
asserted the banner clearly made the incident a case of domestic terrorism
and a confrontation over investigative authority ensued. Although ATF
contended it should maintain the investigative lead because the incident was
an arson case, the FBI took over the investigation because of the potential
domestic terrorism nexus. The FBI then flew a Special Agent to California to
retrieve the banner. ATF remained on the scene and provided assistance in
determining the cause and origin of the arson. However, ATF and FBI
personnel stated that this confrontation severely damaged the relationship
between the two agencies.

      Washington, D.C.: Within the national capital region, the FBI and ATF
have come to a jurisdictional accommodation given the greater likelihood of
terrorist targeting. Before asserting jurisdiction, ATF will defer investigative
authority to the FBI until terrorism is ruled out as the motive. Therefore,
ATF does not deploy alongside the FBI frequently for explosives incidents
inside the metropolitan area. Outside the metropolitan core, however, this
practice is not followed and conflicts arise. For example, a 2008 conflict
occurred over a suburban Virginia townhouse fire where the local fire
department discovered a basement full of explosives precursor chemicals.
The absent owners were active duty military and the FBI insisted on treating
the case as potential militia or white supremacists’ terrorist infiltration of the

      36
          This guidance, however, was not published or distributed to other U.S. Attorneys’
Offices, the FBI, or ATF.


                                            29 

military. However, ATF protested that the case was not terrorism. The ATF
subsequently confirmed with the townhouse owners that they were
constructing homemade fireworks, but FBI agents viewed the incident as
emblematic of a rush to judgment by ATF that the incident had no link to
terrorism.

       Survey respondents from three additional locations disclosed
significant conflicts had recently occurred between the FBI and ATF, as
shown in Exhibit 2-11.

           Exhibit 2-11: Summary of Disputes Identified in Surveys

   Location                                  Dispute Summary
Southwest             October 2008 – A dispute arose over explosives handling techniques.
                      The local bomb squad discovered a cache of explosives in a rural
                      setting and decided to destroy the explosives on scene so as not to
                      place undue risk to personnel. However, the ATF supervisor
                      intervened, advocating retaining some components for evidence. The
                      local squad protested to the local FBI SABT and then appealed to the
                      National Bomb Squad Advisory Board that such techniques were not
                      consistent with its training. ATF sent EEOs to assess the cache, who
                      recommended destroying all but three bombs. The local bomb squad
                      continued to have concerns for the safety of its officers.
Atlanta               October 2008 – A bombing occurred at a law firm in Dalton, Georgia.
                      Although the FBI recognized that no terrorism was involved and that
                      ATF would be the lead federal component if the bomber was not
                      killed, the Georgia Bureau of Investigation supported the local police
                      chief’s request that the FBI, and not ATF, handle the post-blast
                      evidence analysis. The ATF was insistent that the 2008 Memorandum
                      meant its laboratory should be used. The Georgia Bureau of
                      Investigation asked the United States Attorney to intercede, and the
                      FBI continued to provide laboratory assistance.
Houston               July 2006 – A peroxide explosives incident led to a dispute in Texas
                      City, Texas, when the FBI and ATF had a disagreement on whether an
                      explosion was terrorism-related. ATF claimed that the FBI tried to
                      exclude it from the investigation, even threatening to arrest an ATF
                      explosives specialist for attempting to conduct an additional sweep of
                      the crime scene. The local bomb squad sided with ATF against the
                      FBI’s assertion of potential terrorism. The dispute was escalated to
                      ATF and FBI field division management, and each component’s
                      specialists remained uncooperative. The case later was determined
                      not to be terrorism.
Source: OIG analysis of survey questionnaires

      In addition, as shown in Exhibit 2-12, a majority of state and local
respondents indicated that a dispute between the FBI and ATF delayed the
conduct of an investigation and confused state and local responders as to
which federal agency was responsible for leading the incident response or
investigation. This result is in line with the results of the survey of ATF and


                                            30
FBI explosives specialists and supports the importance of DOJ clearly
defining jurisdictional authority for explosives matters.

            Exhibit 2-12: 	Impact of ATF and FBI Disputes on
                           Explosives Investigations

                                 Strongly Agree Strongly Disagree Not Applicable or
              Effect                 or Agree      or Disagree     Did Not Answer
Delay in conduct of interviews              35%               32%             33%
Delay in conduct of
investigations                              56%               23%             21%
Confusion over who was the
federal lead agency                         79%                6%             15%
Concern over what laboratory to
send explosives-related                     44%               35%             21%
evidence
Other                                         3%               0%             97%
Source: OIG analysis of state and local bomb commander surveys

     Opinion of Counterparts

       Previous conflicts between the FBI and ATF appear to have fostered
lingering negative attitudes regarding the other component’s abilities.
Results from our survey of ATF and FBI Special Agents-in-Charge, as shown
in Exhibit 2-13, show that field division managers generally have a poor
opinion of the other agency’s explosives capabilities.

          Exhibit 2-13: Opinions of FBI and ATF Management

                                  Strongly Agree Strongly Disagree Not Applicable
                                     or Agree       or Disagree    or No Answer
    Counterpart Assessment          ATF     FBI     ATF      FBI    ATF      FBI
Counterpart provides important
explosives and post-blast expertise   6%   47%        89%      44%         5%       9%
Counterpart adds needed
resources for obtaining evidence     22%   35%        78%      60%         0%       5%
Counterpart neither helps nor
hinders                              44%   49%        33%      30%        23%       21%
Counterpart duplicates capabilities
already on scene                     89%   79%        11%      16%         0%       5%
Counterpart differs in scene
investigation methods                78%   58%        11%      30%        11%       12%
Counterpart delays decision-
making on scene                      67%   49%        33%      35%         0%       16%
Other                                 0%    2%         0%       0%       100%       98%
Source: OIG analysis of ATF and FBI management and explosives specialists surveys




                                         31
      In addition, as shown in Exhibit 2-14, the survey responses of ATF and
FBI explosives specialists mirror management opinions.

      Exhibit 2-14: Opinions of FBI and ATF Explosive Specialists

                                   Strongly Agree Strongly Disagree Not Applicable
                                      or Agree       or Disagree    or No Answer
    Counterpart Assessment           ATF     FBI     ATF      FBI    ATF      FBI
Counterpart provides important
explosives and post-blast expertise     9%   13%         82%     77%        9%     10%
Counterpart adds needed
resources for obtaining evidence      18%     9%         72%     84%       10%      7%
Counterpart neither helps nor
hinders                               37%    28%         45%     50%       18%     22%
Counterpart duplicates capabilities
already on scene                      80%    89%         10%       5%      10%      6%
Counterpart differs in scene
investigation methods                 65%    76%         15%     14%       20%     10%
Counterpart delays decision-
making on scene                       74%    80%          9%       8%       17%      12%
Other                                   2%    8%          0%       0%       98%      92%
Source: DOJ OIG analysis of ATF and FBI management and   explosives specialists surveys

      We also surveyed state and local bomb commanders to obtain their
opinions of the assistance they received from the FBI and ATF. Contrary to
ATF and FBI overall assessments of each other, the state and local bomb
squads favorably assess the contributions of both components, as shown in
Exhibit 2-15.

               Exhibit 2-15: 	State and Local Assessment of
                              FBI and ATF Assistance

                                   Strongly Agree Strongly Disagree Not Applicable
                                      or Agree       or Disagree    or No Answer
     Counterpart Assessment          ATF     FBI     ATF      FBI    ATF      FBI
 Provides important explosives and
 post-blast expertise                   77%      72%     9%      13%       14%    15%
 Adds needed resources for
 obtaining evidence                     75%      67%    10%      16%       15%    17%
 Neither helps nor hinders              23%      27%    41%      43%       36%    30%
 Duplicates capabilities already on
 scene                                  19%      25%    60%      55%       21%    20%
 Differs in scene investigation
 methods                                 20%     14%     58%      62%      22%    24%
 Delays decision-making on scene         10%     13%     67%      65%      23%    22%
 Other                                    2%      3%      0%       0%      98%    97%
Source: DOJ OIG analysis of state and   local bomb commander surveys




                                            32
       However, we learned from our surveys and interviews with state and
local bomb squads that some squads have become strongly anti-FBI and
others anti-ATF because of prior negative experiences with these
components. We were told by state and local bomb squad commanders
that, in some instances, the FBI is perceived as the only federal presence in
some larger, urban areas while ATF is perceived as more accessible in more
rural areas. Some states have few bomb technicians and therefore rely on
federal assistance. Other locations, such as New York City or Los Angeles,
have adequate bomb technician resources on the state and local levels and
therefore do not necessarily need federal assistance to address explosives
incidents. State and local bomb squad commanders also commented about
ATF’s and FBI’s working relationship and disparaging comments each
component voiced to them about the other, raising the specter that one DOJ
component’s poor opinion of the other has negatively affected local law
enforcement.

Conclusion

       The overlap of jurisdiction and a lack of direction in the coordination of
explosives investigations have promoted competition between the FBI and
ATF, delayed render-safe operations and crime scene processing, confused
local law enforcement partners, and may delay DOJ’s implementation of its
HSPD-19 responsibilities. We believe that a lack of supervision and
mediation by DOJ officials, in particular the Office of the Deputy Attorney
General, allows unhealthy component competition, unnecessary duplication
of efforts, and problematic explosives incident responses.

       Although we found ATF and FBI disputes over lead agency jurisdiction
are relatively infrequent, these conflicts continue to occur throughout the
country, with more than 30 percent of ATF specialists and 40 percent of FBI
specialists responding to our survey that such disputes had occurred in their
areas over the last 2 years. These disputes often adversely affect the
working relationship of the components, as demonstrated by the low
opinions each agency’s explosives specialists have of their counterparts.
Such negative opinions can make coordination between the FBI and ATF
more difficult. Further, such strongly held opinions by federal agents may
affect the opinions and actions of the state and local partners with whom
they work.

      Our surveys indicate local bomb squads may already prefer one
agency – the FBI or ATF – over the other, potentially resulting in explosives
investigations lacking important expertise from whichever federal agency is
not included in the incident response. Additionally, state and local partners



                                       33 

told us that they are confused about which federal agency they should work
with in explosives cases.

      Since ATF and FBI exercise concurrent jurisdiction on certain
explosives matters, we believe the DOJ should issue and enforce new
guidance that delineates how the components will interact in explosives-
related matters. This direction should replace prior agreements and MOUs
and address the following issues: explosives program coordination and
consolidation, whether to divide jurisdictions by device type (incendiary
versus explosive), geography (rural versus urban), or by technical
specialization (technical evidence collection and analysis versus render-safe
authority). Further, DOJ should also consider whether to reassign
explosives-related and domestic terrorism functions and personnel under the
provisions of 28 U.S.C. § 599A.

Recommendations

We recommend that DOJ:

  1. Implement new directives delineating lead authority for explosives
     investigations between the FBI and ATF. At a minimum, this guidance
     should: (1) assign responsibility to either the FBI or ATF to serve as
     the overall investigational “lead agency” for each specific type of
     explosives crime; (2) supersede all prior guidance on FBI-ATF
     explosives coordination; (3) detail actions required to coordinate
     jointly in circumstances when the motive is unclear. Consideration
     should be given to whether to divide jurisdiction between the
     components by device type, defined territories, technical
     specialization, or reassigning explosives functions and personnel under
     the provisions of 28 U.S.C. § 599A; and (4) establish a formal
     procedure for components to seek resolution of jurisdictional conflicts
     from the Department.

We recommend that the FBI and ATF:

  2. Develop protocols on joint investigations for explosives incidents 

     consistent with any new DOJ directives. 





                                     34 

CHAPTER III: INFORMATION SHARING

       The FBI and ATF separately maintain multiple explosives-related
databases to manage laboratory forensic reports, incident reporting, and
technical explosives-related information and intelligence. Contrary to the
directive in the 2004 Attorney General Memorandum, ATF did not
consolidate and maintain a distinct explosives-incident database. In
addition, FBI and ATF conflict creates challenges for meeting HSPD-19
Implementation Plan goals of information sharing such as single search
database compatibility and task force participation.

Incident Reporting not Consolidated

      The 2004 Attorney General Memorandum directed the consolidation of
all DOJ arson and explosives incident databases, including the FBI’s
Automated Incident Reporting System (AIRS) and ATF’s Bombing and Arson
Tracking System (BATS), into a single ATF-maintained database.37 The 2004
Memorandum also required that no other DOJ component be permitted to
maintain any database that contains arson or explosives incident information
that would otherwise be maintained in the consolidated database. A
consolidated explosives incident database would provide investigators with a
single source to obtain comprehensive statistics and incident trends. On the
other hand, separate databases result in duplication of effort, possible
duplicate reporting of incidents by state and local agencies, a lack of
uniformity in the reporting process, and the inability to accurately determine
trends in explosives incidents.

      In 2004, the FBI discontinued using AIRS and transferred the data in
that system to ATF’s BATS database. However, since the transfer of
explosives incident information, the FBI has not reported any additional
explosives incident information to BATS. Moreover, ATF has not consistently
reported all its explosives incidents in BATS. Rather, both components have
continued separate efforts to collect and disseminate explosives information.

      We determined that ATF’s effort to promote BATS as DOJ’s single
explosives incident database has suffered due to inconsistent reporting and
ineffective efforts to encourage participation by the explosives community.



       37
          BATS is ATF’s automated incident reporting system developed to streamline the
gathering, retrieving, reporting, and archiving of investigative information of fires and the
criminal misuse of explosives. After the consolidation of FBI AIRS data into BATS, ATF
designated BATS as DOJ’s single source for the reporting and sharing of explosives incident
information.


                                             35 

As a result, BATS is not the comprehensive resource envisioned for reliably
determining trends and providing useful explosives-related statistics.38

Inconsistent Reporting

      18 U.S.C. § 846 (b) mandates all federal agencies to report
information concerning explosives incidents to the Attorney General.
Reporting is voluntary for state and local agencies. The FBI and ATF
generally rely on state and local bomb squads to report incidents to BATS for
explosives matters in which the FBI and ATF are involved. However, the FBI
and ATF do not have processes to ensure that state and local agencies
actually report explosives incidents. In fact, officials from both components
told us they were aware of significant under-reporting by state and local
bomb squads of their involvement in explosives incidents. By not reporting
explosives incidents to BATS, and not ensuring that state and local
responders reported to BATS, the FBI and ATF have not complied with their
reporting requirements and have reduced the utility of BATS.

      In examining the BATS data, we requested from ATF a listing of
agencies that have reported explosives incidents to BATS. As shown in
Exhibit 3-1, state and local agencies provided the bulk of explosives incident
information from FYs 2003 through 2008.

            Exhibit 3-1: 	Number of Reported Incidents by Agency
                          (FYs 2003 – 2008)

                                                         Number of Reported
                         Agency                              Incidents
     ATF                                                               4,713
     FBI                                                                   0
     U.S. Army Criminal Investigation                                      7
     Command
     U.S. Capitol Police                                                         7
     U.S. Secret Service                                                         1
     State and Local Organizations                                          21,132
      Total                                                                 25,860
    Source: ATF U.S. Bomb Data Center as of September 2008




      38
            Officials from the National Association of Bomb Squad Commanders, FBI
Hazardous Devices Operations Center, and ATF U.S. Bomb Data Center explained that
comprehensive reporting by federal, state, and local authorities would improve BATS’
abilities to accurately generate incident reports.


                                           36 

      Other than the one-time transfer of explosives-incident data, the FBI
reported no incidents to BATS during this period, and ATF inconsistently
reported incidents in which it was involved. In addition, we noted that ATF
has not implemented data validation procedures to ensure the accuracy of
data entered into BATS. Each of these issues is discussed below.

       FBI Not Reporting Explosives Incidents

      We verified that in 2004 the FBI transferred explosives-incident
information from AIRS to ATF’s BATS and that ATF incorporated this data
into BATS. However, the FBI did not subsequently report to BATS any
explosives-incident information collected after its initial transfer of incident
information in 2004. We surveyed FBI explosives specialists on the
frequency of their reporting to BATS and found that more than 95 percent
indicated that they never entered information into BATS. Sixty percent of
the specialists stated that they relied on the state and local bomb squads to
report incident information.39

      While the FBI does not require its explosives specialists to report
explosives incidents to BATS, it requires them to provide the FBI’s
Hazardous Devices Operation Center – formally the FBI Bomb Data Center –
incident statistics and details related to various explosives-related activities
on a data sheet known as FD-542. This data collection is used in
determining SABT field office funding and evaluating SABT performance.40
Even though the FD-542 database keeps track of explosives incidents
responded to by FBI explosives specialists, FBI managers contend that it is
not used for statistical or data mining purposes and that the FBI is not
required to report the information in FD-542 to BATS.41 According to FD-542
information, the FBI deployed to 4,454 explosives incidents from 2004
through 2008. However, because the FBI did not report any incident
information to BATS during this 4-year period, BATS may be missing




       39
          According to ATF, the FBI only has 13 active BATS user accounts. A majority of
these accounts were maintained by FBI Headquarters personnel rather than agents in the
field who actually perform investigations.
       40
            In September 2001, the FBI instituted a policy to monitor and record individual
SABTs activity by utilizing a point system that awards points to SABTs based on the types of
activities a SABT performs.
       41
         Unlike the specific data fields in BATS, FD-542 does not have a uniform reporting
format and the level of detail in each entry may vary.


                                            37 

important information on many of these 4,454 explosives incidents unless
they were reported by the state and local first responders involved.42

      Regardless of the FBI’s objective in maintaining the FD-542 database,
the FBI is not reporting explosives incidents to a single, consolidated
database maintained by ATF – BATS – as required by the 2004 Attorney
General Memorandum. Moreover, we found that the FBI was relying on the
state and local agencies to report explosives incidents, and we determined
that state and local agencies did not consistently report to BATS. As a
result, the information in BATS is significantly incomplete, thereby
undermining its utility.

       Unreported explosives incident information prevents accurate and
reliable trend analysis and may affect the effective allocation of federal
funding and resources. For example, the FBI uses statistics and trends
generated from the FD-542 database for its explosives programs’ needs
assessments. However, by relying only on FBI data, the FBI does not
capture all of the information from state, local, and other federal responders
that could provide a more complete assessment of where its resources are
actually needed. Likewise, ATF and other BATS users do not have access to
the FBI’s incident data and consequently have less than a complete picture
of explosives incident activity. We believe the FBI must develop and
implement processes to ensure explosives incident information is entered
into BATS in a timely fashion.

       ATF Inconsistently Reporting Explosives Incidents

       Officials from the ATF U.S. Bomb Data Center stated that prior to
February 2009 ATF personnel generally reported explosives incident data to
another of its databases called the Arson and Explosives Incident System
(AEXIS) rather than to BATS. While the data was not originally entered into
BATS, the data in AEXIS is accessible to BATS users through a software
program that bridges the two databases. However, the bridge does not
provide the capabilities to search or display images within AEXIS. Because
ATF is responsible for maintaining BATS, it is troubling that ATF did not
directly enter all its explosives incident information into BATS until early
2009. By continuing to maintain and report explosives incident information
to AEXIS, for at least 5 years the ATF did not comply with the 2004


       42
           We were unable to determine the number of explosives cases in which the FBI
was involved because the FBI’s case management system does not track this data. While
the FBI case management system has a specific case classification code for explosives
incidents, that code does not account for cases opened as domestic terrorism, international
terrorism, or violent crime violations that involve explosives.


                                            38 

Memora andum requirement to conso
                                olidate all DOJ’s arson and ex
                                                             xplosives
incident databases.

       Further, we e determined that BATS, regardless off the link to AEXIS,
does no ot contain all ATF exxplosives incidents and ATF does not have a
reliable
       e process for ensuring that all explosives inciden    nts are rep
                                                                       ported. Inn
FY 2008 8, prior to
                  o our auditt, ATF atte
                                       empted to  o reconcilee AEXIS data to
explosivves incideents openeed within Nforce – ATF’s case    e managem  ment systtem.
ATF con ncluded thhat the maajority of its field diivisions were not reeporting
explosivves incideents to AEXIS as req quired by internal guidelines.. The ATF  F
reconciliation dettermined that from March through Jun       ne 2008,
819 explosives in ncidents were opened in Nforrce, but only 248 ca     ases were
reporteed through h AEXIS too BATS (se ee Exhibitt 3-2 for re esults by field
       n).
division

           EXHIB
               BIT 3-2: Explosiv
                               ves Cases
                                       s in Nforc
                                                ce vs. AEX
                                                         XIS
                        (March--June 200
                                       08)


                                Nforce    AEXIS
  70
  60
  50
  40
  30
  20
  10
   0




 Source
      e: ATF U.S. Bomb Data Center

      To determiine the ex xtent of ATTF’s reporting to BAATS, we reequested that
ATF perform a more exten   nsive reconciliation of explosives incideents recorded
in Nforc
       ce to incid
                 dents repoorted in BAATS during FYs 200  03 throughh 2008. The
ATF U.SS. Bomb Data Cente   er identified 5,870 unique ex xplosives cases
reporte
      ed in Nforcce for whicch 363 we ere not in BATS. Ho  owever, we
determined that ATF does not have an adequ      uate proceess to reco
                                                                    oncile case
                                                                              es
in Nforc
       ce to incid
                 dents in BAATS becau use: (1) ATF searched Nforc   ce using
explosiv
       ves terms s in case titles to de
                                      etermine iff those ca
                                                          ases should be reported



                                         39 

to BATS; however, not every explosives case was classified as an explosives
incident; (2) ATF omitted several explosives-incident case categories, such
as bomb threats, that should be reported to BATS; and (3) 846 cases were
excluded from the reconciliation because their status as an explosives case
could not be readily determined.43 Overall, we found that the process ATF
used to reconcile explosives cases between Nforce and BATS was incomplete
and unreliable. Therefore, we could not verify the number of explosives
cases in Nforce that were not reported to BATS.

       We surveyed ATF management and explosives specialists to gauge
their understanding of explosives-incident reporting requirements. Based on
our survey results, ATF personnel are uncertain who is responsible for
reporting explosives incidents. A majority of ATF managers (72 percent)
responding to our survey indicated that staff report explosives incidents to
BATS almost or most of the time, but 27 percent reported that staff
sometimes, rarely, or never reported explosives incidents to BATS.
Additionally, only 44 percent of ATF explosives specialists responding to our
survey indicated that they report explosives incident information to BATS
most or all of the time. Similar to the FBI, of the ATF explosives specialist
respondents who indicated that they rarely or never input incidents into
BATS, 30 percent responded that they relied on the state and local bomb
squads to satisfy federal reporting guidelines. However, ATF has no process
to verify whether state and local agencies input the information into BATS.

      Our audit found that ATF revised its internal reporting protocols three
times since 2004, each time changing the party responsible for reporting
incidents. Originally, personnel from the U.S. Bomb Data Center performed
a weekly reconciliation of explosives incidents reported between Nforce and
AEXIS and entered the information into BATS. Then in January 2008
explosives specialists were directed to send a data form to a technician in
each field division who would enter the information into BATS. As of
February 2009, each agent is now required to directly input incident data
into BATS.

      Although BATS is intended to be the centralized source for sharing
explosives incident information, we found ATF’s own reporting inconsistent.
We believe that ATF must reinforce guidance to their agents to ensure that
data for all explosives incidents and cases is timely and accurately entered
into BATS.

       43
          BATS should contain information on the following types of explosives incidents:
Accidental Explosion; Bombing (Actual, Actual Incendiary, Attempted, Attempted
Incendiary, and Premature Explosion); Fire Investigation (Accidental, Incendiary,
Undetermined, and Under Investigation); Hoax Device; Recovered Explosives (Other,
Search Warrant); Disposal or Destruct; and Threat (Arson, Bomb).


                                            40 

      Data Validation

      In October 2004, the OIG reviewed the explosives incident databases
maintained by the FBI and ATF.44 The review found data entry errors, and
concluded that much of the data entered into BATS was unrelated to
bombing and arson incidents, and therefore contrary to the purpose of
BATS. Despite this finding and ATF’s guidance requiring only arson and
explosives information to be entered into BATS, ATF did not establish
protocols to verify the accuracy of reported explosives incidents and prevent
the entry of either duplicative or erroneous reports of explosives incidents.

       ATF officials explained that quality control and data verification is
performed by, and is the responsibility of, BATS users. However, the BATS
operator’s manual does not define any protocols for the verification of
information reported to the system. Further, ATF told us that to prevent
duplicative data entry, users are instructed during training to perform
various queries using incident details to determine whether an incident had
already been reported to the system. After reviewing BATS training
documentation as well as ATF online BATS resources, we found no reference
to procedures that specifically address entry of duplicative incidents or the
verification of incident details.

      Given that ATF has no protocols to verify explosives information
entered in BATS and relies solely on the user to query for duplicative
incidents, ATF cannot ensure the accuracy and reliability of BATS data or any
analysis performed using the data. Consequently, we recommend that the
ATF implement procedures to periodically test and verify explosives and
arson information reported to BATS.

Ineffective BATS Implementation

      As previously noted, state and local bomb squads are not required to
report to BATS; however, the National Bomb Squad Commanders Advisory
Board (NBSCAB) – the governing body which represents all certified state
and local bomb squads – actively encourages state and local participation.
However, NBSCAB representatives expressed concern that because BATS is




      44
          U.S. Department of Justice Office of the Inspector General, Bureau of Alcohol,
Tobacco, Firearms and Explosives and Federal Bureau of Investigation’s Arson and
Explosives Intelligence Databases, Report Number 05-01 (October 2004), pages 25 and 34.


                                          41 

not widely used, the statistical summaries of explosives incidents generated
from the system are highly inaccurate.45

      Our survey of 470 state and local bomb squad commanders revealed
that only a minority of squads consistently report explosives incidents to
BATS, and more than one-half of the responders indicated that they rarely or
never query information in BATS, as shown in Exhibit 3-3.

      Exhibit 3-3: F
                   	 requency of Input or Use of BATS Information
                   By State and Local Bomb Squads

                              Almost All Most of                         Never or Did
            Task               the time the time Sometimes Rarely Not Answer
Report Incidents to BATS             29%       7%         8%       26%           30%
Query BATS for Information            7%       9%        25%       24%           35%
Source: OIG analysis of state and local bomb squad commanders survey responses

      We interviewed three bomb squad commanders who told us that
within larger metropolitan areas, bomb squads are often required to report
information on explosives incidents to local databases. When such a
reporting requirement exists, commanders commented that reporting to
BATS is burdensome and duplicative. Of the 239 local bomb squad
commanders responding to our survey, 133 reported that their squads rarely
or never entered information into BATS, and 10 percent responded that they
already entered explosives information into a state database, as shown in
Exhibit 3-4.

      Exhibit 3-4: 	State and Local Bomb Squads Reasons 

                    For Not Using BATS


                                                       Number of
                      Reason                          Respondents Percentage
 BATS is difficult to use                                           55             41%
 ATF has not provided any training                                  32             24%
 Already reporting incident information to state
 database                                                           13             10%
 BATS requires too much detail and is time
 consuming                                                          36             27%
 Not aware of BATS                                                   3              2%
 Other                                                              62             47%
  Source: OIG analysis of state and local bomb squad commanders survey responses

      45
          The NBSCAB recognized that the bomb squads need for explosives incident
reporting was so important that they recommended to the FBI that reporting be mandated
for a bomb squad to receive accreditation. However, the FBI rejected this advice stating
that 18 U.S.C. § 846(b) only requires federal, not state and local, reporting.


                                           42
      When asked about the reasons for not using BATS, 41 percent of the
state and local bomb squad commanders who responded to our survey
indicated that their lack of participation was due to the difficulty of using
BATS and 24 percent indicated a lack of training. In addition, half of the
62 survey respondents who selected the choice “other,” indicated that
access issues such as difficulty in obtaining passwords or getting assistance
prevented them from using BATS. Local bomb commanders we interviewed
complained that BATS reports required too much information for each
incident and took too much time to complete. For example, while reports to
FBI AIRS required only a facsimile with basic incident information, the BATS
process includes 12 separate web page screens with multiple menus and
data fields.

      Access Issues

       To gain access to BATS and begin reporting explosives incidents, state
and local bomb squads must sign a Memorandum of Understanding between
their agency and ATF. The agreement outlines the operation and
administration of BATS to ensure information within the system is kept
secure. However, we were told by NBSCAB representatives that the
extensive, nine-page agreement discourages reporting by some state and
local bomb squads. For example, the agreement provides the granting to
ATF of access to local systems, waivers of ATF responsibility for local system
repairs required by subsequent ATF software enhancements, and local
responsibility for ensuring access restrictions to BATS data.

      In addition to issues related to the Memorandum of Understanding,
state and local bomb squad commanders also commented that difficulties
related to usernames and passwords have discouraged their reporting.
According to the ATF U.S. Bomb Data Center, BATS passwords are only
active if they are used every 60 days and thereafter must be reset by the
BATS “help desk.” We were told by state and local bomb squad
commanders that due to the sometimes sporadic occurrence of explosives
incidents, users often must go through a lengthy process of having their
passwords reset when they expire. Our survey of state and local bomb
squad commanders revealed that 18 of 62 bomb commanders who rarely or
never use BATS reported lengthy wait times for obtaining BATS usernames
and passwords. Further, the resetting of inactive passwords prevented them
from logging into the system and reporting their explosives investigations.




                                      43 

        Training

       A lack of training by ATF has also hindered state and local bomb
squads from using BATS. The BATS user manual and Memorandum of
Understanding make user agencies ultimately responsible for the training of
both current and any replacement personnel. In May 2008 ATF began
hosting training seminars for state and local bomb squads. The presentation
walks users through specific steps to document and enter example incidents
into the system using a terminal connected to BATS. As of March 2009, ATF
had provided BATS training to approximately 1,132 bomb technicians and
investigators at 39 training seminars.

       Based on our state and local bomb squad commander interviews and
survey results, we determined that the extent of future BATS use by local
first responders depends on ATF’s ability to make BATS more user-friendly
and to provide effective training. Several commanders indicated that ATF
had already made revisions to BATS that improved its ease of use, although
they said that the extent of the information required remains a hindrance.46
To help enhance state and local bomb squads use of BATS, we recommend
that ATF prioritize remedial and new user BATS training for federal, state,
and local users. We also recommend that ATF review ways to more
efficiently provide user names and passwords, and reassess the need to
require the current extent of incident information.

DOJ Review of Explosives Databases

      The 2004 Memorandum required the DOJ Office of the Chief
Information Officer (OCIO) to examine and report to the Deputy Attorney
General on the feasibility of consolidating DOJ’s arson and explosives
databases. DOJ’s OCIO conducted a feasibility study in November 2004 and
concluded that DOJ needs to develop a more coordinated program for access
to arson and explosives information, resources, and technologies. However,
DOJ has not adequately addressed the proliferation of explosives related
databases within the FBI and ATF.

Competing Databases and Bomb Data Centers

      The FBI and ATF maintain Bomb Data Centers that provide technical
information to the domestic and international bomb technician community
on explosives devices. Additionally, these centers maintain separate
international explosives incident databases. The FBI Bomb Data Center

        46
             Bomb Commanders indicated that revisions made it easier to enter incidents into
BATS.


                                              44 

established the International Bomb Data Center Sub-Special Interest Group
(IBDC) in 2006 as a clearinghouse for information on international bombing
incidents and new render-safe technologies. Likewise, ATF’s Bomb Data
Center maintains an international explosives incident database called DFuze
to collect, analyze, report, and share explosives device and explosives
incident data with its international partners. But we found that operation of
separate international databases can cause confusion. For example, a
recent request by a foreign government for information on components
typically used in certain types of IEDs resulted in the FBI and ATF sending
separate and uncoordinated responses.

      The 2007 ERG report to Deputy Attorney General McNulty highlighted
the dispute between the FBI and ATF over the roles of their Bomb Data
Centers and included white papers outlining each agency’s position. ATF
contended that its U.S. Bomb Data Center had all relevant bomb incident
data and merited full DOJ support as the only Bomb Data Center maintained
by the federal government. The FBI contended that its counterterrorism
mission would be adversely affected if its explosives information-sharing
responsibilities were transferred or diluted and argued that only the FBI
should use the Bomb Data Center name and interact internationally on
explosives matters. The Office of the Deputy Attorney General never
resolved this dispute.

       Moreover, in 2006 the ATF Laboratory began using an IED Component
Database (IED DB) designed to assist laboratory technicians and
investigators in the description, storage, and retrieval of IED components.
However, other databases could potentially perform this function, including
the FBI’s Expert Reference Tool (EXPeRT) forensic laboratory database and
possibly ATF’s BATS.47 As shown in Exhibit 3-5, the FBI and ATF each
maintain disparate databases for managing laboratory forensic reports,
incident reporting, and technical explosives-related information and
intelligence.




      47
          Using the IED-DB, investigators can perform queries of specific explosives
incidents using descriptive attributes of the components within an IED. However, we note
that BATS already provides a forum for the description of simple components of an IED as
well as events surrounding explosives incidents.


                                           45 

            EXHIBIT 3-5: ATF and FBI Explosives Databases

        EXPLOSIVES DATABASE               AGENCY             PURPOSE
  BATS                                       ATF   Domestic Incident Reporting
  Improvised Explosives Device Database            Forensic reports and IED
  (IED-DB)                                   ATF   component information
                                                   Forensic reports and IED
  Expert Reference Tool (EXPeRT)             FBI   component information
  Arson and Explosives Incident System
  (AEXIS)                                    ATF   Domestic incident reporting
  FD-542 Database                            FBI   SABT activity reporting,
                                                   including incident reporting
   DFuze                                     ATF   International incident reports
   International Bomb Data Center Sub
   Special Interest Group Portal (IBDC)      FBI   International incident reports
  Source: ATF and FBI

Challenges to HSPD-19 Implementation

       The information-sharing practices of the FBI and ATF challenge DOJ’s
ability to meet the information-sharing goals of the HSPD-19
Implementation Plan. To combat the terrorist use of explosives, the
Implementation Plan encourages two major types of information sharing –
single search database compatibility and task force participation. Our audit
found that the incompatibility between FBI and ATF databases and the ATF’s
low participation on counterterrorism task forces affects the DOJ’s ability to
meet these goals.

Database Search Compatibility

      The HSPD-19 Implementation Plan requires that DOJ databases have a
single sign-on for user authentication that could simultaneously access and
query all DOJ explosives databases. This would eliminate the difficultly of
maintaining multiple passwords and performing multiple queries for the
same search and would substantially improve the overall flow of explosives-
related information. However, the lack of a study for consolidating DOJ’s
multiple databases limits DOJ’s ability to meet this requirement.

      Despite an attempt to implement the “OneDOJ” data environment, the
FBI and ATF have maintained separate databases (DFuze, EXPeRT, BATS,
IED-DB, and IBDC) that require separate sign-ons and passwords. Further,
a representative from the DOJ’s OCIO characterized the proposed database
consolidation and search capability recommended by HSPD-19 as “a
fabulous idea that will never work,” because the components will not want to
lose physical control over their information. To overcome parochial attitudes
and position DOJ to comply with HSPD-19 requirements, we recommend


                                          46 

that the Office of the Deputy Attorney General direct the OCIO to conduct a
follow-up study examining the feasibility of consolidating all current DOJ
arson and explosives databases, and to make specific recommendations to
overcome the hurdles to implementing the “OneDOJ” data environment.

Joint Terrorism Task Forces

       ATF is not participating in a majority of the Joint Terrorism Task Forces
(JTTFs) run by the FBI, and the Memorandum of Understanding that governs
its participation on JTTFs emphasizes only ATF’s regulatory functions and not
its explosives enforcement abilities. The HSPD-19 Implementation Plan
specifically calls for increased participation by federal agencies on JTTFs. In
particular, HSPD-19 Task 2.2.5 of the Implementation Plan is to encourage
and expand interagency and intergovernmental participation on JTTFs, to
include explosives and IED subject matter experts from federal, state, and
local agencies.

     As shown in Exhibit 3-6, as of April 2009 ATF detailed only 30 full-time
and 14 part-time Special Agents to the 106 JTTFs.48

             EXHIBIT 3-6: JTTF Staffing Contributions by Agency

                                                        Other           State &
             Status         FBI          ATF           Federal           Local
            Full-time        2,530          30                619            963
            Part-time           73          14                249            206
            Source: FBI

      ATF management stated that it does not participate full-time on
various JTTFs throughout the nation because ATF does not have the
available resources. Additionally, several ATF Special Agents assigned to
JTTFs stated that the overall communication between the FBI and ATF task
force officers was deficient and they felt disconnected from JTTF
investigations and from facilitating information flow between the
components. The FBI, on the other hand, does not fully participate in local
Arson and Explosives Task Forces supported by ATF. FBI officials indicated
that so few of the cases these Task Forces handled were of interest to the


       48
           The FBI classifies full-time JTTF members as those who work in FBI office space
on terrorism investigations under the supervision of an FBI Supervisory Special Agent. The
FBI accepts some part-time JTTF members if an agency cannot commit a representative on
a full-time basis. ATF indicates they had approximately 50 JTTF liaisons. A liaison is a point
of contact for an agency to the JTTF to share information and may attend JTTF meetings,
but does not participate on a part-time or full-time basis on the JTTF.


                                             47 

FBI that the field divisions would not allocate a full-time representative to
the ATF task force.

       In addition to encouraging greater participation on the JTTFs, the
HSPD-19 Implementation Plan also seeks to expand explosives and IED
subject-matter expertise. ATF officials stated they have the capability to
provide expertise for JTTF activities by supplying explosives detection
canines to help with special events, hosting post-blast training courses,
collecting and disbursing information from BATS, and responding to
explosives incidents across the country. However, none of the seven ATF
JTTF representatives we spoke to were currently assigned to explosives-
related work, and six of the seven were not explosives specialists.49

       One factor in the low level of ATF explosives expertise on JTTFs stems
from an outdated Memorandum of Understanding between the two agencies.
ATF and FBI signed a June 15, 2000, Joint Terrorism Task Forces
Memorandum of Understanding to outline the nature and extent of ATF
participation on the JTTFs. The memorandum was signed before the
September 11 terrorist attacks made counterterrorism the highest law
enforcement priority and before ATF was part of DOJ. The June 2000 MOU
only references ATF’s regulatory functions. According to the agreement, to
the extent possible an ATF Special Agent would be assigned to or liaise with
each JTTF. However, the memorandum does not specify that ATF will
provide any explosives specialist personnel to JTTFs.

       Given the emphasis by HSPD-19 on an interagency approach to
preventing terrorist use of explosives, we recommend that the ATF and FBI
revise the JTTF Memorandum of Understanding outlining ATF participation
within the JTTFs to add language emphasizing ATF capabilities and
jurisdiction within non-regulatory explosives investigations. We believe that
JTTFs would benefit from an increased presence of ATF personnel,
particularly Certified Explosives Specialists, who could share their explosives
expertise and provide a conduit for ATF explosives-related information.

Conclusions

      The FBI, ATF, and state and local bomb squads do not consistently
report explosives incidents to BATS - the database that ATF identified as
DOJ’s consolidated explosives incident database. While the FBI and ATF are
required by law to report explosives incidents, state and local bomb squads

      49
           The ATF personnel assigned to JTTFs that we interviewed were generally assigned
to obtain firearms-related information. An FBI supervisor stated that ATF personnel
assigned to his particular JTTF are not assigned explosives-related cases because the ATF
representatives are not at the JTTF office enough to warrant assigning them cases.


                                           48 

are encouraged but not required to report explosives incidents. Moreover,
although the FBI transferred historical explosives information into BATS in
November 2004, the FBI has not reported any explosives incident
information to BATS since then. Additionally, until February 2009 ATF
personnel reported incidents to AEXIS instead of BATS. Both the FBI, and to
a lesser extent ATF, relied on state and local bomb squads to satisfy their
federal requirement to report incidents without having any assurance that
the state and local squads were submitting the incident reports.

       For state and local bomb squads, a significant number are not
reporting their incidents to BATS due to access issues and a lack of BATS
training. As a result, ATF’s efforts to maintain and promote BATS as DOJ’s
single explosives incident database suffered due to ineffective efforts to
encourage participation by the state and local explosives enforcement
community and this lack of consistent incident reporting has resulted in
inaccurate and unreliable explosives-incident data.

      Further, despite a feasibility study for consolidating DOJ’s multiple
databases, the FBI and ATF separately maintain multiple explosives-related
databases to manage laboratory forensic reports, incident reporting, and
technical explosives-related information and intelligence. The HSPD-19
Implementation Plan requires that DOJ databases have a single sign-on for
user authentication that could simultaneously access and query all DOJ
explosives databases.

       The HSPD-19 Implementation Plan encourages increased federal,
state, and local participation on JTTFs as well as the inclusion of explosives
and IED subject matter experts. We found that ATF does not participate on
the majority of JTTFs and that the current MOU between ATF and FBI
regarding JTTF participation does not recognize ATF’s explosives
enforcement abilities. Likewise the FBI is not fully participating in ATF-led
Arson and Explosives Taskforces. The FBI and ATF should increase their
efforts to participate in task forces that respond to explosives crimes.
Improving ATF’s level of JTTF participation and updating operating protocols
to recognize the contributions of ATF explosives specialists would help
achieve the information sharing goals of the HSPD-19 Implementation Plan.




                                      49 

Recommendations

We recommend that DOJ:

  3. Direct the OCIO to conduct a follow-up study examining the feasibility
     of consolidating all current DOJ arson and explosives databases, and
     making specific recommendations to overcome the hurdles to
     implementing the “OneDOJ” data environment.

We recommend that the FBI and ATF:

  4. Develop and implement new guidance to ensure uniform, timely, and
     accurate data entry of explosives incidents and cases into BATS as
     required by the 2004 Memorandum and 18 U.S.C. § 846(b).

  5. Update the Memorandum of Understanding outlining ATF participation
     on the JTTFs to contain language emphasizing ATF capabilities and
     jurisdiction within non-regulatory type investigations.

We recommend that ATF:

  6. Reassess staffing requirements to prioritize increased participation by
     explosive experts on task forces that respond to explosives crimes.

  7. Prioritize remedial and new-user BATS training for federal, state, and
     local users.

  8. Review BATS for ways to make it more user-friendly, including ways
     for users to more efficiently obtain user names and passwords and
     reassess the extent of required incident information.




                                     50 

CHAPTER IV: EXPLOSIVES TRAINING AND CANINES

       One of the central functions provided by the FBI and ATF explosives
programs is training to federal, state and local explosives personnel. The
2004 Memorandum directed that all DOJ post-blast explosives training be
consolidated under ATF, mandated that all DOJ components use ATF-
certified canines, and required an Explosive Training Review Board (Training
Board) to review consolidating all explosives training programs and facilities
across DOJ’s components. However, the DOJ never convened the Training
Board, and therefore the Training Board did not examine the feasibility of
consolidating all DOJ explosives programs and facilities. In addition, we saw
no evidence that the FBI and ATF worked together to establish DOJ
explosives training priorities, and the two agencies reached no consensus on
the use of explosives detection canines. The FBI and ATF continue to
expand their respective training facilities, run uncoordinated post-blast
training programs, and disagree on the guidelines for training explosives-
detection canines.

Explosives Training Facilities

        Part of the intent of the 2004 Memorandum was to review the
feasibility for consolidating DOJ explosives training facilities. However, that
never occurred, and since issuance of the memorandum both components
have expended or are proposing over $110 million in explosives-training
facilities, as shown in Exhibit 4-1.




                                       51 

            EXHIBIT 4-1: ATF and FBI Explosives Training Facilities

                                                                      Cost
                                Facility50                        (in millions)
            FBI Hazardous Devices School                                   $ 23.0
            ATF National Center for Explosives Training and
            Research Construction Costs                                      28.5
            ATF National Center for Explosives Training and
            Research Non-Personnel Costs (proposed)                          41.6
            FBI Secure Training Facility                                      4.8
            FBI Vehicle Borne IED Training Facility and
            Non-Personnel Costs (proposed)                                   13.1
               Total                                                       $111.0
             Source: FBI Bomb Data Center and ATF Explosive Training Branch

FBI Hazardous Devices School

       In 2004, the FBI opened a $23 million Hazardous Devices School
(HDS) at the Redstone Arsenal in Huntsville, Alabama. HDS provides
federal, state and local personnel a 6-week basic bomb technician program,
re-certification training, and a specialized course in executive management
training for bomb squad managers. The basic bomb technician course
includes bomb threats, demolition procedures, hazardous material
operations, render-safe procedures, removal techniques, robotics
deployment, weapons of mass destruction response devices, and x-ray
equipment. HDS is the only training program nationally recognized to certify
bomb technicians and to accredit civilian bomb squads. Although the FBI
maintains an administrative role over the facility, a majority of the training is
conducted by U.S. Army Ordnance Munitions and Electronics Maintenance
School instructors.

      In October 2008, the FBI opened a $4.8 million Secure Training Facility
located at HDS and has sought an additional $13.1 million for a vehicle-
borne IED training facility and non-personnel costs. The FBI stated that
these facilities are needed to: (1) conduct sensitive emerging threat training
for the public safety bomb squad community; (2) comply with the HSPD-19
requirement to conduct vehicle borne IED training course; and (3) allow for
simultaneous training so that the HDS basic and re-certification courses are
not in competition with existing classrooms and work space.



       50
          The costs listed in Exhibit 4-1 include construction costs and non-personnel costs,
such as equipment and vehicles. The figures do not include the costs of personnel.


                                             52 

ATF’s Training Facilities

       ATF currently maintains the National Center for Explosives Training
and Research (NCETR) in Fort A.P. Hill, Virginia, and the Canine Training and
Operations Support Branch (National Canine Training and Operations Center)
located in Front Royal, Virginia. In addition, ATF is constructing a new
NCETR facility at Redstone Arsenal in Huntsville, Alabama – the same
location that currently houses HDS.51 Congress provided $23.5 million for
Phase One of the project (basic building construction), and ATF has
furnished an additional $5 million.52 For FY 2010 ATF sought an additional
$41.6 million in non-personnel expenditures for explosives range
construction, facility and classroom infrastructure, and research and
development costs.

      At these facilities, ATF teaches explosives courses to its own
employees as well as state and local personnel. While NCETR offers
advanced explosives training to specialists, the Front Royal facility develops
explosives detection canines for federal, state and local agencies. NCETR
also hosts courses required for training CESs, but it does not provide training
on render-safe procedures. Instead, ATF EEOs and ATF and FBI SABTs are
trained at HDS.

        According to ATF, when its new NCETR facility is completed in FY 2010
it will promote efficiency by consolidating other DOJ and Department of
Defense explosives training and research centers at one location. However,
physical co-location of facilities does not constitute consolidation, and in fact
ATF is not consolidating its own operations. Rather, it intends to continue
classes at its Fort A. P. Hill location even after the Redstone location is fully
operational. Rather than consolidating ATF training in a single location, the
new facility expands ATF’s existing training facilities.53
       51
           In 2006, the conference committee report of Public Law 109-108 directed ATF to
plan for the construction of a permanent facility co-located with other law enforcement and
federal government entities that provide similar training and research. Plans to construct
the new NCETR facility at Redstone were approved by Congress and ground was broken for
the main building of the new facility in November 2008.
       52
            The construction plan calls for expected completion in FY 2010.
       53
            The ATF Chief of the Explosive Training Branch said it was necessary to keep
A.P. Hill for several reasons including: (1) A.P. Hill is an important resource for the ATF and
other federal, state and local entities due to the limited availability of explosives ranges on
the East Coast; (2) the ATF laboratory does evidentiary explosives work (the re-creation of
devices) at the A.P. Hill site; (2) ATF will continue to use A.P. Hill for contracted training for
the Department of State and Marine Corps personnel; and (4) Congressional officials might
want to observe ATF explosives capabilities, and the A.P. Hill site would be more convenient
and closer to Washington, D.C.


                                               53 

Explosives Training Programs

       The 2004 Memorandum required the establishment of a Training Board
to review consolidating all explosives-related training across DOJ’s
components. According to the ATF, it met with the FBI to discuss explosives
training issues in the months following issuance of the 2004 memorandum
and, in December 2006 and May 2008. However, the DOJ did not convene
the Training Board and has not established a comprehensive approach for
providing explosives-related training.

       During our audit, we did not find evidence that the FBI and ATF had
worked together to establish DOJ explosives training priorities, identify what
training is needed, who has the most pressing need for the training, and who
can best provide that training. Additionally, in January 2007 the ERG
reported to the Deputy Attorney General that training related to post-blast,
canines, and render-safe procedures either had not been implemented or
remained highly contested.

       We believe that coordinated training would be more efficient and help
promote consistent, DOJ-wide investigation practices. As long as the FBI
and ATF continue to independently operate their respective explosives
training facilities without proper coordination, DOJ’s ability to meet the
recommendations of the HSPD-19 Implementation Plan are unlikely.54

Training Priorities

      Both ATF and FBI have training requirements for their explosives
specialists and require explosives specialists to re-certify at regular intervals.
For ATF CES re-certification, candidates must attend a course hosted at
NCETR every 2 years, while ATF EEOs and ATF and FBI SABT personnel must
re-certify every 3 years at the HDS. As shown in Exhibit 4-2, the FBI and
ATF are behind in the re-certification of their explosives specialists.




      54
           HSPD-19 requires enhanced standards and improved delivery of post-blast 

training and uniform explosives-detection canine-team training and performance standards.



                                           54 

  Exhibit 4-2: Explosives Specialists - Not Current Re-certification

                                       Total        Percent Not
                  Specialist          Number          Current
              ATF CES                        241           57%
              ATF EEO                         26           12%
              ATF SABT                         5             0%
              FBI SABT                       174           12%
             Source: ATF NCETR and FBI HDS as of March 2009

       According to ATF, funding for NCETR training has been declining since
FY 2004. In FY 2008, the NCETR was able to provide only limited explosives
training, including only one CES re-certification course, far less than the five
or six courses necessary to keep all personnel up-to-date. Therefore, an ATF
official said the CES re-certification process has fallen behind schedule. ATF
noted that those individuals who had not been re-certified due to the funding
problems were granted an extension.

       With respect to the re-certification status of those explosives
specialists trained at the HDS, the FBI stated that the FBI SABTs not current
on their re-certification have been precluded from training due to scheduling
conflicts (such as deployment overseas, medical reasons, or involvement in
a major case), or may no longer be active or eligible for the SABT program.
Furthermore, the FBI stated that all ATF candidates for re-certification are
processed similar to all other bomb technicians. As CESs, EEOs, and SABTs
are responsible for all of the explosives missions within their respective
agencies, the need to keep up-to-date on re-certification is critical.

       We believe that to effectively and efficiently provide coordinated
explosives training, the Training Board should meet to not only consider
consolidation of training programs, but also to develop a training plan for all
DOJ explosives-related efforts. The plan also needs to assess the training
needs of federal, state, and local explosives specialists and assign priorities
to those programs that most effectively meet those needs. In addition, the
components must identify funding requirements and focus their training
efforts in those priority areas.

Explosives Training Disputes

       The 2007 ERG report included ATF and FBI white papers that outlined
unresolved issues for resolution. Exhibit 4-3 summarizes the FBI and ATF
positions on a variety of training issues:




                                      55 

       Exhibit 4-3: Summaries of ATF and FBI Training Disputes


           ATF White Paper                                    FBI White Paper
                Post-Blast                                         Post-Blast
1) ATF should serve as the primary DOJ           1) The FBI should continue to teach explosives
component to develop and provide                 and post-blast training with a domestic and
comprehensive training programs for fire and     international terrorism perspective. ATF should
explosives investigations.                       only teach explosives and post-blast training
                                                 from a non-terrorism explosives perspective.
2) FBI should develop and provide
comprehensive training programs for nuclear,     2) The language and directions related to post-
biological, chemical, and radiological           blast training provided in the Attorney General
investigations.                                  Memo should be amended with language to be
                                                 drafted by the ERG Training Working Group.

                  Canine                                             Canine
3) ATF recommends the language regarding         3) FBI recommends the language regarding
canines be rewritten to require that all         canines be rewritten to state that as soon as
explosives-detection canines possessed or        practicable, all DOJ components shall use only
maintained by DOJ components be procured,        canines that have been certified using the
trained, and certified by ATF.                   Scientific Working Group on Dog and detector
                                                 Orthogonal Guidelines (SWIGDOG).
4) DOJ components shall make every effort to
use an ATF-trained and certified canine. If an   4) The FBI should continue its joint training -
ATF-certified canine is not available, the       the National Canine Peroxide Training Initiative -
component may, in the interim, use a canine      with the Department of Homeland Security.
that has been trained and certified to
Scientific Working Group on Dog and
Orthogonal detector Guidelines.

               Render-safe
5) ATF should administer the explosives                          Render-safe
portion of the Hazardous Devices School at       5) The FBI identifies the Special Agent Bomb
Redstone Arsenal in Huntsville, Alabama.         Technician program as components in its
                                                 terrorism mission and does not specify that they
                                                 would relinquish administration of the
                                                 Hazardous Devices School.
Source: 2007 ERG Report, ATF and FBI White papers

      According to the 2007 ERG report, ATF believed the language in the
2004 Memorandum was clear, while the FBI believed the text was
ambiguous and in need of clarification. Although the ERG reported these
disputes in 2007, DOJ did not resolve any of the issues. As a result, ATF and
the FBI have not consolidated delivery of post-blast training, agreed on a
standard for canine explosives detection certification, or standardized any
explosives-related training programs.


                                               56 

     Post-Blast Training Programs

       The FBI and ATF conduct separate post-blast training courses that are
offered locally to federal, state, and local explosives personnel. Post-blast
training teaches methods and processes for investigating explosives scenes.
Post-blast analysis of actual or suspected explosives attacks can help local
law enforcement identify the components and functions of explosive devices,
which can provide indicators and warnings of terrorist or criminal behavior.
HSPD-19 specifies the need for uniform standards for post-blast training to
improve joint response operations among bomb squads.

       The 2004 ERG report indicated that both ATF and the FBI curricula are
essentially the same. Our review of these curricula confirmed that they
share common topics, including an introduction to explosives, lessons on
IEDs, laboratory services, and bombing investigations. Furthermore, in our
interviews with explosives personnel from both agencies, they noted no
differences between the curricula. Considering the similarities, the two
components could easily consolidate the post-blast curricula. However, our
survey showed that 92 percent of FBI explosives specialists and 83 percent
of ATF explosives specialists rarely or never coordinated their post-blast
curricula.

       We recommend the FBI and ATF standardize a DOJ-wide post-blast
training curriculums. Further, we recommend that DOJ resolve any
differences between the two components regarding post-blast curricula.

     Canine Program and Peroxide Training

       We found that DOJ has not provided clear direction regarding canine
certification tests, and ATF and the FBI are currently providing independent,
uncoordinated explosives detection canine training. The 2004 Memorandum
required all DOJ components to use canines certified by ATF. However,
explosives specialists from both ATF and FBI are providing peroxide-based
explosives detection training to state and local bomb squad canine teams
and both components disagree about the standards that should be used to
certify explosives-detection canines. When the ERG reported the
certification dispute in 2007, DOJ never resolved the issue.

     Canine Certification. The 2004 Memorandum directed all DOJ
components to use ATF-certified canines, but it did not preclude any
component from procuring or training explosives detection canines
independently. Our audit revealed that the FBI generally uses non-ATF




                                     57 

certified canines.55 Our survey of FBI explosives specialists also revealed
that more than 80 percent of respondents rarely or never use ATF-certified
canines. Instead, FBI explosives specialists rely mainly on explosives-
detection canines provided by state and local agencies that are often not
ATF-certified.

       Although the FBI and ATF agree that DOJ should have a single
certification standard for canines, they disagree on the how the standard
should be established. ATF developed the National Odor Recognition
Training and Testing (NORT) program as a standardized method for
assessing a canine’s ability to recognize explosives odors. NORT is a test
administered by ATF forensic chemists to federal, state, and local canine
teams.

       The FBI believes NORT may not actually assess the operational
capabilities of the canine and that the certification standards should be
determined by the Scientific Working Group on Dog and Orthogonal detector
Guidelines (SWGDOG). SWGDOG is composed of members from federal,
state, and local agencies, including both ATF and the FBI. While SWGDOG is
a non-certifying body that provides best practice guidelines, it anticipates
that these best practices will be incorporated into participating organizations’
certification standards.

     As shown in Exhibit 4-4, the FBI and National Institute of Justice (NIJ)
have provided funding to SWGDOG during the past 5 years.

       EXHIBIT 4-4: DOJ Funding of SWGDOG FYs 2004-2008

  Component         2004       2005         2006         2007         2008         Total
  NIJ              $    0  $97,020         $95,134       $92,998     $85,672     $370,824
  FBI               8,196   62,547          39,160        28,592           0      138,495
   Total           $8,196 $159,567        $134,294      $121,590     $85,672     $509,319
 Source: Office of Justice Program Grant Management System and FBI Forensic Canine Program

      We believe that DOJ has not adequately communicated its policy for
canine certification to its components, and instead has sent conflicting
signals on what certification standard should be used. Although DOJ
directed one standard to be administered through ATF, DOJ also funded a
process to adopt another standard through the NIJ and FBI. Without a
single standard for canine certification, deployments to special events or


       55
          The FBI’s uniformed police use ATF–certified canines; however, FBI field divisions
generally rely on state and local canines or the four explosive detection canines owned by
the FBI.


                                             58 

bombing scenes with multiple canine units may lack standard operating
procedures and can impact the efficiency of bomb sweeps.

       As part of the JPO, the Department of Homeland Security (DHS) and
DOJ are co-leading an interagency advisory board responsible for developing
uniform standards for explosives-detection canine teams, including annual
certification and recurring proficiency training. DHS and DOJ, building on
the previous ATF National Canine Advisory Board, created the National
Explosives Detection Canine Advisory Board, which includes participants
from the four major professional canine associations. The FBI believes that
as a result of the creation of this advisory board for the first time, there is
consensus across the explosives-detection canine community that national
training and performance standards are needed. We recommend that DOJ
select and enforce a single standard for the use of certified canines for DOJ
components, consistent with the requirements of HSPD-19.

       Peroxide-Based Explosives Training. According to ATF, it began
training explosives detection canines on peroxide-based explosives in 2002
after the ATF Laboratory worked with British authorities to develop an
effective method of producing explosives used for training purposes. In
2006, the National Explosives Detection Canine Training Program, which is
part of the Transportation Security Administration of the Department of
Homeland Security, worked with the FBI to train canine teams to detect
various peroxide explosives.

       FBI explosives specialists told us they provide bulk (15-30 grams)
samples of peroxide-based explosives to state and local canine handlers to
sensitize their animals to the peroxide scent. ATF also conducts similar
training for state and local canine handlers with trace (5 milligrams)
amounts of peroxide-based explosives. ATF officials argued that the FBI
should not be providing such training, saying that ATF’s method is superior
because training with trace amounts of peroxides enhances the canines’
ability to detect explosives. For example, because these explosives would
generally be sealed in containers, the canine must be able to alert based on
recognizing a trace amount of explosives left on a container lid or its scent
on the potential bomber.

      An FBI Explosives Unit official noted in a published FBI Bomb Data
Center Investigators Bulletin that trace amounts, like those used by ATF, can
be utilized to conduct training if suitable precautions are taken.56 However,
the official noted that any time trace amounts of material are utilized, they

      56
           FBI Bomb Data Center Investigators Bulletin 2006-3 entitled K-9 Detection of
Peroxides.


                                            59 

are susceptible to contamination. For example, if the handler using these
aids handles any other type of explosive or has an explosive residue near
these aids, it is possible to introduce interfering odors. In addition, the FBI
official contended that trace amounts of peroxides dissipate rapidly, and
once exposed, have a very short shelf life.

      Despite these differing opinions, the differences between the FBI and
ATF’s peroxide-based explosives training programs do not appear to be
irreconcilable, and consolidation of the training standards should be possible.
Therefore, we recommend the FBI and ATF consolidate the training for
peroxide-based explosives.

       Render-safe Procedures

       The Hazardous Devices School (HDS) has developed standardized
protocols for disarming or destroying explosives and component parts -
render-safe procedures - which are taught to all bomb squads to maximize
public safety. However, according to our interviews and surveys, ATF
Explosives Enforcement Officers (EEOs) sometimes use render-safe
procedures that are not in compliance with those specified at HDS. The
differing render-safe techniques and standards between the FBI and ATF can
lead to confusion among FBI and some state and local responders, and
present possible public safety problems. For example, first responders may
disagree about the techniques that should be used to handle explosives or
render-safe explosives on scene. In particular, during our site visits to both
components we were told ATF uses two techniques that have caused concern
among FBI and state and local personnel – the spinning of pipe bomb end
caps and the use of “King County Cutters.”57

      These disputes may delay the render-safe procedures or endanger first
responders. During our interviews, FBI explosives specialists told us of
several incidents that created controversy at explosives scenes when the FBI
believed that the techniques used by ATF, such as the spinning of pipe bomb
end caps, were unsafe and not in accordance with HDS procedures. When
we asked ATF explosives specialists about these disagreements, they told us
that almost all of the ATF’s EEOs have more years of experience than FBI’s




       57
          According to ATF, there are specially-designed instruments for safely spinning off
the end caps of pipe bombs in order to disarm them while also preserving the evidence for
use in court. King County Cutters are instruments used to ‘slice’ open and disarm a device.



                                            60 

SABTs and that they are not advocating unproven or reckless procedures.58
One ATF EEO stated that the FBI’s approach needlessly destroys
considerable amounts of evidence without meaningfully reducing the risk to
the public.

       However, these ATF techniques conflict with HDS training, and FBI
personnel stated that the ATF’s technique of spinning off end caps caused
unnecessary risk to bomb technicians on site and the general public. We
surveyed state and local bomb squad commanders on how many times in
FYs 2007 and 2008 their squads had been on an explosives incident scene
when ATF or FBI personnel proposed techniques to handle explosives that
were different from HDS training. Of the 239 bomb squad commanders that
responded, 21 percent indicated ATF proposed non-standard techniques,
while 6 percent indicated FBI proposed non-standard techniques.
Approximately one-half of the bomb squad commanders also responded that
the non-standard techniques raised concerns about the safety of on-scene
personnel, and more than one-third of the commanders indicated the
techniques delayed the render-safe procedures. However, as shown in
Exhibit 4-5, 54 percent of bomb squad commanders responding also
indicated the intact evidence obtained by using ATF techniques benefitted
their cases.

  Exhibit 4-5: 	State and Local Bomb Commander Perceptions of the
                Effect of Different Explosive Handling Techniques

                                   Strongly Agree Strongly Disagree Not Applicable
                                      or Agree       or Disagree    or No Answer
               Effect                ATF     FBI     ATF      FBI    ATF     FBI
Case benefitted from submitting
intact evidence                       54%       7%       30%      57%      16%      36%
Concern existed over the risk to
the safety of on-scene personnel      54%     50%        32%      29%      14%      21%
Disagreement caused delays in
render-safe procedures                38%     50%        44%      21%      18%      29%
Local bomb squad withdrew in           6%      7%        36%      21%      58%      72%
protest
Other                                 12%       0%        2%        0%     86%     100%
Source: DOJ OIG Survey Analysis




      58
          The ATF identified an incident in Seattle where important evidence was preserved
by using a non-standard technique. By advocating remote movement of a jar of possible
peroxide-based explosives, the ATF EEO was able to see that paper underneath the jar had
the formula written on it that would otherwise have been destroyed.


                                            61 

      The National Bomb Squad Commanders Advisory Board also believes
that standardized and coordinated training will enable ATF and FBI bomb
technicians to work safely and effectively together under a general
operational philosophy that is compatible across the profession. Therefore,
we recommend ATF and the FBI agree on standardized render-safe
procedures. The curriculum taught at the HDS should include input from
ATF EEOs and result in one set of render-safe procedures that are used by
the FBI, ATF, and other public safety bomb technicians.

Conclusion

       We found ATF and the FBI have not established a joint training plan,
consolidated training facilities, or standardized post-blast, canine or render-
safe curricula. Despite the requirement of the 2004 Attorney General
Memorandum, the DOJ’s Training Board has not been convened, and ATF
and the FBI did not establish priorities for providing explosives-related
training or for developing a comprehensive training plan. In addition,
although ATF recently built a new explosives training headquarters adjacent
to HDS, it has not consolidated operations or scheduling with the FBI.

       Without coordination of schedules, curricula, and instruction, both ATF
and the FBI will continue to provide inconsistent local training to bomb
squads throughout the country, including locally conducted post-blast
training, and peroxide-based explosives detection canine training. In
addition, differing render-safe techniques and concerns over different
explosives detection canine standards used by the FBI and ATF could
endanger the safety of bomb squad personnel and the public.

Recommendations

We recommend that DOJ:

   9. Resolve any differences between the FBI and ATF regarding post-blast
      curricula.

 10. Select a single standard to certify canines for DOJ components, 

     consistent with the requirements of HSPD-19. 


 11. Convene the Explosives Training Review Board to consider
     consolidation of training programs and to develop a training plan for all
     DOJ explosives-related efforts. The plan should assess the training
     needs of federal, state, and local explosives specialists and prioritize
     the provision of the training programs to most effectively meet those
     needs.


                                      62 

We recommend that both ATF and the FBI:

 12. Consolidate and standardize a DOJ-wide curriculum for post-blast
     training.

 13. Agree on standardized render-safe procedures for use in the HDS
     bomb technician curriculum.

 14. Coordinate and consolidate canine training for peroxide-based 

     explosives. 





                                    63 

CHAPTER V: LABORATORY RESOURCES

      The FBI and ATF each have laboratories that perform explosives-
related analysis. The 2004 Memorandum directed that a Laboratory Review
Board (Lab Board) be established to examine DOJ laboratory resources and
workloads to make recommendations for the most productive allocation of
DOJ laboratory resources. Although a Lab Board was formed in September
2004, it never provided a report or recommendations to the Deputy Attorney
General.

DOJ Explosives Laboratories

      The FBI and ATF each have laboratories that perform forensic analyses
on various types of evidence, including explosives evidence. Additionally,
the FBI and ATF are part of the multi-agency Terrorist Explosive Device
Analytical Center (TEDAC) that runs its own forensic laboratory for
explosives.

ATF Laboratories

       The ATF’s Office of Laboratory Services conducts forensic analysis of
explosives, accelerants, destructive devices, and explosives debris. It also
provides laboratory support to ATF’s regulatory functions over the firearms
and explosives industries, training and crime scene assistance to federal and
local law enforcement, and expert witness testimony.59 ATF laboratory
personnel consist of forensic chemists, firearm and toolmark examiners,
fingerprint specialists, and document examiners. Evidence collected at an
explosives scene is sent to one of ATF’s three regional laboratories for
examination.

      ATF’s three forensic laboratories are located in Ammendale, Maryland;
Walnut Creek, California; and Atlanta, Georgia. Each laboratory supports a
specified geographic area, as shown in Exhibit 5-1.60




      59
          The ATF’s National Laboratory Center and the Treasury Department’s Scientific
Services Division are co-located in suburban Washington, D.C. The Scientific Services
Division performs primarily regulatory functions related to alcohol and tobacco.
      60
          The ATF’s National Laboratory Center moved from Rockville, Maryland, to a new a
$135 million facility in Ammendale, Maryland, that was dedicated on June 16, 2003.


                                           64 

                      Exhibit 5-1: ATF Laboratory Territories




                                             Forensic Science Laboratory
            Forensic Science Laboratory
                                                  Ammendale, MD
                 Walnut Creek, CA



                                                   Forensic Science Laboratory
                                                           Atlanta, GA




       Source: ATF Office of Laboratory Services

The FBI Laboratory

       The FBI Laboratory, located in Quantico, Virginia, provides forensic
and chemical analysis, technical support, expert witness testimony, and
training for federal, state, and local law enforcement agencies on all types of
cases. Explosive evidence is sent to the Explosives Unit, part of the Forensic
Analysis Section. The Explosives Unit provides direct field support in
explosives matters and investigations, including forensic examinations of
explosives devices and evidence, searches of bomb factories and facilities or
locations in which explosives may be encountered, and outreach with
domestic and foreign manufacturers of explosives.61 The Explosive Unit also
maintains the Explosives Reference Tool (EXPeRT) database to support its
forensic examinations.62




       61
          These examinations involve the identification and intended function of the
components used to construct explosives devices, including detonators, initiators,
explosives, wires, tapes, containers, electronic components, timing mechanisms, and power
sources.
       62
          EXPeRT is primarily a document management system that serves as a central
repository for reports and images associated with terrorist IEDs. EXPeRT, developed by the
FBI Laboratory in 2003, is based on the FBI Explosives Unit's database for reports, devices
and components, and reference material. The TEDAC implemented EXPeRT in 2004.


                                            65 

Terrorist Explosive Device Analytical Center (TEDAC)

     An FBI-led initiative organized in response to requests from the
Department of Defense, TEDAC was created in December 2003 and
expanded in 2004 to coordinate and manage interagency efforts for
gathering and forensically analyzing terrorist IEDs from war zones in Iraq
and Afghanistan. Although TEDAC performs explosives analysis, its main
purpose is to gather and disseminate intelligence on IEDs being used in Iraq
and Afghanistan. TEDAC-produced intelligence and analysis is shared
throughout the law enforcement, intelligence, and military communities.

      TEDAC is located within the FBI Laboratory in Quantico, Virginia. The
FBI provides the TEDAC Director and approximately 30 percent of federal
personnel assigned to the TEDAC laboratory. ATF staffs the TEDAC Deputy
Director position and provides several technical experts. Although TEDAC
has a dedicated staff and forensic equipment, because they are housed
within the FBI Laboratory dedicated FBI Laboratory personnel and
equipment have been used to conduct TEDAC analyses.

Explosives Forensic Analysis

     The forensic capabilities of the FBI and ATF laboratories are similar, as
shown in Exhibit 5-2.

                  Exhibit 5-2: Laboratory Capabilities

                        Capabilities             FBI      ATF
              Latent Fingerprints                 3        3
              Trace Evidence                      3        3
              Document Examination                3        3
              Toolmarks                           3        3
              Nuclear DNA                         3        3
              Mitochondrial DNA                   3
              Metallurgy                          3
              Source: ATF and FBI

      Although both laboratories share similar capabilities and are accredited
by the American Society of Crime Laboratory Directors, ATF and FBI
employees strongly prefer to submit evidence to their own laboratories.
According to our surveys, only 9 percent of FBI managers and 2 percent of
FBI bomb technicians that responded reported that their field divisions had
submitted evidence to ATF laboratories. No ATF managers and only 4
percent of ATF explosives specialists reported that they had submitted
evidence to the FBI’s laboratory.


                                      66 

Explosive Review Board Report

       The 2004 Memorandum stated that a Lab Board should be established
and chaired by the Deputy Attorney General (or his designee) with
participation from the FBI, ATF, and Drug Enforcement Administration
laboratories. The Lab Board was supposed to examine DOJ’s available
laboratory resources and workloads, analyze laboratory demands imposed
by TEDAC, and make recommendations to the Deputy Attorney General on
the most productive allocation of DOJ laboratory resources.

      The 2007 ERG report indicated that a Lab Board had been established
and had: (1) exchanged laboratory organization charts, (2) documented the
need for each forensic discipline, (3) developed a standard special agent-to-
lab employee staffing chart, and (4) investigated the possibility of sharing
FBI research funding with ATF and the Drug Enforcement Administration.
However, DOJ was unable to locate for us a copy of the required Lab Board
report or any other evidence that the Lab Board reviewed laboratory
resources and workloads, as required by the 2004 Attorney General
Memorandum.

      The volume of submissions received by TEDAC far exceeds the
submissions received by the FBI and ATF laboratories, as shown in
Exhibit 5-3.63




      63
           The number of submissions requested is not the same as the number of cases
requested. One case may contain multiple submissions (pieces of evidence), each requiring
different examinations.


                                           67 

                            Exhibit 5-3: Status of Explosives Submissions
                                         at DOJ Laboratories

                 Submissions Status                     2004           2005                2006       2007      2008*
               ATF
                Received                                 564               486             493            453     301
                Completed                                557               510             507            435     313
                Pending                                  195               171             157            175     163
               FBI Explosives Unit
                Received                                 335            183                219            203     259
                Completed                                257            224                932            166     182
                Pending                                 1,249          1,200               493            529     606
               TEDAC
                Received                                1,452          8,434           16,486        15,032      4,161
                Completed                                347           1,457            3,929         2,814      2,723
                Pending                                 1,809          9,761           21,027        34,246     35,773
              Source: ATF, FBI and TEDAC laboratories 
                      * Only partial FY 2008 data available

      In addition, we found that the average number of days for DOJ
laboratories to process explosives submissions varies significantly, as shown
in Exhibit 5-4. On average, the FBI Laboratory took over 2 years and TEDAC
took almost 1 year to process explosives evidence submissions.

   Exhibit 5-4: 	Laboratory Explosives Submission Turnaround 

                 Times for Fiscal Years 2004 through 200864


                                                   FBI          ATF        TEDAC
                                                                       1,370
                          1,400
      Average Number of




                          1,200
                          1,000
                            800
            Days




                            600                                                                           394   408         400
                                                                                     332
                            400   270             246         224
                                                                                              281
                                        141 143         135                                                           168
                                                                               119
                            200                                                                     111

                              0
                                   2004            2005                    2006                   2007           2008
                                                                     Fiscal Years

    Source: FBI Laboratory and ATF Laboratory data



        64
           According to the FBI, FY 2006 average number of days significantly varied from
the prior and following fiscal years due to the closure of the Pentagon bombing submissions.


                                                                    68 

       Given the wide variation in the average number of days required to
conduct analysis by ATF, FBI, and TEDAC laboratories and the large number
of submissions left pending each year, DOJ needs to consider options for
improving explosives submission turnaround times. Additionally, since
TEDAC uses FBI Laboratory equipment and personnel, the large number of
TEDAC submissions may adversely affect the timeliness of the FBI
Laboratory’s analyses. We recommend that DOJ require the Lab Board to
report on all DOJ laboratory capabilities, including an assessment of TEDAC’s
effect on overall DOJ laboratory functions, and recommend options to
improve productivity within all DOJ laboratories.

Conclusion

       The FBI and ATF each have laboratories that perform forensic analyses
of collected evidence, including explosives evidence. Additionally, the FBI
and ATF are part of TEDAC, which operates its own forensic laboratory for
explosives. The 2004 Memorandum required that a Lab Board be
established to examine available DOJ laboratory resources and workloads in
order to provide recommendations for the most productive allocation of DOJ
laboratory resources. However, the Lab Board provided neither a report nor
recommendations to the Deputy Attorney General.

       We determined that in FYs 2004-2008, on average, it took the ATF
laboratories more than 4 months to process explosives-evidence
submissions and the FBI Laboratory took over 2 years and TEDAC almost 1
year. We recommend that DOJ review how to best use available resources
to effectively and efficiently manage the workload of DOJ’s laboratories.

Recommendation

We recommend that DOJ:

 15. Direct the Lab Board to report on laboratory capabilities, including the
     effect of TEDAC and recommendations as to the allocation and use of
     DOJ’s laboratory resources.




                                     69 

                   STATEMENT ON COMPLIANCE

                  WITH LAWS AND REGULATIONS 


       As required by Government Auditing Standards we tested, as
appropriate given our audit scope and objectives, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that
ATF’s and FBI’s management complied with federal laws and regulations,
and DOJ memoranda for which noncompliance, in our judgment, could have
a material effect on the results of our audit. ATF’s and FBI’s management is
responsible for ensuring compliance with federal laws and regulations and
with DOJ memoranda applicable to explosives incidents and related
activities. In planning our audit, we identified the following laws and
regulations and requirements related to the operations of the auditees that
were significant within the context of the audit objectives:

   •	   18 U.S.C. § 846 (b)
   •	   Homeland Security Presidential Directive – 19 entitled Combating
        Terrorist Use of Explosives in the United States

       Our audit included examining, on a test basis, ATF and FBI’s
compliance with the aforementioned laws and regulations that could have a
material effect on ATF’s and FBI’s operations. Our testing included:
interviewing ATF, FBI, Office of the Deputy Attorney General, and State and
Local Bomb Commander personnel; reviewing reports, manuals, curricula,
position papers; surveying personnel in ATF, FBI, and state and local bomb
commanders; and analyzing ATF and FBI explosives case information.
Neither the FBI nor ATF are in compliance with 18 U.S.C. § 846 (b), which
requires all federal agencies to report their arson and explosives incidents to
ATF. We determined that neither ATF nor the FBI explosives personnel are
consistently reporting explosives incidents to BATS. In addition, if DOJ does
not conclusively address the issue of the roles and responsibilities for the FBI
and ATF in investigating terrorists’ use of explosives, competition between
the FBI and ATF in this area will likely continue and impede the progress of
HSPD-19 implementation.




                                      70 

              STATEMENT ON INTERNAL CONTROLS

      As required by Government Auditing Standards we tested as
appropriate, internal controls significant within the context of our audit
objectives. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the FBI’s and ATF’s internal
controls was not made for the purpose of providing assurance on its internal
control structure as a whole. ATF and FBI management is responsible for
the establishment and maintenance of internal controls.

      As noted in the Chapter III of this report, we identified deficiencies in
the FBI’s and ATF’s internal controls that are significant within the context of
the audit objectives and based upon the audit work performed that we
believe adversely affect DOJ’s ability to accurately report the number of
explosives incidents in the United States. 18 U.S.C. § 846 (b) mandates all
federal agencies report information concerning explosives incidents to the
Attorney General. Despite the federal mandate, ATF and FBI do not have a
process in place to ensure that explosives incidents are reported to BATS.
By not reporting explosives incidents to BATS, the FBI and ATF have not
complied with their reporting requirements, marginalized the utility of BATS,
and potentially misaligned limited resources.

       Because we are not expressing an opinion on the FBI and ATF’s
internal control structure as a whole, this statement is intended solely for
the information and use of the auditees. This restriction is not intended to
limit the distribution of this report, which is a matter of public record.




                                      71 

                                                               APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

      The objective of this audit was to assess how the FBI and ATF
coordinate explosives investigations and related activities, including:

   •	 the effectiveness of protocols employed to determine the lead agency
      jurisdiction over explosives incidents;

   •	 the extent of database consolidation and information sharing;

   •	 the level of coordination in post-blast, render-safe and canine training;
      and

   •	 the use of laboratory resources by explosives units.

Scope and Methodology Section

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      The audit generally covers, but is not limited to, DOJ oversight and
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) and Federal
Bureau of Investigation (FBI) programs and activities relating to explosives
investigations in FY 2003 - April 2009. We reviewed explosives case data
from both components’ case management systems from FY 2003 to March
2008, relevant Special Agent training records, explosives-related course
curricula, documented policies or procedures regarding explosives




                                      72 

investigations or interagency interaction, and a prior OIG audit report.83 We
also conducted interviews with the Office of Deputy Attorney General, the
Office of the Chief Information Officer, and more than 100 ATF and FBI
employees, from each component’s headquarters and 8 field divisions. We
performed audit work at eight field sites: Baltimore, Maryland; Kansas City,
Missouri; Los Angeles, California; New York, New York; Phoenix, Arizona;
San Diego, California; Seattle, Washington; and the District of Columbia.84
For our pilot sites we selected a smaller division (Baltimore) and a large
division (New York); for the remaining six sites we judgmentally selected the
field divisions based on the number of explosives incidents reported.

       To assess the FBI’s involvement in explosives investigations, we
interviewed responsible headquarters officials at the Domestic Terrorism
Operations Unit of the Counterterrorism Division, the Violent Crime Section
of the Criminal Investigative Division, the Technical Operations Section, the
Hazardous Devices Operations Center, and the Hazardous Devices School all
from the Critical Incident Response Group, the Explosives Unit of the FBI
Laboratory and the Terrorist Explosive Device Analytical Center, to
determine: (1) their roles and responsibilities; (2) their units’ participation
in explosives investigation - related activities; and (3) interactions with ATF,
if any.

       To assess ATF’s involvement in explosives investigations, we:
interviewed responsible headquarter officials in the Office of the Director, the
Office of Field Operations, the Office of Strategic Intelligence and
Information including the U.S. Bomb Data Center, the Office of Laboratory
Services, the Explosive Enforcement Division, and the National Center for
Explosives Training, including the Explosives Detection Canine Training
Center, to determine: (1) their roles and responsibilities; (2) their units’
participation in explosives investigation related activities; and
(3) interactions with the FBI, if any.

    At each field division selected, we interviewed Special Agents-in-

Charge, Assistant Special-Agents-in-Charge, FBI Special Agent Bomb 


       83
           A DOJ OIG audit found that DOJ had not efficiently and effectively collected and
made available to the federal, state, and local law enforcement community information
relating to arson and the criminal misuse of explosives. Specifically, the similar
responsibilities of the ATF and the FBI in compiling data have resulted in duplication of
effort, duplicate reporting of incidents by state and local agencies, and a lack of uniformity
in the reporting process. See U.S. Department of Justice Office of the Inspector General,
Bureau of Alcohol, Tobacco, Firearms and Explosives and Federal Bureau of Investigation’s
Arson and Explosives Intelligence Databases, Report Number 05-01 (October 2004).
       84
         During our audit, we also attended a BATS new-user training seminar in Boston
Massachusetts, and reviewed BATS resources available at www.atf.gov.


                                              73 

Technicians, FBI Domestic Terrorism-Joint Terrorism Task Force Supervisory
Special Agents, ATF Certified Explosive Specialists and Explosive
Enforcement Officers (where available), and the Arson and Supervisory
Special Agents for Arson and Explosive Groups and Field Intelligence Groups
in each Field Division selected.

      As part of our methodology, we sent written surveys to all ATF and FBI
Field Division Special Agents-in-Charge, and every FBI Special Agent Bomb
Technician, ATF Certified Explosive Specialist, and ATF Explosives
Enforcement Officer, as well as to the commander of each accredited bomb
squad in the country. We developed our survey and received input from our
Applied Audit Techniques group, ATF and FBI Management, and select
members of the bomb squad community. Additionally we pilot tested our
survey at the Washington Field Office for the FBI and ATF.

       We identified the survey recipients based on listings provided by ATF
and FBI management. ATF provided us a listing of names and addresses for
the Certified Explosive Specialists, Explosive Enforcement Officers, and ATF
management personnel and the FBI provided us a listing of names, address
for the Special Agent Bomb Technicians, FBI management, and the state and
local bomb commander personnel. Our response rate was:

                           Survey Response Rate
                                     Number     Number of         Response
              Surveys               Surveyed Respondents            Rate
ATF Management                                 25            18         72%
FBI Management                                 69            47         68%
FBI Special Agent Bomb Technicians            194           121         62%
ATF Special Agent Bomb Technicians,
Certified Explosives Specialists and
Explosives Enforcement Officers               285           180         63%
State and Local Bomb Squad
Commanders                                    470           239         51%
Source: OIG




                                       74 

                                            APPENDIX II
                ACRONYMS

AEXIS    Arson and Explosives Incident System
ATF      Bureau of Alcohol, Tobacco, Firearms and Explosives
BATS     Bomb Arson Tracking System
CES      Certified Explosives Specialist
DHS      U.S. Department of Homeland Security
DOJ      U.S. Department of Justice
EEO      Explosives Enforcement Officer
ERG      Explosives Review Group
EXPeRT   Explosives Reference Tool
FBI      Federal Bureau of Investigation
HDS      Hazardous Devices School
HSPD     Homeland Security Presidential Directive
IBDC     International Bomb Data Center Sub-Special Interest
         Group
IED      Improvised Explosive Device
JTTF     Joint Terrorism Task Force
MIOG     Manual of Investigations Operations Guidelines
NBSCAB   National Bomb Squad Commanders Advisory Board
NCETR    National Center for Explosives Training and Research
NIJ      National Institute of Justice
NORT     National Odor Recognition Training and Testing
OCIO     Office of the Chief Information Officer
OIG      Office of the Inspector General
SABT     Special Agent Bomb Technician
SWGDOG   Scientific Working Group on Dog and Orthogonal
         detector Guidelines
TEDAC    Terrorist Explosive Device Analytical Center
U.S.C.   United States Code
USBDC    United States Bomb Data Center




                      75 

                                                                    APPENDIX III

                        EXPLOSIVES AUTHORITIES

      The FBI traditionally has investigated several types of federal crimes
that may be committed with explosives, such as bank robbery and terrorism.
However, ATF has primary jurisdiction under specific statutes to regulate the
alcohol, tobacco, firearms and explosives industries, and enforce associated
criminal violations. Recognizing their shared jurisdiction, 18 U.S.C. § 846
grants both ATF and the FBI concurrent authority to conduct investigations
with respect to an extensive list of explosives incidents at
18 U.S.C. § 844(d)-(i).

Federal Bureau of Investigation

      Congress gave the Attorney General broad authority to enforce the
federal criminal laws and to appoint officials to detect and prosecute federal
crimes under 28 U.S.C. § 533. The role and general functions of the FBI, as
directed by the Attorney General, are set forth at 28 C.F.R. § 0.85. The
Attorney General delegated to the FBI the conduct of much of the federal
law enforcement mandate, except for those areas Congress specifically
granted primary jurisdiction to different agencies.85 Specifically, the FBI had
enforced several federal criminal statutes that could be committed with
explosives such as bank robbery, civil rights violations, and “injurious
devices” on federal lands.86

      The FBI obtained the formal responsibility for investigating terrorist
groups in the United States and acts of terrorism directed against Americans
through a series of Acts and Presidential Directives. In 1982, National
Security Decision Directive-30 gave the FBI the responsibility of
investigating terrorism in the United States. Several other statutes
expanded the FBI's jurisdiction to include investigations of acts of terrorism
directed against Americans overseas and to expand counterterrorism




      85
         For example, 18 U.S.C. § 3056 (counterfeiting crimes enforced by Secret Service)
and 26 U.S.C. §§ 7801-7803 (internal revenue laws enforced by Internal Revenue Service).

      86
          See 18 U.S.C. § 2113(d) (bank robbery, use of “dangerous device”); 18 U.S.C.
§ 242 (civil rights deprivation, use of explosives); 18 U.S.C. § 245(b)(5) (hate crimes,
explosives enhancement); 18 U.S.C. § 247(d)(2)-(3) (damage to religious property,
explosive enhancement); and 18 U.S.C. § 1864 (use of hazardous devices on federal lands).


                                           76 

operations.87 Additional Presidential Directives reiterating and expanding
FBI’s terrorism responsibility includes but is not limited to:

       •	 Presidential Decision Directive-39, entitled U.S. Policy on
          Counterterrorism, defined the roles of several U.S. counterterrorism
          agencies, including the FBI;

       •	 Presidential Decision Directive-62 assigned lead agency
          responsibility to the FBI for countering overseas terrorism against
          American interests and for domestic terrorism crisis management,
          intelligence and hostage rescue;

       •	 Homeland Security Presidential Directive-5 reaffirmed that the
          Attorney General has lead responsibility for criminal investigations
          of terrorist acts or threats as well as related intelligence collection
          activities within the United States. Additionally, it provided the FBI
          with the lead role for coordinating the activities of the other
          members of the law enforcement community to detect, prevent,
          preempt and disrupt terrorist attacks against the United States; and

       •	 National Security Presidential Directive-46 / Homeland Security
          Presidential Directive-15 provides that the Attorney General, acting
          through the FBI and in cooperation with other federal departments
          and agencies engaged in activities to protect our national security,
          shall coordinate the activities of the law enforcement activities to
          detect, prevent, preempt, and disrupt terrorist attacks against the
          United States. In addition this directive rescinds Presidential
          Decision Directives 39 and 62.

Bureau of Alcohol, Tobacco, Firearms and Explosives

      ATF has jurisdiction over several areas of federal law relative to
explosives. Specifically, ATF is authorized to monitor and regulate




       87
          See 18 U.S.C. §§ 1119 (murder and terrorist acts against U.S. Nationals
overseas); the Antiterrorism and Effective Death Penalty Act of 1996, 18 U.S.C. § 2339A,
(providing material support to terrorists abroad) and 28 U.S.C. § 538, specifically directs
the FBI to investigate crimes and actions that threaten aircraft security in or entering the
United States.



                                              77 

possession, storage, and transport of commercial explosives.88 ATF’s
explosives jurisdiction also includes provisions of the National Firearms Act
and Federal Firearms Act, which incorporate “destructive devices” as types
of firearms subject to regulation.89 Because accelerants used in arsons often
cause incendiary explosions, ATF is also responsible for investigating
commercial arson nationwide.90

       The Homeland Security Act of 2002 and the associated Safe Explosives
Act of 2002 transferred most enforcement functions of ATF to DOJ.91 The Act
at 28 U.S.C. § 599A, directs that, subject to the direction of the Attorney
General, the ATF is responsible for investigating criminal and regulatory
violations of the federal firearms, explosives, arson, alcohol, and tobacco
smuggling laws and any other function related to the investigation of violent
crime or domestic terrorism that is delegated to ATF by the Attorney
General. The Attorney General’s discretion under 28 U.S.C. § 599A includes
the right to authorize the performance by any officer, employee, or agency
of DOJ of any function of ATF. However, the law also requires that ATF be
maintained as a distinct entity within DOJ.




       88
          The Omnibus Crime Control and Safe Street Act of 1968, 18 U.S.C. §§ 921 et seq.
as amended in the Gun Control Act of 1968, 26 U.S.C. §§ 5841 et seq., prohibited
unlicensed trade in firearms and explosives. The Organized Crime Act of 1970, at 18 U.S.C.
§§ 842 and 844, covers unlawful acts and penalties. 18 U.S.C. § 843 regulates the
explosives industry. 18 U.S.C. § 846(b) authorizes the establishment of a national
repository of information on incidents involving arson and suspected criminal misuse of
explosives. The National Firearms Act, Title 26 U.S.C. Chapter 53, includes criminal
provisions for the unlawful manufacture, transfer, and possession of destructive devices,
including explosives or incendiary bombs, grenades, and mines.
       89
          26 U.S.C. §§ 5801, et seq., Machine Guns, Destructive Devices, and Certain Other
Firearms (reenacting the National Firearms Act of 1934 that required "firearms" sellers to
register with the Treasury Department, pay a special tax on firearms sales, and keep written
order forms for sales); 18 U.S.C. §§ 921, et seq. (reincorporating the Federal Firearms Act
of 1938 that required firearms’ manufacturers and dealers to obtain federal licenses and
regulated interstate shipments).
       90
            Anti-Arson Act of 1982, Pub. L. No. 97-298, § 2(c), amended 18 U.S.C. § 844, by
specifically including arson as a federal crime, based in part on ATF determinations that
accelerants met the definition of explosives.
       91
          Pub. L. 107-296, the Safe Explosives Act amended 18 U.S.C. § 841 to require
explosives license applicants to submit identifying information of all employees who will
handle or transport explosives, expand the categories of prohibited persons and required
manufacturers and importers to furnish samples of their explosives to ATF.



                                            78 

Federal Mandate to Share Information

       In addition to specific statutory authorization to enforce particular
laws, these components also have a statutory mandate outlined in the
Homeland Security Act of 2002 to work together to share information. The
Act defines Homeland Security Information as any information possessed by
a federal, state, or local agency that (1) relates to the threat of terrorist
activity; (2) relates to the ability to prevent, interdict or disrupt terrorist
activity; (3) would improve the identification or investigation of a suspected
terrorist or terrorist organization; or (4) would improve the response to a
terrorist act.92

       Although agencies should share information, some components are
directly responsible for centralizing information on certain topics. In 1988,
Congress passed the Uniform Federal Crime Reporting Act of 1988 that
required law enforcement agencies to automatically report to the FBI
monthly crime statistics under prescribed standardized specifications. The
law also provides that the Attorney General shall acquire, collect, classify,
and preserve national data on federal criminal offenses as part of the
Uniform Crime Reports authorized under 28 U.S.C. § 534.93

      However, on September 30, 1996, the Omnibus Consolidated
Appropriations Act of 1997 was enacted. The Act amended the federal
explosives laws in Title 18 U.S.C. § 846(b) and authorized the Secretary of
the Treasury to establish a national repository of information on incidents
involving arson and the suspected criminal misuse of explosives. This
section also required all federal agencies having information concerning such
incidents to report the information to the Secretary. This included
information regarding arson and explosives incidents investigated by any
federal agency, as well as state or local agencies and criminal dispositions, if
any. The Secretary gave ATF the responsibility to establish the repository.




       92
            6 U.S.C. § 482(f)(1).
       93
          The Act further specifies that the Attorney General may designate the Federal
Bureau of Investigation as the lead agency for purposes of performing the functions
authorized by this section and requires that all departments and agencies within the federal
government (including the Department of Defense) that routinely investigate complaints of
criminal activity shall report details about crime within their respective jurisdiction to the
Attorney General in a uniform manner and on a form prescribed by the Attorney General.


                                             79 

                                                                             APPENDIX IV

2004 ATTORNEY GENERAL MEMORANDUM


                      ®flirr of til' "i\ItOnt'U Qi;cltcrll l
                              ,Il111s!,illgltlil , Jil.<!I. 205 JO

                                  August 11, 2004




MEMORANDUM FOR THE DEPUTY ATTORNEY GENERAL
             DIRECrOR, FEDERAL BUREAU OF INVESTIGATION
             DIRECTOR, BUREAU OF ALCOHOL, TOBACCO, FIREARMS
               AND EXPLOSIVES
             ADMINISTRATOR, DRUG ENFORCEMENT ADMINISTRATION

                      THE ATTORNEY GEry~~<-<-.ft.(A. "'--<'--"-.£'>1--">

                      Coordination ofExplosivcs Investigations and Related Matters

      To ensure effective coordination of explosives investigations by law (!nforCemcnl
components of the Department of Justice (the Department), I hereby direct as follows:

Jurisdiction

    I. The Bureau of Alcohol , Tobacco, Fi!camlS and Explosives (ATF) shall control the
       investigation orall explosives incidents, except as follows:

           a. In cases where a Join! Terrorism Task Force (JTrF) detennines that the
              explosives incident is related to terrorism, then thc JTIF shall conlrol
              the investigation; and
           b. In cases where the Federal Bureau oflnvcstigation (FBI) traditionally
              has exercised jurisdiction (including but not limited to pam:. robberies,
              civil rights violations, and organized crime), then the FBI shall control
              the investigation.

   2. The Deputy Attorney General shall resolve all issues relating \0 jurisdiction over
      explosives investigations.

Inronnation Sharing

   3. The Department 's Chierlnfonnation Officer (CIO) shall consolidate all of the
      Department's arson and cxplosives incident databases including, but not limited     \0,
      the FBI 's Automated Incident Reporting System and ATF's Bomb and Arson
      Tracking System. into a single database.



                                            80 

Memorandum for the DAG, FBI. ATF, and DEA                                            Page 2
Subject: Coordination o f Explosives Investigations and Related Matters


   4. All consolidated arson and explosives incident databases shall be maintained by ATF
      and shall be accessible to all Department law enforcement components. No
      Department component may maintain any database that contains arson or ex plosives
      incident infonnation that would otherwise be maintained in the con!';olidated database.

   5. Within 90 days, the CIO shall examine and report to the Deputy Attorney General on
      the feasibility of consolidating all of the Department's remaining arson and
      explosives databases.

   6. The Deputy Attorney General shall resolve all issues relating to the consolidation of
      arson and exp losives databases.

TEDAC
   7. The 00 shall coordinate the development of a database for the Terrorist Ex plosives
      Device Analytical Center (TEDAC).

   8. A senior FBI representative shall serve as Director ofTEDAC; a senior ATF
      representative shall serve as a Deputy Director ofTEDAC.

Laboratories

   9. There shall be establ ished a Laboratories Review Board (Lab Board). The Deputy
      Attorney General (or his designee) shall chair the Lab Board; representatives of ATF,
      the Drug Enforcement Administration, and the FBI shall serve as members of the Lab
      Board.

   10. The Lab Board shall examine the Department's available resources and workloads
       and make recommendations to the Deputy Anomey General. Such recommendations
       shall include an analysis of laboratory demands imposed by TEDAC.

   11 . The Deputy Attorney General (or his designee) shall, as appropriate, direct the
        allocation and use of the Department's laboratory resources.

Training

   12. All budget, curricula, teaching and scheduling functions relating to post-blast
       explosives training within the Department shall be consolidated under ATF.

   13. All agents, officers, technicians, and other personnel who engage in or are related to
       post-blast explosives training shall remain with their respective agencies and continue
       to provide training as they did prior 10 consolidation .

  . 14. The Deputy Attorney General shall resolve all issues relating to the consolidation of
        post-blast explosives training.




                                          81 

Memorandum for the DAG, FBI, ATF, and DEA                                           Page 3
Subject: Coordination of Ex plosives In vestigat ions and Related Matters


    15. All explosives trainin g provided by Department components shall be made avai labl e,
           when appropriate, to all federal law enforcement agencies.

    1G. There shall be established an Explosives Training Review Board (Exp losives Board).
        The Deputy Attorney General (or his design ee) shall chair the Explosives Board;
        representatives of ATF and the FBI shall serve as members of the Exp losives Board.

    17. Within 90 days, th e Explosives Board shall examine and report to the Deputy
       Attorney General on the feasibility of consolidating the Department 's remaining
       explosives training programs and facilities.

Special Events

    18. The recommendations of the Explosives Review Group (ERG) regarding Special
        Events, as set forth in the Memorandum for the Deputy Attorney General of May 3,
        2004, Attachment 2, shall be adopted and implemented.     .

    19. No later than December I , 2004, the ERG Chair shall report to the Deputy Attorney
        General in writing on the implementation of the ERG's recommendations regarding
       Special Events.

Canin es

   20. As soon as practicable, all Depanment components that use explosives detection
       canines shall use on ly canines certified by ATF.




                                            82 

                                                                                   APPENDIX V

2007 EXPLOSIVES REVIEW GROUP MEMORANDUM
                                                   U.:S. Uepartment of Justice

                                                  Bureau of Alcohol, Tobacco,
                                                  Firearms andfuplosives

                                                  Assistant Director

                              JAIl 12 7fJOl       Washington. DC 20226


                                                                                700000 :MRB
                                                                                3200




  MEMORANDUM TO: DEPUTY ATTORNEY GENERAL

                  OOU: Acting Director, Bureau of Alcohol,       TObac~
                           Fireanns and Explosives

                 FROM: Chair, Explosives Review Group

              SUBJECT: Improving Coordination of Explosives Investigations, and
                       Related Matters


  In August 2004, Attorney General Ashcroft issued a memorandum designed to·foster. the
 effective coordfuation of explosives investiKations between the Bureau of Alcohol. .
 TobaCco; ~li-e8IUIS and Explosives (ATF) and the Federal Bureau of Investigation (FBI).
 AddiiiODaIly, the memorandum provided directiOn on the optimal use ofDOJ's
 expioslves resources. Ai:nong the additional topics Covered by the Attorney General's
 directive were information sharing, the Terrorist Explosive nevice Analytical Center
 (TEbAC), laboratories, explosives ·training, special events, and explosives-detection
 caDi.nes.

  On November 14, 2006; you directed ATF and the FBI to "conduct a comprehensive
. evaluation of current efforts to implement the Attorney General's (AG's) directive, assess
  the need to establish or clarify operational protocol in order to give effect to the AG's
 directive, arid identifY specific ways to improve coordination oftbe Department's
 investigations of.and preparation for explosives-related iricideilts."

 On November 30, 2006, ATF, FBI, and various representatives from other DO]
 components met to"dlscuss the -directive you issued. Subgroups were fanned to discuss
 the issues, and each group reported toFBI Executive Assistant Direcior Michael Mason
 and me. EAD Mason and I discussed the matters after the subgroups met. This
 memorandum provides, for each topic in the Attorney General 's August 2004 directive, a
 sllIllIIDiIY of the subgroup discussion, a list of unresolved issues, and recommended
'actions. .



                                              83 

                                                    2



 Ju risdiction

 In the area of investigative jurisdiction, the Attorney General's memorandum directed
 that:

       •     A TF shall control the investigation of all explosives inci,dents. ex~t:

             -When a Joint Tenorism Task Force (ITIF) determines that the explosives
             incident is related to terrorism, then the JTI'F shall cootrol the investigation.

             -In cases where the FBI bas traditionally exercised jurisdiction (e.g. bank
             robberies, civil rights violations, and organized crime), the FBI shall control the
             investigation"

       •    The Deputy Attorney General shall resolve all issues relating to jurisdiction over
            explosives investigations.

Neither the FBI nor ATF are aware of jurisdictional issues relating to intematioca1·
tdrorist incidents. There haye been periodic disagreements between ATF and the FBI
re~g incidents that may have "domestic terrorist" ties. Because it is difficult to
establish motive when an incident occurs, disagreements continue to take place.
However, Special Agents in Charge at ATF and FBI have worked out differences in each
incident

The subgroup will continue to       meet qu.iuterIy to ensure that each agency continues to
address issues as they arise. AlsO, the ATF Assistant Director ofField Opemtions and, .
several FBI Executive Assistant Directors and Assistant Directors meet on a monthly
basis to discuss ongoing Issues. .

R tcommendedAction: None. There are no issues requiring resolution by the ODAG.

Information Sharing

On information sharing, the Attorney General 's memorandum directed that:

   •       The Department's Chief Information Officer (CIO) would consolidate all of the
           Department's arson and explosives incident databases     mto
                                                                  a single database. 1b.is
           co~ljdation would include ,the FBI's Automated Incident Reporting System and
           ATF's Bomb and Arson Tracking System.

  •        AU consolidated arson and explosives incident databases are to be maintained by
           ATF and shall be accessible to all DO] law enforcement components. No DO]
           component may maintain any database that contains arson or explosives incident
           information that would otherwise be maintained in the consolidated database.




                                                        84 

                                               3


      •   Within 90 days, the CIa was to examine and report to the Deputy Attorney
          General on the feasibility of consolidating all ofDOJ's remaining arson and
          explosives databases.

      •   The Deputy Attorney General is to resolve all issues relating to the consolidation
          of arson and explosives databases.

  Following issuance of the Attorney General's memorandum, the Department's CIO
  undertook an assessment of ATF's and FBI's incident datab~es and, in a report issued in
  November 2004, recommended that the FBl's.Automated Incident,~eporting System
  (AIRS) and ATF's Bomb and Arson Tracking System (BATS) be consolidated, with
  AIRS data to be integrated into BATS. Accordingly, BATS is DO},s Department-wide
  arSon and explosives incident database, and it will be accessible to all DOr law
  epforcement components, as well as to State, local, and tribal law enforcement agencies.

 ATF Subsequently combined the data and fonned the United States Bomb Data Center,
 which exchanges information with 19 other bomb data centers around the world. Nine
 additional countries are finaljzing an agreement to participate in the information
 exchange. . All of this is done through the Intematiollll1 Bomb Data Center Working
 Group. ATF and the FBI are partners in this Working Group, and all Working.Group
 members openly exchange information through a common system. The United·States
 Bomb D~ta Center data is available to Federal, State, and local agencies.

 There is agree~ent that 001 should maintain a single source for bomb data. ATF
 believes that the Attorney General's,August 2004 directive made it clear that ATF.wouJd
 collect and manage this data. The FBI believes that the Attorney General's directive
 should be clarified and that the fflls~ould be the _ger of the bomb ·data because of
.otlierd:ss1ies reI$gt6 their mission. ·            ". "..." '                   ... ,."

  The FBI has expressed concern that because the term "Bomb Data Center" was coined' by
. their agency ur"1972, their partners are confused as 10 whom they should send bomb data ·
  inforinatiqn'." The FBI also stai.ed that the term "arson ot explosives incident
  information," as used in the Attorney GenOral's 2004 directive, should be clarified.

Each ~gency has issued a white paper outlining why each should !Il8.1l.8.ge bomb data
inforniation as the single 001 source. Both are attached for your review.


Recommended Action: 001 should review the position papers of each agency and hold
a meeting With both agencies to discuss and resolve the outstanding issues.

Ter rorist Explosives Device Analytica l Center (TEDAC)

At your direction, the Explosives Review Group did not address any issues relating to
TEDAC



                                               85 

                                                   4


  Laborato ries

  With regard to laboratories, the Attorney General 's memorandum directed that:

       •      There shall be established a Laboratories Review Board chaired by the Deputy"
              Attorney General (or his designee) with participation by representatives from
              ATF, DEA, and the FBI.

       •     The Laboratories Review Board is to examine the Department's available
             resources and workloads and make recommendations to the Deputy Attorney
             General. Such recommendations are to include an analysis oflaboratory demands
             imposed by the Terrorist Explosives Device Analytical Center.

       •     The Deputy Attorney General (or his designee) shall, as appropriate, direct the
             allocation and use of the DePartment's laboratory resources.

 Following issuance of the Attorney General's memorandum, in September 2004 the 001
 Laboratories Review Board held its first meeting, chaired by Science Advisor Vahid
 Majidi. The DirectOrs ofthe ATF, FBI. and DEA laboratories attended, and the
 folloWing were ideDtifi¢ as ac~~1D items:

                1.   Exchange laboratory organization charts.
                2.   Docwnent the need for each forensic discipline in each laboratory.
                3.   DeveJop a standard special agent-to-Iab employee-staffing chart.
                4.   Investigate possibilities for sharing FBI research funding with ATF and
                     DEA

The Laboratories Review Board subsequently form~ the "Council of Federal Crime
Laboratory Directors" which consists ofdirectors of all 001 labs and 12 other
laboratories as founding entitie~. They meet three tiDies per year to discuss ongoing
issues.

Recommended ActWn: None. There are no pending issues that require resolution by the
ODAG.

Training
The training portion of the Attorney General 's memorandwn directed that:

   •       AU budgets, curricula. reaching, and scheduling functions relating to post-blast
           explosives training with the Department will be consolidated under ATF.

   •       All agents, officers, technicians, and other personnel who engage in or are related
           to post-blast explosives training shall remain with their respective agencies and
           continue to provide training as they did prior to consolidation.




                                                   86 

                                                     5


         • The Deputy Attorney General shall resolve all issues relating to the consolidation
           afpost-blast explosives training.

         •     All explosives training provided by DO] components shall be made available,
               when appropriate, to all Federal law enforcement agencies.

         • There shall be established an Explosives Training Review Board (Explosives
           Board). The Deputy Attorney General (or his designee) shall chair the Explosives
           Board, and representatives of ATF and the FBI shall serve as members of the
           Explosives Board.

      •       Within 90 days, the Explosives Board shall examine and report to the Deputy
              Attorney General on the feasibility of consolidating the Department's remaining
              explosives training programs and facilities.

 The subgroup met and agreed that

     • . Both agencies have valuable post-blast and explosives related training.

     •       Both agencies will meet to discUss ongoing issues. They suggest forming an
             "Explosives Training Working Group" instead of the "Explosives Training
             Review Board." This group will meet quarterly and consider ways to exchange
             course schedules to reduce redundancy.

     •       Both agencies will strive to ensure that positions remain open in their training
             courses for other agency representatives.                       ..


 There is, however, disagreement about the meaning of the following language in the
 Attorney·General's directive:

             "All budgets, curricula, teaching, and scheduling functions relating to post-blast
             explosives training with the Department will be consolidated under ATF. All
             agentS, officers, technicians, and other personnel who engage in or are related to
             post-blast explosives training shall remain with their respective agencies and
             continue to provide training as they did prior to consolidation."

ATF believes that the languag~ in paragraph twe:lve is clear. The FBI believes it is
ambiguous and needs clarification.

The group believes the issue is ccimplex and requires discussion,. negotiation: and
collaboration. They also believe paragraphs twelve and thirteen conflict. One indicates
all of the efforts should be consolidated under ATF, the other indicates they should stay
with their respective agencies. The group believes that the language of the Attorney
General's directive may need to be specified the specific items that should be



                                                   87 

                                                 6

   consolidated. If the language is clarified, the group believes a resolution may be possible
   with respect to consolidating curricula, training. and scbeduling functions.

  Recommended Action: Each agency prepared a white paper for your review. After
  reviewing the white papers, the ODAG should determine whether the language of the
  Attorney General's directive should be clarified.

  Specia l Eve nts

  Regarding special events, the Attorney General's memorandum stated that:

       • The recommendations of the Explosives Review Group regarding Special Events,
         as set forth in the memorandum for the Deputy Attorney General of May 3, 2004,
         Attachment 2, shall be adopted and implemented.

  . • No later than December 1,2004, the Explosives Review Group Chair shall report
      to the Deputy Attorney Gei::teral in writing on the implementation of the Group's
      recommendations regarding special events.

 The Attorney General's memorandum directs ATF and the FBI to exchange copies of.
 their special events policies and directs the FBI to add A1F email addresses to its special
 events databases. Additionally, it states that A1F will direct its field offices to coordinate
 requests from State and loca1 law enforcement agencies for special events support with
 the FBI prior to committing resources .. These tasks have been accomplisbed.

 The subgroup met ~d agreed to contiDue this practice to ensure agency resources are
 used effectively. Although the agencies have had some differences about special events
 protocols at some venues, all such differences were resolved by the Special Agents in
 Charge.

Recommend Action: None. Because the issues have been resolved locally, and the
subgroup has agreed to meet periodically to address any outstanding issues, there is no
need for the ODAG to resolve any issues.

Canines

Regarding canines, the Attorney Generafs memorandum directed that:

   •    As soon as practicable, ali Department components iliat use explosives-<ietection
        canines are to use only canines certified by ATF.

In response to this portion of the directive, ATF surveyed other DOJ components to
determine their explosive-detection canine needs and has provided explosives detection
canines and canine training to the FBI' s Uniform Division and to the U.S. Marshals
Service. Additionally, ATF's canine program bas established protocols, policies, and



                                               88 

                                              7


 certifications, including the Odor Recognition Proficiency Standard. commonly known as
 the National Odor Recognition Test(NOR1).

The subgroup met but was unable to agree on all aspects of the use of explosives­
detection canines. ATF's position is that the language mentioned above is advantageous
to 001 and continues to provide this training when it is requested. The FBI believes the
language is unclear and creates a liability. for them because ATF-certified canines are not
available to the FBI in every city. The FBI has acquired and deployed explosives­
detection canines from outside sources. The FBI prefers to use dogs trained under the
"Scientific Working Group on Dog and Orthogonal Detector G uidelines," a government­
sponsored working group to enhance the perfonnance of detector canines of all
disciplines.

Recommended Action: Each agency has prepared a ''white paper" outlining their
position for 001 review.

                                      Conclusion

 The Attorney General's August 2004 directive served to clarify some issues related to
explosives cases. The directive opened the door for ongoing dialogue between ~e FBI
and ATF and ieSulted in substantial progress and improved communication between the
two agencies. However, as noted above, some issues remain unresolved. This
memorandum and the accompanying position papers serve to outline those unresolved
issues so that the Department can make a decision on them. The A TF and FBI agree that
it is ~ the Department's and their agencies' best interests to bring resolution to these
issues.




                                     Michael R. Boucbard




                                            89 

                                                                                  APPENDIX VI

2008 ATF-FBI MEMORANDUM OF UNDERSTANDING

                                               u.s.   Department of Jusfice

                                               Office of the Deputy Attorney Genenll


                                                                               July 8, 2008




 MEMORANDUM TO:             Attorney General
                            Deputy Attorney General

              FROM :        Director, Federal Bureau of Investi gation
                            Acting Director, Bureau of Alcohol, Tobacco,
                            Fireanns and Explosives

          SUBJECT;          Memorandum of Understanding on ATF/FBI Protocols for
                            Response to Explosives-related Incidents


    On December 20,2007, the President of the United States approved the National
    Strillegy, submitted by the Attorney General, to combat tClTorist usc of explosives
    in the United Stales. In support of the H:quirements of the National Strategy to
    clarify roles and responsi biliti es and 10 faei litate a more productive partnership in
    the best interest of the American people, with the guidance and advice of the
    Attorney General and the Deputy Attorney General, key management
    representatives from the Federal Bureau of Investigation and the Bureau of
    Alcohol , Tobacco, Firearms and Explosives developed the following protocols
    regarding the Department's response to ex plosives related incidents.

     Recognizing that terrorism is the Department of Justice's lOp national priority
     and that the majority of explosives incidents are criminal in nature, these
     protocols arc the product of a larger coordination process undertaken by the
    agencies to align the capabilities of the Department of Justice, including
    explosives databases, explosive detection canine training, and post-blast training.
    As part of that process, the Deputy Directors of each respective agency have
    engaged in detailed discussions to optimize the explosives response capability of
    the Department of Justice. The attached protocols are the product of this
    relationship and will be implemented forthwit h. While the protocols specifically
    address explosives and bombing incidents, they also reflect our joint belief that
    partnership is better than competition and that mutual respect and teamwork
    should govern our approach to all incidents. The purpose of the protocols is (0
    memorialize and implement our joint determination to resolve any operational
    concerns at the outsel of an incident. Our agencies will continue (0 move forward
    as a team in the best interest of the American people. All agency personnel will
    be directed to adhere to these protocols and to respect their underlying intent in all
    matters in which both agencies are involved. A copy of the protocols is attached.




                                            90 

                                                   Michael J. Sullivan
Direclor                                           Acting Director
Federal Bureau of Investigation                    Bureau of Alcohol, Tobacco,
                                                   Firearms and Explosives

                                                   D",     ,,;dof
                                                            ,4

              CC:      All Executive Staff and Special Agents in Charge,
                       Fcderal Bureau of Investigation
                       All Executive Staff and Special Agents in Charge,
                       Bureau of Alcohol, Tobacco, Firearms and Explosives




                                        2




                                            91 

 MEMORANDUM OF UNDERSTANDING UETWEEN TilE FEDERAL BUREAU
 OF INVESTIGATION AND THE BUR.:AU OF ALCOHO~ TOBACCO,
 fo'IREARfl.1S AND EXPLOSlVrs

 PURPOSE: This Memorandum of Understandi ng (MOU) delineates the roles and
 responsibilities of the Federal Bureau of Investigation (FBI) and the Bureau of Alcohol,
 Tobacco, Firearms and Explosives (ATF) when responding to bombings and cltplosives­
 related incidents.

 AUTnORlTlES: Authority to enter inlo this agreement can be found at 28 U.S.C. §
 533, 42 U.S.C. § 3771, 28 U.S.C. § 599, 28 C. F.R. § 0.85, 28 C.F.R. §0. 130 - 0.131, aod
 applicable United States Attorney General Guidelines. All applicable Attorney General
 Guidelines for investigations will be strictly adhered 10 by both parties to this agreement.

NATIONAL PRIORITIES: In recognition of the increased capabilities ofaccredited
public safety bomb squads positioned throughout the United States whose technicians are
trained and certified to national standards, and the enhanced capabilities of investigative
personnel assigned to those agencies, U. S. policy prioritizes the jurisdiction of federal
agencies in bombing events as follows:

     I)   Terrorism
     2)   Violem crime
     3)   Other Federal crimes
     4)   Assistance to State and local authorities, upon request

Timely communication and finnly-established cooperative relationships are essenrialto
protect public safety. The need also exists to develop joint protocols to ensure the optimal
use of resources.

This memorandum will address the following areas of con duet:

I)        INITIAL RESPONSE

     A. First Responders
     B. Joint Immediate Notification
     C. Crime Seene Processing
     D. LaboratorylForcnsic Capabilities

2)        INCIDENT MANAGEMENT
     A. Jurisdiction
     B. lnvestigalion/Leads
     C. Resources
     D. Special Events Management

3)        PROSECUTION




                                              3




                                              92 

I) INITIAL RESPONSE

  A. First Responders

     Coordination of a joint response by ATF and FBI personnel to an explosive.
     related or bombing incident will be the responsibility of the respective Special
     Agents in Charge (SAC). In all cases, that joint response shall be closely
     coordinated based on prior established protocols. It is recognized that
     stateilocaVtribal or territorial law enforcement officers will likely be the first
     responders to bombing or explosives incidents. The Federal response should
     focus on the nexus to the federal priorities of terrorism, violent crime, and other
     federal crimes. If the event has a federal nexus, the agency with responsibility for
     the underlying felony will assume investigative lead, as coordinated by the SACs.
     In those cases where there is a terrorism nexus, the Joint Terrorism Task Forces
     (JTTFs), comprised of ATF and FBI personnel, as well as State and local
     authorities, will be responsible for the overall investigation. Whether the lead
     falls to the ATF or the FBI, the other agency will provide whatever assistance it
     can in support oftbe lead agency. (1973 MOU; AG Memo, 8/ 11 /2004).


  B. Joint Immediate Notification

     Each ATF and FBI SAC will fonnally identify executive and investigative points
     of contact (POC) at the field office and resident agency level to facilitate the
     exchange of all information relative to explosives incidents immediately with the
     other agency and to appropriately disseminate the infonnation within their
     respective agencies.


  C. Crime Scene Processing

     As part of the joint response protocol to an incident, the ATF and FBI SACs will
     have in place protocols for the initial joint management of the crime scene. Close
     coordination of the management of the scene will be required. The agency with
     jurisdiction for the primary violation will be designated as the lead agency, and
     will be responsible for overall processing of the crime scene. In furtherance of
     this objective, the FBI and ATF are in the process of developing a common
     training curriculum for processing post-blast crime scenes. As these procedures
     are developed and implemented, they will further reinforce the intent and
     capability to allow Department assets to work in a collaborative and consistent
     manner.

 D. Laboratory/Forensic Capabilities



                                          4




                                         93 

      Any and all evidence collected will be sent to the laboratory of the agency having
     jurisdiction over th e investigation. This does not, however, preclude the SAC
      from either agency from sending evidence to the other agency's laboratory to
      perform examinations unavailable at their own laboratory andlor reaching
     agreement on a division of the crime scene evidence in a manner that is effective
     and efficient. For example, the FBI could utilize the ATF Laboratory for
      terrorism related arson cases and the ATF could utilize the FBI Laboratory for
      metallurgical examinations. In such cases, the SACs will appoint an executive
     poe for coordination between laboratories. Absent any other agreements, and in
      the spirit of collaboration, the Special Agents in Charge (SAC) will be
     empowered to consult and reach a consensus as to where the evidcnce will be
     sent. Criteria fo r consideration arc: resource availability and workload, issues
     affecting the timel iness of processing, examination capabilities, chain of custody,
     inter-association of cases, laboratory proximity to the crime scene and whether
     jurisdiction is clear or not at the point in which the evidence is ready for
     examination. In the rare instances where the field fails to reach an agreement it
     will be referred to, and promptly resolved by, ATF and FBI senior management,
     based on prior designation. No evidence, once examined by one laboratory, will
     be re-examined by another laboratory. In the unlikely event that the lead for the
     investigation changes, any evidence already examined, along with the
     examination reports will be transferred to the other agency. Success in enhancing
     national capabilities to defeat explosive attacks can best be achieved through
     cohesive, sound, and timely decisions that involve all agencies who have relevant
     authorities and responsibilities. The ATF and FBI will work together, utilizing
     the optimal forensic resources within the Department, to provide the each agency
     with the best quality of analysis possible. ATF and FBI will continue to
     participate in "Fellowship Exchange" programs and encourage the exchange of
     laboratory personnel.

2) INCIDENT MANAGEMENT

  A. Jurisdiction

     All of the key points discussed under the Initial Response above are applicable
     throughout the management of the incident. Jurisdiction mayor may not be
     readily apparent at the immediate outset. There should be a reasonable amount of
     time to determine whether or not the incident is accidental, a criminal act or a
     terrorist incident. Notwithstanding, the investigation must proceed jointly and
     vigorously with key decisions being made in a timely and collaborative manner.
     These protocols establish a framework built upon the mutual benefit that each
     agency has experienced as a direct result of this historically collaborative
     partnership.

     In the case that an explosives incident does not have a readily apparent motive,
     e.g. cri minal act or terrorist incident, the SACs will coordinate regarding a



                                          5




                                         94 

   decision as to jurisdiction that is in the best interest of tbe public safety and law
   enforcement. Factors such as claims of responsibility, current intelligence
   information, patterns of criminal activity, and similarities to other cases sbould be
   considered as part of the decision making process.

B. InvestigationlLeads

   Investigations will be conducted in accordance with applicable AG Guidelines
   and managed in accordance with the policies and procedures oftbe agency having
   jurisdiction for the priority violation. Should there be a determination it is not a
   terrorist incident, but has a federal nexus, the agency with jurisdi~tion over tbe
   underlying felony will assume the lead agency status. (1973 MOV; AG Memo,
   8111 /2004) Recognizing the need for joint investigative support, where applicable
   and agreed upon, SACs will designate joint co-case agents from the respective
   agencies. No parallel investigations will be undertaken, no duplicative witness
   interviews will be conducted and there will be no independent investigative
   follow·up by an agency without concurrence from the lead agency. In recognition
   of the unique requirements of28 C.F.R § 0.130 (a), explosives investigations that
   involve individuals or organizations licensed by the federal government will be
   coordinated with the co·case agent from ATF.

C. Resources

   ATF and FBI wi ll ensure adequate resources are made available for all aspects of
   this protocol document. SACs will ensure that joint participation in response
   exercises occurs. At both the field and headquarters levels, each agency will
   actively seek out opportunities for exchange of investigative, forensic, technical,
   and analytical personneL


D. Special Events Management

  The Special Events Management process was created to address those significant
  events that represent a potential terrorist target and to plan appropriate
  precautionary measures to prevent terrorism attacks or to ensure a proper Federal
  response if sucb an attack occurs. Many special events possess a national
  significance that provides a unique and highly symbolic target for terrorism.
  During a National Special Security Events (NSSE), tbe FBI will identify and
  coordinate as appropriate with other federal government components, to include
  A TF, to mitigate the consequences of an incident occurring at an NSSE.
  Consistent with the 2004 AG Memo concerning Special Events, both agencies
  agreed that advanced coordination of federal bomb management assets in
  response to local law enforcement requests will benefit all involved. The FBI will
  coordinate with the ATF during the early planning stages of a Special Event (both
  in the field and at Headquarters) to ensure the full capabilities of the Department
  are utilized during an event. Where possible, an exchange of personnel for events



                                        6




                                      95 

         will maximize effieiencies. Where no event is an NSSE, ATF hllS agreed to direct
         its ficld offices to coordinate requests from state and local law enforcement
         agencies for special events suppon with the FBI prior to committing any
         rcsources.


  3)     PROSECUTION

         Criteria for prosecution should be whatever is in the best interest of the
         community. In joint investigations, one agency shall not move forward on
         prosecution without consulting the partner agency. In all federal cases, where
         joint, the co-case agents, in coordination with their executive management, will be
         rcsponsible for making the determination to submit for prosecution. In the event
         there is a single lead agency, that agency will present the case to the AUSA fo r a
         prosecutive decision.




~~SP.M~·~lf~~[~n~~
 Director                                               Acting Director
 Federal Bureau of Investigation                        Bureau of Alcohol, Tobacco,
                                                        Firearms and Explosives

 Date:   #=                                             Date:   7NQ~




                                             7




                                                 96 

                                                                              APPENDIX VII

       MEMORANDUM FROM A UNITED STATES ATTORNEY


 Memorandum                             U.S. DEPARTMENT OF JUSTICE

                                        Eric F. Melgreo
                                        United States Attorney
                                        District afKansas
  Subject                                                      Date

  Attorney General's Memorandum on Explosives                  September 10, 2004
  Investigations


  To                                                           From
  S.A.c. Mark James                                            Eric F. Melgren
  S.A.C. Kevin Stafford
     cc: Shawn Stroud
         Tom Atteberry

Because my meeting with Stroud and Attebury was less than successful in resolving
misunderstandings between the agencies~ pursuant to paragraph 6 of the memorandum I
contacted Deputy Attorney General James Corney for guidance. Uttam Dhillon of his office,
who had principal responsibility for implementing this memorandum, visited with me about
these issues. His direction was as follows:

 1. Pursuant to the memorandum, the A TF has jurisdiction over explosives issues unless one of
 the stated exceptions applies. It is more accurate to say that this means the ATF has juriscliction
unless and until it is detennined that the explosives incident is related to terrorism; than it is to
say that the FBI or the JTTF has jurisdiction unless and until it is determined that the incident is
not related to terrorism. As Mr. Dhi1lon expressed it to me, the FBI must assert itself in order to
acquire jurisdiction over the incident. My understanding, with which he agreed, is that "default"
jurisdiction is with the ATF.

2. I inquired about the language in paragraph l.a. stating that the "JTTF determines" the incident
is related to terrorism. Practically speaking, I asked, doesn't this mean the FBI; since the FBI is
the lead agency for the JTTFs? He responded that the JTTFs were selected to ensure that the
decision was made by a joint task force with primary responsibility for investigation terrorism
cases.

Prior to circulating this memo to you, I vetted it by Mr. Dhillon, who has agreed that it accurately
represents his direction.




                                                 97 

                                                                           APPENDIX VIII

CONSOLIDATED DOJ RESPONSE TO AUDIT REPORT
           RECOMMENDATIONS


                                                  u.s. Depal1meDt of Justice
                                                  Office of the Deputy Attorney Ge!lel'al


                                                   _ D.C. ...,,.

                                                      October 9, 2009




  MEMORANDUM

  TO:            Raymond J. Beaudet
                 Assistant Inspector General for Audit
                 Office of the Inspector General

  FROM:          Edward N. Siskel   t!''%
                 Associate Deputy Attorney General
                 Offi()e of the Deputy Attorney General

  SUBJECT:       Joint Response to the OIG's Draft Report: "Explosives Investigation
                 Coordination between the Federal Bureau of Investigation and the Bureau
                 of Alcohol, Tobacco, Firearms, and Explosives"

          The Office of the Deputy Attorney General (ODAG) very much appreciates the
  opportunity to review and respond to the Office of Inspector General' s draft audit repon
  entitled, ~E"plosivcs Investigation Coordination between the Federal Buruu of
  Investigation and Ibe Bureau of Alcohol, Tobacco, Firearms, and Explosives"
  (hereinafter, "Report"). As per your office's request, this memorandwn will serve as a
  joint response to the Report on behalf of tile Bureau of Alcohol, Tobacco, Firearms, and
  Explosives (ATF), the Federal Bureau of Investigation (FBI), the Office of the Chief
  Infonnation Officer (OCIO), and the ODAG.

         The Department of Justice recognizes Ibe critical importance of a well­
  coordinated and effective =ponse to explosives incidents. Equally important is the need
  to adequately train our personnel and ensure effective infonnation sharing with all
  appropriate components and law enforcement partners.

          The Report documents the Department's cballenges concerning the most efficient
  application and balance of its explosives enforcement assets and responsibilities and
  offers some remedies to those challenges. The Department agrees with the concept of the
  recommendations that are reflected in the body of the Report and is taking steps to
  address each of those recommendations. At the same time, we recognize, and have
  discussed wilb your staff, that we mlly have modifications to how we go about
  implementing those recoounendations in order to achieve the most successful and
  efficient resoilltion to the matters under review.




                                            98 

        While the Report addresses coordination challenges, it is important to recognize
some of the successes andjoinl efforts between the ATF and FBI. From 2003 tIuough
2008, ATF and FBI jointly investigated and recommended for prosecution 192 explosives
related cases involving 397 defendants. In addition, prior to the audit period, the ATF
recognized on its own some of the highlighted issues and began a process to improve the
use and function of the Bombing and Arson Tracking System (BATS). In the past year,
over 3,000 bomb technicians and investigators have received in person BATS training,
and the numbers of agencies and individual users registered iii BATS have increased
significantly thus facilitating greater information sharing.

        It is also important to note that the Joint Program Office (JPO), which is
comprised of both the FBI and ATF, has been successful in resolving the types of issues
raised in this Report. For example, the JPO coordinated the development of community­
wide consensus standards for uniform training of explosive-detection canine teams,
which will be published in a guidelines document for implementation nationwide.
Another example of joint coordination is the Terrorist Explosive Device Analytical
Center (TEDAC). Through TEDAC, the leadership of the FBI and ATF laboratories
meets regularly to address inter-component issues. Although the FBI and ATF
laboratories each use their own platforms to manage their laboratory's forensic reports
and explosives reference material, the systems have been adapted so that both FBI and
ATF laboratory information is available to TEDAC partners.

        The Report suggests that the Department should create, or at least study further,
the creation of a single "One DOJ" data environment to serve as the repository of all
automated information about explosives. With regard to the issue of consolidated
databases, it is important to point out that a "one size fits all" approach is not necessarily
the best utilization of resources when it comes to how the Department carries out its
explosives responsibilities. The decision to consolidate any database should be a
business decision driven by the value such a consolidation will provide to the user
cornmwtity at large. If DOJ senior leadership, agents, analysts and other related users
believe their law enforcement worle is better supported by separate databases,
improvements should be evaluated to make the existinll databases accessible to alI users
and the information therein comprehensive.

        In conclusion, based upon a review of the Report, the ODAG agrees in concept
with all 15 recommendations directed to the ATF, FBI, ODAG and OCIO and is in the
process of formulating measures to resolve many of the identified issues. The ODAG
appreciated the: professionalism e:xhibited by your staff in working jointly with our
combined representatives to complete this audit.

        Please feel free to contact me should you have any questions.




                                               2




                                               99 

                                                            APPENDIX IX

    OFFICE OF THE INSPECTOR GENERAL SUMMARY AND 

   ANALYSIS OF ACTIONS NECESSARY TO CLOSE REPORT 



      The OIG provided a draft of this audit report to the Office of the
Deputy Attorney General (ODAG), ATF, and FBI. The consolidated DOJ
response prepared by the ODAG is incorporated in Appendix VIII. DOJ
stated in its response that it agrees in concept with all 15 recommendations
in the report. However, because the response did not contain any specific
corrective actions that DOJ, ATF, or the FBI plan to take to address the
recommendations, this report is issued “unresolved.”

      The DOJ response to our draft audit report also highlighted examples
of successes and joint coordination efforts in explosives investigations
between ATF and the FBI. We agree that it is important to recognize
successes and acknowledged in the report such joint investigative efforts,
the increase in BATS training, the Joint Program Office (JPO) consensus
standards for uniform training of explosive-detection canine teams, and the
Terrorist Explosive Devise Analytical Center (TEDAC).

       However, it is important to put these actions in context. In its
response, the DOJ stated that from 2003 through 2008 the FBI and ATF
“jointly investigated and recommended for prosecution 192 explosives
related cases involving 397 defendants.” While, the OIG does not dispute
that joint investigations occurred, 200 cases represents a small fraction of
the several thousand explosives cases handled by the FBI and ATF between
2003 and 2008.

       Moreover, overall the FBI and ATF lack a coordinated approach to
jointly address explosives-related matters. The report provides descriptions
of numerous disputes between the FBI and ATF during explosives
investigations, and the results from our survey of FBI and ATF personnel
demonstrate conflicting interpretations of DOJ directives and widespread
discontent for the other agency’s contributions to explosives investigations.

      The Department’s response stated that “prior to the audit period, the
ATF recognized on its own some of the highlighted issues and began a
process to improve the use and function of the Bomb and Arson Tracking
System (BATS).” On page 44 of our report, the OIG discussed ATF’s
expanded BATS training for state and local personnel. However, we found
through our survey of state and local bomb squad commanders and


                                     100 

interviews with local bomb technicians that this expansion of training had
little effect on BATS usage. The results of our survey of state and local
bomb squad commanders also demonstrated that only a minority of squads
consistently reported explosives incidents to BATS, and more than one-half
of the local responders (133 out of 239 respondents) indicated that they
rarely or never query information in BATS. Further, over 40 percent of
respondents complained that the system was too difficult to use; about 25
percent received no training; and others indicated difficulty in obtaining
passwords or getting end-user assistance, which prevented them from using
BATS.

      The DOJ also stated in its response that the Joint Program Office (JPO)
has had success in resolving issues identified in our report, specifically citing
a consensus among JPO participants on standards for uniform training for
explosive-detection canines. Our report notes that the JPO recently
established a board that agreed to a single canine standard. However, we
believe it is premature to describe the outcome of the JPO’s work on canine
standards as successfully completed. Although the JPO may have achieved
a consensus that uniform training standards should be adopted, these
standards have yet to be implemented.

       The OIG also recognizes that the JPO set up under the Homeland
Security Presidential Directive-19 (HSPD-19) process was designed to help
clarify roles and responsibilities of agencies involved in preventing or
responding to terrorist use of explosives. However, as we noted in the
report, the JPO has yet to adopt a draft charter proposed at its first meeting
in April 2009. Moreover, the JPO cannot impose consensus on components
with opposing policy positions. Absent strong leadership from DOJ to
resolve differences between the FBI and ATF, we believe the long history of
ATF and FBI competition over explosives-investigation activities is likely to
persist.

      Further, in its response, DOJ identified the coordination efforts of the
Terrorist Explosive Devise Analytical Center (TEDAC) as an example of joint
coordination. We discuss TEDAC and contributions of the FBI and ATF to
TEDAC operations in Chapter V of the report, although the OIG questions the
applicability of the TEDAC experience because it has a unique,
interdepartmental intelligence mission rather than a law enforcement role.

      DOJ’s response also stated that the “One DOJ” data environment is not
necessarily the best use of resources when it comes to consolidating
explosives databases. The OIG recognizes the opinions of the relevant user
community are important to consider in a decision on whether to consolidate
databases. However, we believe without evaluating the utility and feasibility


                                      101 

of consolidating explosives databases, DOJ cannot make an informed
decision as to the best use of its resources. The HSPD-19 Implementation
Plan has the specific goal of making all explosives information systems
available on-line, including “developing the capability to share information
across DOJ and DHS systems to make the greatest possible amount of
information seamlessly available to users.” The OIG views database
consolidation as one possible outcome of the adoption of the “OneDOJ” data
environment, which we were told during our audit was DOJ’s response to the
information-sharing requirements of HSPD-19. We also believe that DOJ
should consider consolidation to the extent that it can improve the
availability of database information.

Summary of Necessary Actions to Resolve the Report

      As stated previously, we consider the 15 recommendations to be
unresolved until we receive specific information from DOJ (and ATF and the
FBI) of the specific measures that will be taken to address each
recommendation. The following describes the actions necessary to resolve
each recommendation.

1.	   Unresolved. This recommendation can be resolved when DOJ
      specifies how and when it intends to implement new directives
      delineating lead authority for explosives investigations between the
      FBI and ATF.

2.	   Unresolved. This recommendation can be resolved when the FBI and
      ATF confirm how and when they will issue protocols on joint
      investigations of explosives incidents consistent with any new DOJ
      directives.

3.	   Unresolved. This recommendation can be resolved when DOJ
      identifies when the Office of the Chief Information Officer will conduct
      a follow-up study of database consolidation and “OneDOJ” data
      environment challenges relevant to explosives-information sharing.

4.	   Unresolved. This recommendation can be resolved when the FBI and
      ATF specify when they will issue new guidance to appropriate
      personnel to help ensure uniform, timely, and accurate data entry of
      explosives incidents and cases into BATS.

5.	   Unresolved. This recommendation can be resolved when the FBI and
      ATF identify how and when they will update the Memorandum of
      Understanding outlining ATF participation, capabilities, and jurisdiction
      for non-regulatory-type investigations on Joint Terrorism Task Forces.


                                     102 

6.	   Unresolved. This recommendation can be resolved when ATF
      specifies how and when it will reassess its staffing requirements to
      prioritize increased participation of explosives experts on task forces
      that respond to explosive crimes.

7.	   Unresolved. This recommendation can be resolved when ATF
      identifies how and when it will prioritize remedial and new-user BATS
      training for federal, state, and local users.

8.	   Unresolved. This recommendation can be resolved when ATF
      identifies how it will reassess BATS and make BATS more user-friendly
      (including requirements for usernames and passwords as well as the
      extent of required explosives-incident information).

9.	   Unresolved. This recommendation can be resolved when DOJ
      identifies how and when it will resolve any differences in curricula for
      post-blast training provided by DOJ components.

10.	 Unresolved. This recommendation can be resolved when DOJ has
     selected a single Department standard to certify canines, which should
     be consistent with HSPD-19 requirements.

11.	 Unresolved. This recommendation can be resolved when DOJ
     identifies and confirms that the Explosives Training Review Board, or
     an equivalent group, will review the feasibility of consolidating ATF and
     FBI explosives-training programs; develop a coordinated training plan
     for all DOJ explosives-related efforts; assess the explosives-related
     training needs of federal, state, and local explosives specialists; and
     prioritize the provision of explosives training accordingly.

12.	 Unresolved. This recommendation can be resolved when the FBI and
     ATF identify when and how they will implement a consolidated and
     standardized DOJ-wide curriculum for post-blast training.




                                      103 

13.	 Unresolved. This recommendation can be resolved when the FBI and
     ATF identify how and when they will develop standardized render-safe
     procedures for use in the Hazardous Device School (HDS) bomb
     technician curriculum.

14.	 Unresolved. This recommendation can be resolved when the FBI and
     ATF identify how and when they will coordinate and consolidate canine
     training efforts for peroxide-based explosives.

15.	 Unresolved. This recommendation can be resolved when DOJ
     identifies when the Explosives Laboratory Review Board, or an
     equivalent group, will report on DOJ laboratory capabilities, including
     the effect of TEDAC, and recommend the best allocation and use of
     those resources.




                                     104 

